   United States Department of Agriculture
   Office of Inspector General




Commodity Credit Corporation's
Financial Statements for
Fiscal Years 2012 and 2011




                                             Audit Report 06401-0002-11
                                             November 2012
                          United States Department of Agriculture
                                 Office of Inspector General
                                  Washington, D.C. 20250




DATE:         November 9, 2012

AUDIT
NUMBER:       06401-0002-11

TO:           Board of Directors
              Commodity Credit Corporation

ATTN:         Philip Sharp
              Director
              Operations Review and Analysis Staff
              Farm Service Agency

FROM:         Gil H. Harden
              Assistant Inspector General for Audit

SUBJECT:      Commodity Credit Corporation's Financial Statements for
              Fiscal Years 2012 and 2011


This report presents the results of the audit of Commodity Credit Corporation's (CCC) financial
statements for the fiscal years ending September 30, 2012 and 2011. The report contains an
unqualified opinion on the financial statements, as well as an assessment of CCC's internal
controls over financial reporting and compliance with laws and regulations.

CliftonLarsonAllen LLP, an independent certified public accounting firm, conducted the audit.
In connection with the contract, we reviewed CliftonLarsonAllen LLP's report and related
documentation and inquired of its representatives. Our review, as differentiated from an audit in
accordance with government auditing standards (issued by the Comptroller General of the United
States), was not intended to enable us to express, and we do not express, opinions on CCC's
financial statements, internal control or on whether CCC's financial management systems
substantially complied with the Federal Financial Management Improvement Act (FFMIA); or
conclusions on compliance with laws and regulations. CliftonLarsonAllen LLP is responsible
for the attached auditor's report, dated November 5, 2012, and the conclusions expressed in the
report. However, our review disclosed no instances where CliftonLarsonAllen LLP did not
comply, in all material respects, with government auditing standards and the Office of
Management and Budget Bulletin 07-04, Audit Requirements for Federal Financial Statements,
as amended.
Board of Directors et al.                                                                        2

It is the opinion of CliftonLarsonAllen LLP, that the financial statements present fairly, in all
material respects, CCC's financial position as of September 30, 2012, and 2011 and its net costs,
changes in net position, and budgetary resources for the years then ended, in conformity with
generally accepted accounting principles.

The CliftonLarsonAllen LLP report on CCC's internal control structure over financial reporting
identified two significant deficiencies. Specifically, CliftonLarsonAllen LLP identified
weaknesses in CCC's:

   •   funds control, and
   •   controls over child agency financial reporting.

CliftonLarsonAllen LLP considered the first significant deficiency to be a material weakness.
The results of CliftonLarsonAllen LLP's tests of compliance with laws and regulations disclosed
substantial noncompliance with FFMIA for the United States Standard General Ledger at the
transaction level.
                           U.S. DEPARTMENT OF AGRICULTURE


                           COMMODITY CREDIT CORPORATION



                                         September 30, 2012


                                         Table of Contents



Description                                                                        Page

INDEPENDENT AUDITOR’S REPORT                                                          1


    Exhibit 1 – Material Weakness                                                   1-1 


    Exhibit 2 – Significant Deficiency                                              2-1 


    Exhibit 3 – Status of Prior Year’s Findings and Recommendations                 3-1 


    Exhibit 4 – Management’s Response to Findings Contained in the Independent 

      Auditor’s Report                                                              4-1 



CCC ANNUAL REPORT
                                                                      CliftonLarsonAllen LLP
                                                                      www.cliftonlarsonallen.com




                             INDEPENDENT AUDITOR’S REPORT


To the Inspector General
U.S. Department of Agriculture
To the Board of Directors
Commodity Credit Corporation:
We have audited the accompanying consolidated balance sheets of the Commodity Credit
Corporation (CCC) as of September 30, 2012 and 2011, and the related consolidated
statements of net cost and changes in net position, and the combined statements of budgetary
resources (“financial statements”) for the years then ended. The objective of our audit was to
express an opinion on the fairness of these financial statements. In connection with our audit,
we also considered the internal control over financial reporting and considered CCC’s
compliance with laws and regulations. In our audit, we found:

      The financial statements, including the accompanying notes, are presented fairly, in all
       material respects, in conformity with accounting principles generally accepted in the
       United States of America (U.S.);
      One material weakness and one significant deficiency in internal control over financial
       reporting (including safeguarding of assets) and compliance;
      No instance of noncompliance with selected provisions of laws and regulations tested,
       exclusive of the Federal Financial Management Improvement Act (FFMIA); and
      Not in substantial compliance with the FFMIA Section 803 (a) on the application of the
       U.S. Standard General Ledger (USSGL) at the transaction level.
We also noted non-reportable matters that we will communicate to CCC in a separate
management letter that will be dated November 5, 2012.
The following sections and exhibits discuss in more detail: (1) above conclusions, (2) our
conclusions on Management’s Discussion and Analysis (MD&A) and other accompanying
information, (3) our responsibility for the audit, (4) management’s responsibility for the financial
statements, (5) management’s response and our evaluation of their response, and (6) the
current status of prior year findings and recommendations.
Opinion on the Financial Statements
In our opinion, the financial statements referred to above, present fairly, in all material respects,
the financial position of CCC as of September 30, 2012 and 2011, and its net costs; changes in
net position; and budgetary resources for the years then ended in conformity with accounting
principles generally accepted in the U.S.
As discussed in Note 1 to the consolidated financial statements, CCC changed its presentation
for reporting the Statement of Budgetary Resources in fiscal year 2012, based on new reporting
requirements under OMB Circular A-136, Financial Reporting Requirements. As a result, CCC’s
Statement of Budgetary Resources for fiscal year 2011 has been adjusted to conform to the
current year presentation.



                                                 1

Report on Internal Control over Financial Reporting and Compliance

In planning and performing our audit, we considered CCC’s internal control over financial
reporting and compliance (internal control) as a basis for designing our auditing procedures for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of CCC’s internal control or on management’s
assertion on internal control included in the MD&A. Accordingly, we do not express an opinion
on the effectiveness of CCC’s internal control or on management’s assertion on internal control
included in the MD&A.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect and correct misstatements on a timely basis. A material weakness is a
deficiency or a combination of deficiencies in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. A significant deficiency is a control deficiency, or
combination of deficiencies in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described above and was not
designed to identify all deficiencies in internal control that might be significant deficiencies or
material weaknesses. However, we identified a deficiency in internal control described in Exhibit
1 that we consider to be a material weakness and a combination of deficiencies described in
Exhibit 2 that we consider to be a significant deficiency.

Also, as required by OMB Bulletin 07-04, as amended, Audit Requirements for Federal
Financial Statements, we compared the material weakness disclosed during the audit with those
material weaknesses reported in the CCC’s Federal Managers Financial Integrity Act (FMFIA)
report that relate to the financial statements. Our audit did not identify any material weaknesses
that were not identified by CCC in their FMFIA report.


Report on Compliance and Other Matters

In connection with our audit, we performed tests of CCC’s compliance with selected provisions
of applicable laws and regulations. The results of our tests disclosed no instances of
noncompliance that are required to be reported in accordance with Government Auditing
Standards, issued by the Comptroller General of the United States or OMB Bulletin 07-04, as
amended. However, the objective of our audit was not to provide an opinion on compliance with
laws and regulations. Accordingly, we do not express such an opinion.

Under FFMIA, we are required to report whether the financial management systems used by
CCC substantially comply with the (1) Federal financial management systems requirements, (2)
applicable Federal accounting standards, and (3) the USSGL at the transaction level. To meet
this requirement, we performed tests of compliance with FFMIA Section 803(a) requirements.

The objective of our audit was not to provide an opinion on CCC’s compliance with FFMIA.
Accordingly, we do not express such an opinion. However, the results of our tests of FFMIA
disclosed one instance in which CCC’s financial management systems did not substantially
comply with Section 803(a) requirement on the application of the USSGL at the transaction
level. Application of the USSGL at the transaction level means that each time an approved


                                                 2

transaction is recorded in the system; it will generate appropriate general ledger accounts for
posting the transaction according to the rules defined in the USSGL guidance. See Exhibit 1
material weakness for the facts pertaining to the noncompliance, including the nature and extent
of the noncompliance, and the primary reason or cause of the noncompliance.


Status of Prior Year’s Findings and Recommendations

We have reviewed the status of CCC’s corrective actions with respect to the findings and
recommendations included in last year’s Independent Auditor’s Report. The status of prior
year’s findings and recommendations is presented in Exhibit 3.


Other Information

Accounting principles generally accepted in the U.S. require that CCC’s MD&A and other
required supplementary information (including stewardship information) be presented to
supplement the financial statements. Such information, although not a part of the financial
statements, is required by the Federal Accounting Standards Advisory Board who considers it to
be an essential part of financial reporting for placing the financial statements in an appropriate
operational, economic, or historical context. We have applied certain limited procedures to the
MD&A and required supplementary information in accordance with auditing standards generally
accepted in the U.S., which consisted of inquiries of management about the methods of
preparing the information and comparing the information for consistency with management's
responses to our inquiries, the financial statements, and other knowledge we obtained during
our audit of the financial statements. We do not express an opinion or provide any assurance on
the information because the limited procedures do not provide us with sufficient evidence to
express an opinion or provide any assurance.

The performance section and other accompanying information section are presented for
additional analysis and are not a required part of the financial statements. Such information has
not been subjected to the auditing procedures applied in the audit of the financial statements
and, accordingly, we express no opinion on them.


Management’s Responsibility for the Financial Statements

CCC management is responsible for (1) preparing the financial statements in conformity with
accounting principles generally accepted in the U.S., (2) designing, implementing, and
maintaining internal control to provide reasonable assurance that the broad control objectives of
FMFIA are met, (3) ensuring that CCC’s financial management systems substantially comply
with FFMIA requirements, and (4) complying with other applicable laws, regulations, and
government-wide policies.


Auditor’s Responsibility

We are responsible for conducting our audit in accordance with auditing standards generally
accepted in the U.S.; the standards applicable to the financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin
07-04, as amended. Those standards require that we plan and perform the audit to obtain


                                                3

reasonable assurance about whether the financial statements are presented fairly, in all material
respects, in conformity with accounting principles generally accepted in the U.S. We are also
responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting and compliance to plan the audit, (2) testing whether CCC’s financial management
systems substantially comply with the FFMIA requirements referred to above, (3) testing
compliance with selected provisions of laws, regulations, government-wide policies, laws
identified in Appendix E of OMB Bulletin 07-04, as amended, and other applicable laws and
regulations that could have a direct and material effect on the financial statements, and (4)
performing limited procedures with respect to certain other information appearing in the
published Annual Financial Report.

In order to fulfill these responsibilities, we (1) examined, on a test basis, evidence supporting the
amounts and disclosures in the financial statements; (2) assessed the appropriateness of the
accounting policies used and the reasonableness of significant estimates made by
management; (3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding of CCC and its operations, including its internal control related to financial
reporting (including safeguarding of assets) and compliance with laws and regulations (including
execution of transactions in accordance with budget authority); (5) evaluated the effectiveness
of the design of internal control; (6) tested the operating effectiveness of relevant internal
controls over financial reporting and compliance; (7) considered the design of the process for
evaluating and reporting on internal control and financial management systems under FMFIA;
(8) tested whether CCC’s financial management systems substantially complied with the FFMIA
requirements; and (9) tested compliance with selected provisions of certain laws and
regulations. The procedures selected depend on the auditor’s judgment, including our
assessment of risks of material misstatement of the financial statements, whether due to fraud
or error. We believe we obtained sufficient and appropriate audit evidence on which to base our
conclusions.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
the FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in internal control, misstatements due to error or
fraud, losses, or noncompliance may nevertheless occur and not be detected. We also caution
that projecting our audit results to future periods is subject to risk that controls may become
inadequate because of changes in conditions or that the degree of compliance with controls
may deteriorate. In addition, we caution that our internal control testing may not be sufficient for
other purposes.

We did not test compliance with all laws, regulations, and government-wide policies applicable
to CCC. We limited our tests of compliance to selected provisions of laws, regulations, and
government-wide policies, applicable laws identified in Appendix E of OMB Bulletin 07-04, as
amended, and other applicable laws and regulations that could have a direct and material effect
on the CCC’s financial statements for the fiscal year ended September 30, 2012. We caution
that noncompliance with laws and regulations may occur and not be detected by these tests and
that such testing may not be sufficient for other purposes.


CCC’s Comments and our Evaluation

Management’s response to our report is presented in Exhibit 4. We did not audit CCC’s
response and, accordingly, we express no opinion on it.


                                                 4

                                *********************************



This report is intended solely for the information and use of CCC management, USDA Office of
Inspector General, OMB, the Government Accountability Office, and the U.S. Congress, and is
not intended to be, and should not be, used by anyone other than these specified parties.



a
Calverton, Maryland
November 5, 2012




                                               5

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 1 

                                 September 30, 2012


MATERIAL WEAKNESS

1. Funds Control (Modified Repeat Finding)

During the year, CCC has made significant progress in its control over funds management
specific to recording obligations at the transaction level. However, CCC still has not achieved
full funds control and still does not record certain obligations (budgetary entries) at the
transaction level. This deficiency does not allow CCC to perform an automated and real time
fund controls at the time contracts are fully executed (obligated).

CCC uses the funds-control system (eFMS) in recording obligations at the transaction level.
However, as of September 30, 2012, a substantial portion of its funds is still not managed in
eFMS. Approximately $2.2 billion of CCC’s $14.7 billion budget authority as of March 31, 2012,
remains to be fully integrated with eFMS for monitoring obligations against apportionment.

CCC’s corrective action plan is projected to achieve full funds management control by the end
of FY 2014 and has incorporated this as part of its Financial Management Modernization
Initiative (FMMI) through the Agency-wide Modernize and Innovate the Delivery of Agricultural
Systems (MIDAS) project.

OMB Circular A-11, Preparation, Submission, & Execution of the Budget, states that the agency
accounting system must fully support agency funds control systems. The agency’s system of
administrative control of funds should be designed to keep obligations from exceeding
apportioned amounts, allotments, suballotments, and other administrative subdivisions of funds.
The funds-control system must track obligations by program reporting categories used in the
apportionment.

Also, OMB Circular A-127, Financial Management Systems, states that, “Financial events shall
be recorded applying the requirements of the U.S. Standard General Ledger (USSGL).
Application of the USSGL at the transaction level means that each time an approved transaction
is recorded in the system, it will generate appropriate general ledger accounts for posting the
transaction according to the rules defined in the USSGL guidance.”

CCC has continued to implement its remediation plan to achieve full funds control and record
obligations at the transaction level. As of September 30, 2012, it has migrated approximately 85
percent of its budget authority in its eFMS. Accordingly, we will not repeat previous year’s
recommendations in this report.




                                              1-1

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2 

                                  September 30, 2012


SIGNIFICANT DEFICIENCY

2. Strengthen Control Over Child Agency Financial Reporting (Modified Repeat Finding)
The CCC is a party to allocation transfers with the U.S. Agency for International Development
(USAID) as the transferring entity (parent). In accordance with OMB Circular A-136, Financial
Reporting Requirements, “The parent is accountable for and maintains the responsibility for
reporting while the child performs on behalf of the parent and controls how the funds are
expended. The parent is responsible for the program’s overall performance and may decide to
reallocate funds if the parent is not satisfied with the child’s performance.” It further states that
“The key to timely and accurate quarterly reporting by the child agency is the communication
between the parent and child. It is strongly recommended that issues such as formats, abnormal
balances, capitalization thresholds, useful lives, depreciation methodologies, transfer of trading
partner information, etc., be discussed and resolutions reached at a date required by the parent
to meet its reporting and auditing deadlines.”
During fiscal year 2012, CCC allocated funds of approximately $1 billion to USAID (the child) to
fund P.L. 480 Title II, transportation and other administrative costs in connection with foreign
donations.
The relationship between CCC and USAID has improved significantly and CCC plans to
continue its efforts to work with USAID to develop and implement processes and controls that
will substantially mitigate this deficiency. Accordingly, we did not repeat previous years’
recommendations in this report.
Review and Reconciliation of Unliquidated Obligation (Repeat Finding)

During prior fiscal years, we reported a significant deficiency to CCC that USAID does not
perform periodic reconciliations between unliquidated obligations in the general ledger (GL) and
subsidiary records. During FY 2012, we noted that USAID performs an annual reconciliation in
the fourth quarter but does not perform quarterly reconciliations to ensure that the unliquidated
obligation balances at the end of each quarter are reasonable. USAID’s unliquidated obligation
is approximately $1.1 billion as of September 30, 2012. We requested but did not receive timely
audit evidence that USAID performed periodic reviews and reconciliations between unliquidated
obligations in the GL and subsidiary records as of June 30, 2012, and ensured that expired
obligations were deobligated on a timely basis.
USAID has a policy for annual certification of validity of obligations and annual certification of
unliquidated balances. During these certifications all obligations are supposed to be validated
and marked for de-obligation if appropriate. However, this policy is not fully complied with.
Review and Recording of Accruals (Modified Repeat Finding)
USAID records grant awards accrual on a quarterly basis. Accruals are calculated to provide an
accurate picture of an award’s true status. Accruals also help the Agency anticipate future
funding and spending. The Cognizant Technical Officer (CTO) evaluates the system calculation
and decides if an adjustment is necessary. The CTO uses a worksheet to calculate estimated
quarterly expenses. The worksheet has historical monthly expenses beginning with the time the
obligation/contract was made. The worksheet is used to calculate an estimate of a month’s
expenses by using a “burn rate” and a weighted quarterly average.



                                                2-1 

                          U.S. DEPARTMENT OF AGRICULTURE

                           COMMODITY CREDIT CORPORATION

                       INDEPENDENT AUDITOR’S REPORT EXHIBIT 2 

                                  September 30, 2012


During our test of 20 sample transactions, we identified 6 instances where there was no timely
supporting documentation for the accrual and 4 instances where an accrual transaction was
calculated correctly in the worksheet but was overstated in the general ledger. This resulted in a
combined overstatement of approximately $9 million for the accrual and the expenses balance
reported as of June 30, 2012. USAID management noted the error and concurred.

USAID does not perform periodic look back procedures of the grant accruals to validate whether
the grant accrual methodology results in accruals that approximate actual dollar amounts from
subsequent grantee reporting.

Technical Release 12, Accrual Estimates for Grant Programs, states that "As part of agencies'
internal control procedures to ensure that grant accrual estimates for the basic financial
statements were reasonable, agencies should validate grant accrual estimates by comparing
the estimates with subsequent grantee reporting."


USAID FBWT Reconciliation (Modified Repeat Finding)

During FY 2010 and 2011, we reported in a management letter that USAID continued to use a
suspense account (account 1010.31) to post the differences between its GL Fund Balance with
Treasury (FBWT) account as recorded in the financial accounting system (Phoenix) and the
Fund Balance reported by the Department of the Treasury (Treasury) in order to facilitate
FACTS II submissions.

In FY 2012, USAID continues to have unreconciled differences and uses a suspense account to
post differences between its GL and Treasury’s FBWT accounts without a formal identification
of the causes of the differences. As of June 30, 2012, the net unreconciled difference in the
suspense account was $0.7 million. The use of the suspense account resulted from recorded
transactions that could not be readily identified when USAID received notification of these
transactions from Treasury and could not resolve these items within the 60-day requirement
established by Treasury.

GAO Standard for Internal Control states that internal control should generally be designed to
assure that ongoing monitoring occurs in the course of normal operations. It is performed
continually and is ingrained in the agency’s operations. It includes regular management and
supervisory activities, comparisons, reconciliations, and other actions people take in performing
their duties.

In addition, OMB Circular A-123, Management Responsibility for Internal Control, states that
monitoring the effectiveness of internal control should occur in the normal course of business. In
addition, periodic reviews, reconciliations or comparisons of data should be included as part of
the regular assigned duties of personnel. Periodic assessments should be integrated as part of
management’s continuous monitoring of internal control, which should be ingrained in the
agency’s operations. If an effective continuous monitoring program is in place, it can level the
resources needed to maintain effective internal controls throughout the year.




                                               2-2 

                         U.S. DEPARTMENT OF AGRICULTURE

                          COMMODITY CREDIT CORPORATION

                      INDEPENDENT AUDITOR’S REPORT EXHIBIT 3 

                                 September 30, 2012


STATUS OF PRIOR YEAR’S FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards and OMB Bulletin No. 07-04, as amended,
Audit Requirements for Federal Financial Statements, we have reviewed the status of CCC
corrective actions with respect to the findings and recommendations included in CCC’s internal
control report for FY 2011 dated November 4, 2011. The following analysis provides our
assessment of the progress CCC has made through September 30, 2012 in correcting the
noted deficiencies.


                 FY 2011 Findings              Years Reported          FY 2012 Status

        Financial Management System’s         2002 – 2011              Open – Finding
        Functionality                         Material Weakness       Condition Modified
                                              (MW)                     Reported as MW

        Strengthen Information Security       2002 – 2008 MW           Open – Finding
        Controls                              2009-2011              Reported Separately
                                              Significant           as Management Letter
                                              Deficiency (SD)            Comment
        Strengthen Control Over Child         2008 - 2011 SD           Open – Finding
        Agency Financial Reporting                                    Condition Modified
                                                                      Reported as a SD




                                             3-1 

                    -
                    USDA

                    Exhibit 4


United States
Department of
Agriculture
Farm and
Foreign             TO:             Lynette Cockrell
Agricultural                        Regional Inspector General
Services
                                    Office of the Inspector General
Commodity
Credit
Corporation                         Mia Leswing
1400 Independence                   Partner-in-Charge
Avenue,SW                           CliftonLarsonAllen


                                     ~~~~:i!~~                            ~t(lJ-jJ
Stop 0581
Washington, DC
20250-0581          FROM:
                                                  Officer
                                     Commodity Credit Corporation               C/{
                                                                                v-

                    SUBJECT: Response to the Draft Combined Independent Auditor's Report on the
                                    Commodity Credit Corporation's (CCC) Fiscal Years 2012 and 2011,
                                    Comparative Financial Statements


                    We have reviewed the CliftonLarsonAllen (CLA) Draft Combined Independent Auditor's
                    Report dated November 5, 2012, and concur with its contents. We are very pleased that
                    for the lOth consecutive year, CCC's financial statements have received an unqualified
                    opinion from the auditors.

                    CCC will continue to implement our planned corrective actions to address the fmdings
                    identified during the audit. We will continue to work with the Office of the Inspector
                    General and CLA to ensure that the specific actions will successfully mitigate the
                    deficiencies reported.

                    If you have any questions or require additional information, please contact
                    Elizabeth Russell at (202) 772-6031.




                    USDA is an equal opportunity provider and employer.




                                                                          4-1
U.S. DEPARTMENT OF
   AGRICULTURE
COMMODITY CREDIT
  CORPORATION




2012 ANNUAL REPORT
U.S. Department of Agriculture
Commodity Credit Corporation
  1400 Independence Avenue, S.W.
      Washington, DC 20250

   2012 Annual Report


                    ii
                                                 PREFACE

This Annual Report shows the results of the Commodity Credit Corporation’s (CCC) operations for fiscal year 2012.
This report replaces the former Annual Report of the Commodity Credit Corporation and meets the requirements of
the CCC Charter Act, as amended, and the Government Corporation Control Act, as amended.

CCC worked closely with CliftonLarsonAllen LLP and the Office of Inspector General (OIG) for the United States
Department of Agriculture (USDA) in the development of this report.

The Management’s Discussion and Analysis section of the report contains the purpose, authority, mission, and goals
of the Corporation, financial, program summaries, and performance measures. This information is followed by the
audit opinion letter, financial statements, and accompanying notes.




The USDA prohibits discrimination in all its programs and activities on the basis of race, color, national origin, age,
disability, and where applicable, sex, marital status, familial status, parental status, religion, sexual orientation,
political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any
public assistance program. (Not all prohibited bases apply to all programs.) Persons with disabilities who require
alternative means for communication of program information (Braille, large print, audiotape, etc.) should contact
USDA’s TARGET Center at (202) 720-2600 (voice and TDD).

To file a complaint of discrimination, write to USDA, Assistant Secretary for Civil Rights, Office of the Assistant
Secretary for Civil Rights, 1400 Independence Avenue, S.W., Stop 9410, Washington, DC 20250-9410, or call toll-
free at (866) 632-9992 (English) or (800) 877-8339 (TDD) or (866) 377-8642 (English Federal-relay) or (800) 845-
6136 (Spanish Federal-relay). USDA is an equal opportunity provider and employer.




                                                              iii
                                                           Table of Contents
Message from the Chief Financial Officer...................................................................................... 1
Part I: Management’s Discussion and Analysis (Unaudited) ......................................................... 3
Mission Statement ......................................................................................................................................................... 4
History of the Commodity Credit Corporation .............................................................................................................. 5
Structure of the Commodity Credit Corporation ........................................................................................................... 6
CCC Board of Directors ................................................................................................................................................ 7
CCC Program Areas ...................................................................................................................................................... 8
Future Effects of Demands, Events, and Conditions ..................................................................................................... 9
2012 Performance Highlights Summary ..................................................................................................................... 12
Financial Highlights .................................................................................................................................................... 14
Management Controls, Systems, and Compliance with Laws and Regulations ......................................................... 20
Federal Managers’ Financial Integrity Act .................................................................................................................. 24
Federal Financial Management Improvement Act ..................................................................................................... 26
Antideficiency Act....................................................................................................................................................... 27
Limitations of the Financial Statements ...................................................................................................................... 27

Part II: Performance Section (Unaudited)..................................................................................... 28
Income Support and Disaster Assistance Program Area ............................................................................................. 30
Conservation Program Area ........................................................................................................................................ 34
Commodity Operations and Food Aid Program Area ................................................................................................. 36
Market Development Program Area ............................................................................................................................ 38
Export Program Area ................................................................................................................................................... 41

Part III: Financial Section ............................................................................................................. 44
Consolidated Financial Statements .............................................................................................................................. 45
Notes to the Financial Statements................................................................................................................................ 49

Part IV: Required Supplementary Information (Unaudited) ........................................................ 97
Part V: Other Accompanying Information (Unaudited) ............................................................. 102
Glossary of Acronyms ................................................................................................................ 109




                                                                                           iv
Message from the Chief Financial Officer




                   1
2
Part I: Management’s
Discussion and Analysis
(Unaudited)




Certain information contained in this discussion is considered “forward-looking information” as
defined by the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal
Financial Accounting Standards (SFFAS) No. 15, Management’s Discussion and Analysis, and
Statement of Federal Financial Accounting Concepts (SFFAC) No. 3, Management’s Discussion
and Risk Analysis Concepts. Such forward-looking information includes estimates and is subject
to risks and uncertainties that could cause actual results to differ materially from this discussion.



                                                  3
                      Mission Statement


The Commodity Credit Corporation is a Government-owned and
operated entity dedicated to:

  Stabilizing, supporting, and protecting farm income and prices.

  Conserving soil, air, and water resources and protecting and
   improving wildlife habitats.

  Maintaining balanced and adequate supplies of agricultural
   commodities and aiding in their orderly distribution.

  Developing new domestic and foreign markets and marketing
   facilities for agricultural commodities.




                                 4
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


            History of the Commodity Credit Corporation

  E         stablished in 1933, the Commodity Credit Corporation (hereinafter CCC or Corporation) is a
            government-owned corporation within the United States Department of Agriculture (USDA) created to
            stabilize, support, and protect farm income and prices. CCC is also the Federal government’s primary
financing arm for many domestic and international agricultural programs. The statutory authority for Corporation
operations is found in the CCC Charter Act, 15 U.S.C. 714, and et seq. CCC helps maintain balanced and adequate
supplies of agricultural commodities and aids in their orderly distribution.

CCC helps America’s agricultural producers through commodity and farm storage facility loans, purchases, and
income support payments. CCC also works to make available materials and facilities required in the production and
marketing of agricultural commodities. In addition, CCC provides incentives and payments to landowners to
establish conservation practices on their land.

CCC provides agricultural commodities to other Federal agencies and foreign governments. CCC also donates
commodities to domestic and international relief agencies as well as foreign countries. CCC assists in the
development of new domestic and foreign markets and marketing facilities for American agricultural commodities.
CCC operates numerous domestic programs such as income support, disaster, and conservation programs. It also
extends direct credit and guarantees commodity sales to foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and United States Treasury to
make payments. This disbursing authority allows CCC to make payments quickly and to provide financial support
to America’s producers and farmers immediately. CCC has multiple funding mechanisms. Most of the domestic
programs are operated out of a revolving fund, in which the CCC has a permanent indefinite borrowing authority, as
defined by Office of Management and Budget (OMB) Circular A-11, Preparation, Submission, and Execution of the
Budget. Borrowing authority permits the Corporation to incur obligations and authorizes it to borrow funds to
liquidate the obligations. This fund also receives money from appropriated funding for costs incurred (i.e., realized
losses), loan repayments, inventory sales, interest income, and fees. Additionally, CCC receives direct
appropriations for specific programs such as its Credit Reform programs, foreign grant and donation programs, and
disaster relief.




                                                         5
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


           Structure of the Commodity Credit Corporation
A Board of Directors manages CCC and is subject to the general supervision and direction of the Secretary of
Agriculture who is an ex officio director and chairperson of the Board. The Board consists of seven members in
addition to the Secretary. The President of the United States, with the advice and consent of the Senate, appoints the
board members to office. The members of the Board and the Corporation officers are officials of USDA. CCC
officers, directly or through officials of designated USDA agencies, maintain liaison with numerous other
governmental and private trade operations.

The CCC has no actual employees; it carries out the majority of its programs through the personnel and facilities of
the Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources Conservation Service
(NRCS), Foreign Agricultural Service (FAS), and the United States Agency for International Development
(USAID). Most of the CCC programs are delivered through an extensive nationwide network of FSA field offices,
including approximately 2,100 USDA Service Centers and 51 state offices (including Puerto Rico). This network
enables CCC to maintain a close relationship with customers, successfully addressing their needs and continually
improving program delivery. FSA implements CCC funded programs for income support, disaster assistance,
conservation, and international food procurement.

Though FSA provides the staff for CCC, several CCC funded programs fall under purview of FAS or NRCS. FAS
has the primary responsibility for USDA international activities - market development, trade agreements and
negotiations, and the collection and analysis of statistics and market information. It also administers the USDA
export credit guarantee and certain food aid programs and helps increase income and food availability in developing
nations by mobilizing expertise for agriculturally led economic growth.

The NRCS provides leadership in a partnership effort to help American private landowners and managers conserve
their soil, water, and other natural resources. It also provides financial assistance for many conservation activities.
CCC reaches out to all segments of the agricultural community, including underserved and socially disadvantaged
farmers and ranchers to ensure that CCC programs and services are accessible to everyone.




                                                           6
                         COMMODITY CREDIT CORPORATION
                                Management Discussion and Analysis


                             CCC Board of Directors
                    Chairperson, Thomas James Vilsack, Secretary of Agriculture
              Vice Chairperson, Kathleen Ann Merrigan, Deputy Secretary of Agriculture
      Member, Michael T. Scuse, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
              Member, Dallas Paul Tonsager, Under Secretary, Rural Development (RD)
     Member, Kevin W. Concannon, Under Secretary, Food, Nutrition, and Consumer Services (FNCS)
             Member, Vacant, Chief Financial Officer and Chief Information Officer, USDA
       Member, Edward M. Avalos, Under Secretary, Marketing and Regulatory Programs (MRP)
       Member, Harris D. Sherman, Under Secretary, Natural Resources and Environment (NRE)


                                       CCC Officers
                             President, Michael T. Scuse, Under Secretary, FFAS
           Executive Vice President, Juan M. Garcia, Administrator, Farm Service Agency (FSA)
   Vice President, Candace Thompson, Acting Associate Administrator, Operations and Management, FSA
          Vice President, David R. Shipman, Administrator, Agricultural Marketing Service (AMS)
             Vice President, Suzanne Heinen, Administrator, Foreign Agricultural Service (FAS)
                       Vice President, Suzanne Heinen, General Sales Manager, FAS
              Vice President, Audrey Rowe, Administrator, Food and Nutrition Service (FNS)
            Vice President, David White, Chief, Natural Resources Conservation Service (NRCS)
      Deputy Vice President, James W. Monahan, Deputy Administrator, Commodity Operations, FSA
          Deputy Vice President, Patricia Farmer, Acting Deputy Administrator, Management, FSA
          Deputy Vice President, Craig Trimm, Acting Deputy Administrator, Farm Programs, FSA
          Deputy Vice President, John Berge, Acting Deputy Administrator, Field Operations, FSA
           Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
                    Deputy Vice President, Joanna Munno, Acting Associate Chief, NRCS
                  Deputy Vice President, Anthony Kramer, Deputy Chief, Programs, NRCS
              Deputy Vice President, Jane Hardisty, Acting Deputy Chief, Management, NRCS
           Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
                               Deputy Secretary, Vacant, Farm Service Agency
                      Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
                     Chief Financial Officer, Bruce Ward, Chief Financial Officer, FSA
                 Treasurer, Joseph Spain Jr., Director, Financial Management Division, FSA
    Chief Accountant, Sherry A. Laws, Center Director, Policy, Accounting, Reporting, and Loan Center,
                                    Financial Management Division, FSA


                                            Advisors
                  General Counsel, Ramona Emilia Romero, Office of the General Counsel
Associate General Counsel, Ralph A. Linden, International Affairs, Commodity Programs and Food Assistance
                                                 Programs




                                                   7
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


                                      CCC Program Areas
The CCC funds many programs that fall under multiple agencies within the USDA. Each CCC funded program
helps achieve parts of both the CCC mission and the strategic plan of the agency under which the program falls.
The CCC mission and strategic goals are achieved through the successful implementation of the following key
programs areas:

Income Support and Disaster Assistance – Income support and disaster assistance programs provide financial
assistance to protect farmers and ranchers from fluctuations in market conditions and unexpected natural or man-
made disasters. Assistance is provided through income support programs, disaster assistance programs, and the
Noninsured Crop Disaster Assistance Program (NAP). FSA is responsible for administering income support and
disaster assistance programs.

Conservation – Supported by the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), conservation
programs offer farmers and ranchers a variety of financial and economic incentives to conserve natural resources on
the nation’s privately owned farmlands. These programs focus on reducing erosion, protecting streams and rivers,
restoring and establishing fish and wildlife habitats, and improving air quality through several conservation
incentive payments, technical assistance, and cost-share programs. FSA and NRCS administer the CCC
conservation programs.

Commodity Operations and Food Aid – FSA personnel handle the procurement, acquisition, storage, disposition,
and distribution of commodities, and the administration of the United States Warehouse Act (USWA). These
programs help achieve domestic farm program price support objectives, produce a uniform regulatory system for
storing agricultural products, and ensure the timely provision of food products for domestic and international food
assistance programs and market development programs.

Foreign Market Development – Expanding markets for agricultural products is critical to the long-term health and
prosperity of the U.S. agricultural sector. With 95 percent of the world’s population living outside the United States,
future growth in demand for food and agricultural products will occur primarily in overseas markets. The CCC
funds used in the market development programs play a critical role in helping to open new markets and in
facilitating U.S. competitiveness and by doing so, help to secure a more prosperous future for American agriculture.
Support for economic development and trade capacity building reinforces these efforts by helping developing
countries to become economically stable and improve their prospects to participate in and benefit from expanding
global trade in agricultural products. FAS administers the CCC foreign market development programs.

Export Credit – The CCC export credit guarantee and direct loan programs, administered by FAS in conjunction
with FSA, provide payment guarantees for third party commercial financing and direct financing of U.S. agricultural
exports. These programs facilitate exports to buyers in countries where credit is necessary to maintain or increase
U.S. sales but where financing may not be available without CCC credit facilities.




                                                          8
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


        Future Effects of Demands, Events, and Conditions
Direct Government payments to farmers are expected to average about $9.6 billion annually over the next decade.
Price-dependent marketing loan and counter-cyclical program benefits have become less important. Ad hoc and
emergency payments are projected to fall from recent levels, in part because the supplemental agricultural disaster
assistance programs authorized under the 2008 Farm Bill only cover qualifying losses that occurred on or before
September 30, 2011. About 80 percent of direct Government payments are accounted for by the Conservation
Reserve Program (CRP) and fixed direct payments during the latter part of the projection period.

        Improving domestic and international demand keeps crop prices above levels that would result in
         marketing loan benefits or counter-cyclical payments, so benefits for these programs are projected to be
         negligible over the next decade. Similarly, with relatively low enrollment and projected long-run stability
         in commodity prices, projections of payments under the Average Crop Revenue Election (ACRE) program
         average less than $100 million annually over 2012-2021.
        High crop prices have made arable land more valuable, so rental rates for land in the CRP program have
         risen. Even with reduced CRP acreage enrollment due to the 2008 Farm Bill’s lowering of the maximum
         acreage permitted in the program to 32 million acres, CRP payments are projected to rise from about $1.8
         billion in 2010 to $2.5 billion in 2021.
        With high prices, Government payments have a smaller role in the agricultural sector’s income.
         Government payments, which represented more than 8 percent of gross cash income in 2005, fall to a 2 to 3
         percent range by the end of the projection period. Conversely, the sector relies on the market for more of
         its income.

After increasing by 17 percent in 2010 and 20 percent in 2011, average net cash income for farm businesses is
projected to increase 2.3 percent, to $87,200, in 2012 (See Table 1for data by region). Drought conditions are
affecting farm businesses differently across regions and among farm types and specializations. Commercial
operations, which represent 80 percent of production, are expected to experience a 1.3 percent increase in average
net cash income in 2012. Intermediate farms are projected to have incomes about 14 percent higher, on average.
Farm businesses specializing in program crops are forecast to have higher net cash income in 2012, while farm
businesses specializing in livestock are forecast to have more varied outcomes. These predictions are largely due to
strong crop and feed prices and payout of insurance indemnities and represent average forecast farm business net
cash income, which captures many of the potential drought impacts that producers are facing. However average net
cash income may not reflect the financial position of producers facing extreme drought impacts.




Portions of Future Effects of Demands, Events, and Conditions were extracted from the World Outlook Board
“USDA Agricultural Projections to 2021” dated February 2012; the Economic Research Service “Farm Sector
Income & Finances” dated August 28, 2012; and the Economic Research Service “2012 Farm Sector Income
Forecast” dated September 11, 2012.


                                                          9
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis

Although all program crop farm businesses are forecast to have higher average net cash income in 2012 than 2011,
some crop specializations will experience higher gains than others. Insurance indemnities are forecast to offset the
impacts of declining yields associated with the drought. With increased wheat prices and the winter wheat harvest
largely completed before the onset of drought, average net cash income for wheat farm business is forecast up nearly
33 percent over 2011. Average net cash income is forecast up for corn farms due to expanded acreage and high
prices. A few States less affected by the drought even experienced an increase in corn yields over 2011. Soybean
farm businesses largely follow the same pattern as corn farm businesses. Although cotton receipts are projected
down in 2012, cotton and rice farm businesses are benefiting from strong grain and oilseed performance. Other field
crop farm businesses (sugar crops, hay, silage, trees, and woody crops) are expected to experience a 19 percent
increase in net cash income, on average, in 2012, with gross crop receipts forecast up about 6 percent. After
substantial gains in average net cash income in 2010 and 2011, dairy farm businesses are forecast to experience a 52
percent decline in 2012.

                 Table 1: 2012 Farm Business Net Cash Income forecast compared with 2011




There is considerable regional disparity in the outlook for 2012 farm business 1 net cash income, with two regions
expected to experience losses of 10-11 percent from 2011 and three others expected to experience significant gains
(See Table 1). With higher-than-average crop farm income and sustained cattle farm income, net cash farm income
is forecast to increase by over one-third in the Northern Great Plains. The Prairie Gateway and Mississippi Portal
are expected to benefit from increased program crop farm income. The largest drops in net cash farm income are in
the Northern Crescent and the Fruitful Rim, where many farm businesses specialize in dairy production and
specialty crop production, respectively.

1
  Farm businesses are defined as operations with sales of over $250,000 (labeled "commercial") or smaller
operations where farming is reported as the operator's primary occupation (labeled "intermediate"). Approximately
18 percent U.S. farms are commercial and 25 percent are intermediate. "Rural residence farms" comprise the
remaining 58 percent of operations. These tend to be small farms operated as a sideline by people with non-farm
occupations or by retirees.

                                                        10
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis

Government payments paid directly to producers are expected to total $11.1 billion in 2012, a 6.3 percent increase
over the 2011 program payments. Direct payments under the Direct and Counter-Cyclical Payment Program (DCP)
and the Average Crop Revenue Election Program (ACRE) are forecast at $4.96 billion for 2012. This 5.4 percent
increase in direct payments in 2012 over 2011 is largely due to the fact that the percentage of base acres on which
direct payments are made increased from 83.3 percent for the 2011 crop year to 85.0 percent for the 2012 crop year.

                                  Table 2: Government Payments, 2002-2012f




Strong crop prices are expected to continue through the rest of 2012, reducing all expected commodity program
payments based on price to $10 million. The Milk Income Loss Contract Program (MILC) compensates dairy
producers when domestic milk prices fall below a specified benchmark price. For 2012, dairy producers are
expected to receive $650 million in MILC payments. Primarily based on the high prices of the feed components in
the dairy feed ration, the National Average Dairy Feed Ration Adjustment (NADFR) in 2012 has raised the
benchmark MILC program price and triggered payments to dairy producers. Tobacco farmers and quota holders are
expected to receive $651 million in Tobacco Transition Payment Program (TTPP) in 2012. Payments reported here
include both CCC payments and lump-sum payments. Begun in 2005, this program provides annual payments over
a 10-year period to eligible quota holders and producers of tobacco. Conservation programs include all conservation
programs operated by the Farm Service Agency and the Natural Resources Conservation Service that provide direct
payments to producers. Estimated conservation payments of $3.7 billion in 2012 are largely unchanged from 2011.
Noninsured Crop Disaster Assistance Program payments of $250 million are expected to be made to livestock and
specialty crop producers for which no commodity insurance program is available.




                                                        11
                              COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


                  2012 Performance Highlights Summary
CCC was successful in meeting and exceeding its performance expectations for FY 2012. CCC funds many
programs that fall under multiple agencies across USDA. Each Corporation funded program helps achieve parts of
both the CCC mission and the strategic plan of the agency under which the program falls. The CCC mission and
strategic goals are achieved through the successful implementation of the key programs.

The CCC exceeded or met its wetland and buffer program goals for FY 2012. Goals for FY 2013 are set to continue
to enroll the same number of acres into these practices which provide large conservation benefits. This last summer,
FSA added program flexibility to the conservation programs to alleviate the hay and pasture shortages faced by
livestock producers during the drought.

The Income Support and Disaster Assistance Program met its program performance target in FY 2012. Most visible
to the public have been the efforts to rally behind farmers and ranchers during the historic drought. FSA took great
strides during the summer to streamline the disaster designation process to get Secretarial Designations processed
more rapidly. The Agency will continue to use its resources and capabilities to ensure farmers and ranchers have the
full support of USDA and CCC during this difficult time.

The CCC exceeded its FY 2012 performance target of 375 days between warehouse examinations. New examiners
were hired and accounts for the improvement (decrease) in the number of days between warehouse examinations
from FY 2011 (355) to FY 2012 (342). CCC will continue to provide food assistance purchases support to domestic
and international programs. FSA is implementing a licensing requirement, including inspection and examination
procedures for all port and trans-loading facilities receiving, storing, handling, and shipping export food assistance
commodities for U. S. Agency for International Development (USAID) and FSA food assistance programs (P.L.
480, Title II and III, Food for Progress, Section 416(b) and McGovern-Dole International Food for Education and
Child Nutrition programs). Commodities purchased by FSA on or after June 15, 2012, may be stored or handled
only by facilities licensed under the United States Warehouse Act. There is currently no CCC inventory of dairy
products and FSA is currently projecting no FY 2013 Dairy Product Price Support Program (DPPSP) purchases.
FSA’s Commodity Operations will continue its efforts to reduce the number of days between examinations as the
performance measure for the program.

The CCC exceeded its target of the dollar value of agricultural exports resulting from participation in foreign food
and agricultural trade shows. International trade shows are a key component in the export strategies of most of the
70-plus organizations receiving CCC market development funding. These organizations use market development
funds to facilitate their industry members’ participation in key trade shows. Some provide cost-share funding
directly to small to medium-sized (SMEs) companies, enabling their participation. In particular, State Regional
Trade Groups (SRTGs)--Food Export USA Northeast, Food Export Association of the Midwest USA, Southern
United States Trade Association and Western United States Trade Association, use considerable CCC funds to
provide a wide array of services to help U.S. companies export for the first time and enter new markets. SRTG
export readiness training, market intelligence, how-to-export seminars, as well as cost-share support at trade shows,
are particularly valuable to SMEs. In addition, FAS provides the National Association of State Departments of
Agriculture (NASDA) CCC market development funds to enhance the appearance and services offered at U.S.
pavilions at 20-25 trade shows annually. Many participants’ market development-funded trade missions are
coordinated with key trade shows. Trade shows and trade missions are critical components of the National Export
Initiative’s (NEI) goal of doubling exports by 2015. U.S. company sales resulting from trade show participation are
a good indicator of the success of these investments.



                                                         12
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis

The CCC Export Credit Guarantee Program exceeded both of its performance measures for FY 2012. The estimated
trade value resulting from the Export Credit Guarantee Program is estimated at $3.85 billion which far exceeded the
target for this measure by approximately $350 million. CCC also exceeded its 2012 economic return ratio target of
$100/$1. Factors that contributed to exceeding the target include increased income from fees despite a marginal
decrease in program size from FY 2011. It is significant that during FY 2012, despite global economic and political
instability, the Export Credit Guarantee Program supported almost $4 billion in U.S. agricultural exports without
defaults or claims.




                                                       13
                              COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis


                                       Financial Highlights
As part of its mission to stabilize, support, and protect farm income and prices, CCC is also responsible for
providing accurate, timely, and useful financial management information to all stakeholders. The information that
follows has been prepared from the accounting records of the Corporation as of September 30, 2012 and September
30, 2011 in accordance with generally accepted accounting principles for Federal entities and policies prescribed in
the Office of Management and Budget (OMB) Circular A-136, Financial Reporting Requirements.

Assets:
The Balance Sheet shows CCC had total assets of $10.0 billion as of September 30, 2012, a decrease of $2.4 billion
(20 percent) below the previous year’s total assets of $12.4 billion. This is mainly attributed to a decrease in Fund
Balance with Treasury.

The $1.4 billion decrease in Fund Balance with Treasury is primarily due to an increase in disbursements in
programs such as the Milk Income Loss Contract Program (MILC) and Noninsured Crop Disaster Assistance
Program (NAP). In the MILC program, payments have increased due to the steady decrease in the Boston Class I
milk price. Disbursement increase in NAP is due to the severe drought last summer and fall in the Southern Plains
where grazing is predominant. The majority of NAP costs are associated with livestock grazing.

                                             Table 3: Summary of Assets

                                                                                              Dollars in Millions
   As of September 30                                                       2012     2011 Variance Variance %
   Fund Balance with Treasury                                          $   2,984 $ 4,394 $ (1,410)         -32%
   Accounts Receivable, Loans and Credit Receivables, Net                  6,836    7,782     (946)        -12%
   Commodity Inventories, Net                                                 14       51      (37)        -73%
   General Property and Equipment, Net                                        28       48      (20)        -42%
   Other                                                                     111      127      (16)        -13%
   Total Assets                                                        $   9,973 $ 12,402 $ (2,429)        -20%


Liabilities:
The Balance Sheet shows CCC had total liabilities of $15.2 billion as of September 30, 2012. This represents a
decrease of $911 million (6 percent) below the previous year’s total liabilities of $16.1 billion. The variance is
primarily due to $817 million decrease in Other Liabilities.

The decrease in Other Liabilities is due to the net present value of future accrued liabilities and receivables for the
Tobacco Transition Payment Program (TTPP). Accrued liabilities will continue to decrease as the number of
payments left to be paid to tobacco quota holders and producers declines.




                                                           14
                                                 COMMODITY CREDIT CORPORATION
                                                          Management Discussion and Analysis

                                                                 Table 4: Summary of Liabilities

                                                                                                                                          Dollars in Millions
                      As of September 30                                                                          2012          2011   Variance Variance %
                      Accounts Payable                                                                      $      464 $         435 $      29            7%
                      Debt to the Treasury                                                                       2,682         2,865      (183)          -6%
                      Loan Guarantee Liabilities                                                                   174           114        60          53%
                      Environmental and Disposal Liabilities                                                         8             8          -           0%
                      Other                                                                                     11,878        12,695      (817)          -6%
                      Total Liabilities                                                                     $   15,206 $      16,117 $    (911)          -6%



Ending Net Position:
As of September 30, 2012 and 2011, CCC’s net position is $(5.2) billion and $(3.7) billion, respectively. Net
Position is the sum of the Unexpended Appropriations, Cumulative Results of Operations, and Capital Stock. Refer
to Note 1, under Reporting Entity, and Note 11 for additional information on Capital Stock.

The charts below present the trend of Unexpended Appropriations and Cumulative Results of Operations balances
for the fiscal years ended September 30.



                               Chart 1: Unexpended Appropriations                                                    Chart 2: Cumulative Results of
                                                                                                                               Operations
                      $2,500                                                                               $14,000
                                                                                                                                              $12,205
                                                                   $2,028                                  $12,000
                                                                                 Dollars in Millions (-)




                      $2,000                                                                                                                                 $10,324
Dollars in Millions




                                                        $1,815                                             $10,000
                      $1,500                                                                                                     $8,621
                                                                       $1,470                               $8,000   $6,233

                      $1,000      $900      $1,167                                                          $6,000
                                                                                                            $4,000                   $4,982
                        $500
                                                                                                            $2,000

                          $0                                                                                    $0
                                2012     2011       2010      2009     2008                                          2012     2011        2010        2009   2008
                                                Fiscal Year                                                                             Fiscal Year




Net Cost of Operations:
CCC categorizes the net cost of operations based on CCC’s strategic goals. Net cost of operations was $9.7 billion
and $11.3 billion for the fiscal years ended September 30, 2012 and 2011, respectively. Overall total net cost of
operations decreased 14 percent from the prior year. As shown in the Summary of Net Cost of Operations by
Strategic Goals table, expenses for “Provide a Financial Safety Net for Farmers and Ranchers” comprise a majority
of the costs for the fiscal years ended September 30, 2012 and 2011.




                                                                                15
                                                     COMMODITY CREDIT CORPORATION
                                                             Management Discussion and Analysis

                                             Table 5: Summary of Net Cost of Operations by Strategic Goal

                                                                                                                            Dollars in Millions
   For the Fiscal Years Ended September 30                                                           2012           2011   Variance Variance %
   Provide a Financial Safety Net for Farmers and Ranchers     $                                    5,736 $        6,144 $    (408)        -7%
   Ensure Commodities are Procured and Distributed Effectively
                                                                                                      65               296          (231)             -78%
   and Efficiently
   Increase Stewardship of Natural Resources While Enhancing
   the Environment                                                                                  2,115          2,334             (219)             -9%
   Increase U.S. Food and Agricultural Exports                                                      1,809          2,536             (727)            -29%
   Total Net Cost of Operations                                $                                    9,725    $    11,310       $   (1,585)            -14%


The activity that caused the fluctuation in the Statement of Net Cost for the fiscal year ended September 30, 2012
relates to the following strategic goals:

                         Provide a Financial Safety Net for Farmers and Ranchers – The majority of the $408 million decrease
                          comes from the continued refinement of accrual estimates based on prior year overestimated accruals in the
                          Direct and Counter-Cyclical Payment Program (DCP) program in the amount of $799 million.
                          Additionally, an increase in the MILC program gross costs in the amount of $404 million is due to the
                          steady decrease in Boston Class 1 milk price. This low price triggered payments to eligible farmers for the
                          first time since April 2010. The net effect between the decrease of the DCP and the increase to the MILC
                          programs explains the variance within this goal.



    Chart 3: Provide a Financial Safety Net for Farmers and Ranchers

                          $14,000                                                                           $12,682

                          $12,000
    Dollars in Millions




                          $10,000
                                                                                                                                   $8,351
                           $8,000
                                                                 $6,249           $6,140
                                           $5,822
                           $6,000

                           $4,000
                                                                                                                      $2,347
                           $2,000                                                                                                            $1,140
                                                    $86                   $105             $159
                               $0
                                              2012                   2011                2010                    2009                 2008
                                                                                      Fiscal Year
                             Gross Costs            Earned Revenue




                                                                                 16
                                                   COMMODITY CREDIT CORPORATION
                                                          Management Discussion and Analysis

                         Ensure Commodities are Procured and Distributed Effectively and Efficiently – The decrease of
                          $231million is primarily due to the USAID balance allocation between CCC’s Goal 2: “Ensure
                          Commodities are Procured and Distributed Effectively and Efficiently” and Goal 4: “Increase U.S. Food
                          and Agricultural Exports”. During FY 2011, the USAID balance was divided between these two goals,
                          however, beginning in FY 2012, the entire value of USAID is allocated to Goal 4. The decrease is also
                          partially attributed to the reduction of expenses for the Local and Regional Pilot Program (LRP) in FY
                          2012 due to budgetary constraints.



      Chart 4: Ensure Commodities are Procured and Distributed Effectively and
      Efficiently


                           $350                              $326

                           $300                                            $279                                        $271
    Dollars in Millions




                                                                                                                $242
                           $250

                           $200                                                               $171

                           $150
                                           $90
                           $100

                            $50                                     $30           $36
                                                 $25                                                 $15
                             $0
                                            2012                  2011        2010              2009              2008
                                                                            Fiscal Year
                             Gross Costs         Earned Revenue




                         Increase Stewardship of Natural Resources While Enhancing the Environment – The $219 million decrease
                          in net cost is mainly attributed to diminishing activity in the Conservation Reserve Program (CRP). The
                          high crop prices have resulted in producers pulling acres out of the program; thereby reducing future
                          payments for the annual rental. At the same time the average rental price has increased for “new” contracts
                          which will result in an increase in payments for the new contracts. High crop prices have made arable land
                          more valuable, so rental rates for land in the CRP have risen.




                                                                          17
                                                     COMMODITY CREDIT CORPORATION
                                                           Management Discussion and Analysis


                Chart 5: Increase Stewardship of Natural Resources While Enhancing the
                Environment

                          $3,000

                                                               $2,374           $2,426
                          $2,500                                                                  $2,223
                                          $2,154                                                                  $2,125
Dollars in Millions




                          $2,000

                          $1,500

                          $1,000

                           $500
                                                   $39                  $40               $1               $1              $2
                              $0
                                            2012                  2011               2010            2009            2008
                                                                                Fiscal Year

                            Gross Costs       Earned Revenue




                          Increase U.S. Food and Agricultural Exports – The $727 million decrease was mainly due to fewer default
                           loans in FY 2012 as compared to FY 2011.

    Chart 6: Increase U.S. Food and Agricultural Exports

                           $3,500
                                                               $2,894
                           $3,000                                               $2,726
                                           $2,511
                           $2,500
    Dollars in Millions




                                                                                                                  $2,067
                           $2,000                                                                 $1,749

                           $1,500
                           $1,000                   $702
                                                                        $358             $325                              $416
                            $500                                                                           $305

                               $0
                                              2012                2011                2010           2009            2008
                                                                                    Fiscal Year

                           Gross Costs        Earned Revenue




                                                                               18
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis

Obligations and Outlays:
Between September 30, 2012 and 2011, Obligations Incurred decreased by $2.4 billion, and Net Outlays decreased
by $1.2 billion.

The variance in obligations incurred and net outlays is primarily due to high market prices in the Price Support
program, which resulted in fewer farmers applying for Marketing Assistance Loans (MAL) in FY 2012 compared to
FY 2011. This led to a reduction of the amount obligated and paid to farmers.

The variance in net outlays is also attributed to a timing difference in the DCP Program disbursements. Per the 2008
Farm Bill, DCP single final payments replace the partial payments process for program years 2011 and 2012. Since
disbursements have not been recorded in FY 2012, a drop is reflected in the net outlays as compared to the same
period in FY 2011.

                                        Table 6: Summary of Obligations

                                                                                             Dollars in Millions
   For the Fiscal Years Ended September 30                             2012        2011    Variance Variance %
   Obligations Incurred:
     Direct                                                      $  3,514     $  3,821    $   (307)         -8%
     Reimbursable                                                  18,186       20,244      (2,058)        -10%
   Total Obligations                                             $ 21,700     $ 24,065    $ (2,365)        -10%



                                        Table 7: Summary of Net Outlays

                                                                                             Dollars in Millions
   For the Fiscal Years Ended September 30                             2012        2011    Variance Variance %
   Net Outlays:
     Gross Outlays                                               $ 19,075 $ 23,196 $ (4,121)               -18%
     Offsetting Collections                                        (9,998)  (12,782)  2,784                -22%
     Less: Distributed Offsetting Receipts                            (74)     (225)    151                -67%
   Net Outlays                                                   $ 9,003 $ 10,189 $ (1,186)                -12%




                                                        19
           COMMODITY CREDIT CORPORATION
               Management Discussion and Analysis


Management Controls, Systems, and Compliance with
            Laws and Regulations
         FMFIA and FFMIA Assurance Statement




                              20
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                  21
COMMODITY CREDIT CORPORATION
   Management Discussion and Analysis




                  22
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis




NOTE:
The Assurance Certification is due to the Department annually by the last Friday in August, which is almost three
months before the final independent auditor’s report is provided to CCC on November 7, 2012. Therefore, in order
to prepare the assurance statement and send it through the chain of command for signatures, CCC must assess
reportable internal control weaknesses and non-conformances based on available information. If the FY 2012 final
audit report contains any new unexpected reportable conditions, a revised assurance statement will be submitted
during the second quarter of 2013.

During the preparation of the assurance certification for FY 2012, FSA/CCC conducted thorough research and
discussed the condition of the substantial non-compliance reported in the FY 2011 assurance certification in Section
1 - Federal Financial Management Systems Requirements in FFMIA and as a significant deficiency (SD) in Section
4 of FMFIA. Agency management reassessed the condition and concluded that the finding has nominal risk of
impact to our financial reporting and downgraded it to a control deficiency (CD). As a result, the finding is reported
as reassessed and completed as of the end of this fiscal year.




                                                         23
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis


                Federal Managers’ Financial Integrity Act
Overview
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal agencies to submit an annual
report to the President and Congress reflecting the status of management controls for program, financial, and
administrative operations. The CCC Assurance Certification contains the FMFIA report that includes CCC’s
reportable conditions and related corrective action plans identified through the implementation and assessment
process complying with the requirements of OMB Circular A-123, Management’s Responsibility for Internal
Control, including an assessment conducted in accordance with OMB Circular A-123, Appendix A, Internal Control
over Financial Reporting. CCC provides the assurance certification to the Department of Agriculture’s (USDA)
Office of the Chief Financial Officer certifying that CCC is compliant with FMFIA by:
       Fulfilling requirements to perform ongoing evaluations of internal control,
       Developing corrective action plans to mitigate the deficiencies, and
       Providing management oversight to ensure that progress is made and the conditions are properly reported.

The certification also includes assurances from CCC’s Chief Financial Officer, Executive Vice President, and
President that:
       Obligations and costs comply with applicable laws and regulations;
       Federal assets are safeguarded against fraud, waste, and mismanagement;
       Transactions are accounted for and properly recorded; and
       Financial management systems conform to standards, principles, and other requirements to ensure that
        Federal managers have timely, relevant, and consistent financial information for decision-making purposes.


Fiscal Year 2012 and 2011 Results
In accordance with FMFIA and OMB Circular A-123, Appendix A, information to support CCC’s assurance
certification was derived from FMFIA certification statements submitted by CCC board members and other
appropriate management, audits, management reviews and insight gained from daily operations of programs and
functions.

In FY 2012, management’s assessment of internal controls over financial reporting as of September 30, 2012,
determined that the material weakness (MW) - Funds Control Management – has not been sufficiently mitigated and
will be a repeat finding in the audit report under FMFIA Section 4 as a system non-conformance and as a MW in
Section 2 of FMFIA. CCC also revised the estimated completion date to September 2014. There were three
significant deficiencies (SDs) reported in the 2011 audit report under FMFIA: Strengthen Internal Controls over
Child Agency Financial Reporting [U.S. Agency for International Development (USAID)], Strengthen Internal
Control over Intra-governmental Balances, and Strengthen Information Systems Controls – Antiquated Systems.

Regarding the SD for the lack of financial and monitoring controls over USAID, CCC continues to address the
reportable conditions with the implementation of additional financial analytics, improved communication, and a
revised Memorandum of Understanding with USAID in FY 2011, which continued through 2012. CCC will need to
collect two periods of reconciliations and oversight documentation in FY 2013 to submit and request closure on the
recommendations.

During 2012 CCC procured a contractor to obtain an understanding of and document the financial processes at
USAID that affect CCC’s financial statements. FSA/CCC conducted a series of offsite meetings with key USAID

                                                       24
                              COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis

representatives during July and August, 2012, in order to finalize a detailed written corrective action plan acceptable
to both parties that specifies the processes, duties, and responsibilities each party will take to effectively address all
of the audit recommendations. The corrective actions were established and became effective October 1, 2012. CCC
is the primary party responsible for the success of the remediation efforts and will continue to regularly brief the
FSA/CCC CFO on progress, issues, and recommend any revisions to this plan as may be needed.

One deficiency, “Strengthen Information Systems Controls – Antiquated Systems”, was reported in last year’s audit
report as a SD and a substantial system non-compliance with FFMIA. Agency management reassessed the condition
and concluded that the finding has nominal risk of impact to our financial reporting and downgraded it to a CD.
This finding is reported as reassessed to be substantially compliant with FFMIA and FMFIA, Section 4.

CCC closed all audit recommendations for Information Security Controls during FY 2012 and 2011 reducing the
reportable condition to a CD in FY 2012. The SD of internal controls over Intra-governmental balances and
reconciliations was mitigated by the end of the fourth quarter of FY 2012 by preparing two periods of
documentation substantiating the fact that the controls were in place and operating effectively.

Under OMB Circular A-123, Appendix A, there was one SD reported for CCC in FY 2011 for “Funds Status
Report”, which was resolved during FY 2012. The SD for “Farm Storage Facility Loan (FSFL) reconciliations” was
consolidated with other CDs from other areas for an overall SD for “Maintaining, Controlling, and Monitoring the
CORE general ledger.” One SD of “Reconciling Fund Balance with Treasury” was identified during FY 2012 and is
reported on its own due to the significance of the task to mitigate.




                                                           25
                             COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis


         Federal Financial Management Improvement Act
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and program
managers’ accountability, provide better information for decision-making, and improve the efficiency and
effectiveness of Federal programs. FFMIA requires that financial management systems provide reliable, consistent
disclosure of financial data in accordance with generally accepted accounting principles and standards. These
systems must also comply substantially with the following three areas of FFMIA: (1) Federal financial management
system requirements; (2) applicable Federal accounting standards; and (3) the United States Standard General
Ledger (USSGL) at the transaction level.

During FY 2012, CCC evaluated its financial management systems to assess substantial compliance with FFMIA.
As of the completion of the annual report, CCC management has made the determination that CCC has
demonstrated substantial compliance with Sections 1, 2, and 4; however, CCC is not substantially compliant with
Section 3 – the USSGL at the transaction level.

The finding, “Strengthen Information Systems Controls – Antiquated Systems”, was reported in last year’s audit
report as a SD and a substantial non-compliance with FFMIA. Agency management reassessed the condition and
concluded that the finding has nominal risk of impact to our financial reporting and downgraded it to a CD. As a
result, the finding was reported as reassessed to be substantially compliant with FFMIA and FMFIA, Section 4.

CCC has completed the development of a fully integrated funds control system, electronic Funds Management
System (eFMS), within the FSA/CCC CORE financial management system. This system is integrated with CCC’s
general ledger system at the transaction level. The eFMS provides management with timely information to monitor
and control the status of budgetary resources recorded in the general ledger. CCC continues to implement programs
into eFMS for full funds control at the transaction level. CCC anticipates that when all material programs are fully
implemented, CCC will be substantially compliant with Section 3 for FFMIA.

As of the end of FY 2012, a significant percentage of CCC’s programs (85 percent) now include funds control and
accounting using eFMS. An additional 8 percent are electronically controlled at the payment level but not at the
transactional level. The balance (7 percent) of the payments are administratively controlled and will be either
migrated into eFMS or continue to be administratively controlled due to age of the systems/cost benefit.

An estimated $1 billion in transactions are currently not processed through the funds control system, but through
manual journal entries at period ends. The current conditions of programs not in eFMS are:
        Approximately $435 million or 44 percent of the $1billion relates to the Conservation Reserve Program
         (CRP). Of this amount, $112 million relates to actual approved agreements for the CRP technical
         assistance program. The remaining balance relates to CRP cost share, and at year end, Economic and
         Policy Analysis Staff (EPAS) provides an estimate of the estimated obligation amounts to be paid in the
         subsequent year and is the basis for the summary obligation that is recorded in CORE.
        Approximately $300 million or 30 percent relates to the Price Support program. The obligation for this
         program is accrued based on EPAS’ estimates at year end.
        Approximately $147 million or 15 percent relates to the Brazilian Cotton Industry (BCI) case. The
         obligation for this case is recognized based on the agreement and the amount set by Congress.
        The remaining 11 percent represents various programs including aspects of the Biomass Crop Assistance
         Program (BCAP). The obligation for these programs is accrued partly based on EPAS’ estimates and
         partly based on trend.



                                                        26
                               COMMODITY CREDIT CORPORATION
                                       Management Discussion and Analysis

Significant progress has been made towards complete funds control, but the lack of the financial system
functionality to record all obligations at the transaction level at the time the obligation occurs increases the risk that
funds could be disbursed or obligations incurred with no or insufficient budget authority to fund the expense or
obligation. Although CCC implemented detective manual controls to compensate for the system’s inherent
limitation, the controls may not be adequate to reduce the risks of an Antideficiency Act (ADA) violation occurring
and may not prevent or detect violations timely. CCC has plans to correct the deficiency by FY 2014 with the
migration to the Department's enterprise solution under the Financial Management Modernization Initiative (FMMI)
plan. Interface assessments for the program areas have begun, and the FMMI team has completed some significant
tasks toward implementation. However, continued efforts for the system migration will be required and are
dependent upon additional funding to meet the current target date.

For FY 2013, CCC will:
        Identify all material CCC programs subject to funds control that are not currently controlled using the
         eFMS system and identify program and financial applications that are not eFMS compliant (system
         deficiencies);
        Collaborate with Information Technology Services Division (ITSD) and Deputy Administrator Farm
         Programs (DAFP) to develop and execute a project plan to complete software modifications for the
         identified program applications to send obligation transactions, including establishments, liquidations and
         adjustments (downward and upward) to eFMS at the transaction level;
        Implement a reconciliation process to ensure that budget authority in CORE agrees with budget authority in
         eFMS and SF-132's, Apportionment and Reapportionment Schedules, CCC’s Apportionment Control log
         and unliquidated obligations in CORE agree with the unliquidated obligations in eFMS;
        Perform clean-up of existing unliquidated obligations; and
        Initiate implementation of programs in FMMI/MIDAS (Modernize and Innovate the Delivery of
         Agricultural Systems) and independent FMMI applications.


                                         Antideficiency Act
CCC had no ADA violations in FY 2012.




                   Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of the
entity, pursuant to the requirements of 31 U.S.C. 3515 (b), Financial Statements of Agencies. While the statements
have been prepared from the books and records of the entity in accordance with Generally Accepted Accounting
Principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources, which are prepared from the same books and
records. The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.




                                                           27
 Part II: Performance Section
(Unaudited)




             28
                               COMMODITY CREDIT CORPORATION
                                                Performance Section


                                         Performance Section
Given that most of CCC services are carried out by the employees of USDA agencies, the mission of CCC aligns
towards the strategic goals of the Department as well as to the strategic goals of FSA and FAS. Each of these
strategic goals, in turn, has objectives that support the results that the Agencies want to achieve. The performance
measures allow CCC to tangibly measure how well it is achieving these objectives without creating a duplicate
reporting burden. The table below summarizes the relationship between the USDA strategic goals and the
Agencies’ strategic goals, and the CCC program areas.

                                   Chart 7: Summary of Strategic Goals

                         U.S. Department of Agriculture Strategic Goals

     Ensure Our National Forests and       Assist Rural Communities to Create           Help America Promote
     Private Working Lands Are             Prosperity so They Are Self-                 Agricultural Production and
     Conserved, Restored, and Made         Sustaining, Repopulating, and                Biotechnology Exports as
     More Resilient to Climate Change,     Economically Thriving                        America Works to Increase
     While Enhancing Our Water                                                          Food Security
     Resources


      CCC Strategic Goal         CCC Strategic Goal             CCC Strategic Goal            CCC Strategic Goal
     Increase Stewardship         Provide a Financial          Ensure Commodities             Increase U.S. Food
     of Natural Resources           Safety Net for              are Procured and               and Agricultural
     While Enhancing the             Farmers and                   Distributed                     Exports
         Environment                  Ranchers                    Effectively &
                                                                    Efficiently

                                                                                                 Program Area
                                     Program Area                 Program Area
                                                                                             Market Development
        Program Area              Income Support and                Commodity
         Conservation              Disaster Assistance              Operations
                                                                       and                       Program Area
                                                                     Food Aid                    Export Credit


..
                                                          -----                            Foreign
                      Farm Service Agency                                                Agricultural
                                                                                           Service


                                    Commodity Credit Corporation




                                                         29
                             COMMODITY CREDIT CORPORATION
                                               Performance Section



     Income Support and Disaster Assistance Program Area
                                      M ISS IO N          E L E M ENT
                           Stabilizing, supporting, and protecting farm income and prices



Program Overview
CCC is the financial instrument for millions of dollars in income support and disaster assistance payments each year
to agricultural commodity producers. These payments stabilize, support, and protect farm income. CCC payments
for these programs are driven by commodity market prices, payment eligibility rules established in public policy,
and natural or human-caused disasters. CCC payments are best explained in the context of a commodity crop year
which does not directly correspond to financial statement reporting.

The Direct Crop and Counter-Cyclical Program (DCP) is a key program in the CCC effort to mitigate market losses.
Public Law 110-234, the Food, Conservation, and Energy Act of 2008 (2008 Farm Bill), authorized DCP for FY
2008 through FY 2012. FSA provides direct cash payments to eligible crop producers. The intent is to allow
planting flexibility while providing a safety net for producers. For crop years 2008 through 2012, eligible crop
producers will receive counter-cyclical payments if the effective price for the covered commodity is less than the
target price for the covered commodity. Counter-cyclical payments vary as market prices change relative to
statutory income support levels.

The electronic Direct and Counter-Cyclical Payment Program (eDCP) service allows agricultural producers to enroll
in DCP online. Producers can choose DCP payment options, assign crop shares, and sign, view, print, and submit
their DCP contracts from any computer with Internet access at any time. This service is available to all eligible
producers for the 2008-2012 DCP program years and helps maintain participation rates for this program. While
producers still have the option to sign up for the program in person at their local USDA Service Center, offering
sign-up options through the Internet helps meet performance objectives, in accordance with the USDA mandate to
expand E-Gov options for program participants.

The optional Average Crop Revenue Election Program (ACRE), added under the 2008 Farm Bill, is an alternative
revenue-based safety net to the price-based safety net provided by counter-cyclical payments. For crop years 2009
through 2012, farms with covered commodity or peanut base acres may participate in ACRE. Under ACRE,
producers may receive revenue-based payments as an alternative to receiving price-based counter-cyclical payments.
ACRE provides producers an option to protect against declines in market revenue. ACRE involves State and farm
revenue changes from guarantee revenue levels that are based on national prices, State planted yields, and farm
planted yields. A decision to elect ACRE may be made in any of the crop years 2009-2012; however, the ACRE
election is irrevocable and cannot be changed from the time of election through the 2012 crop year. Producers on
farms that have elected ACRE must decide annually whether to enroll in ACRE. Failing to re-enroll the farm will
render the farm ineligible for program year benefits even though the ACRE election is in effect. Producers may
elect the ACRE alternative on a farm-by-farm basis. Producers who elect and enroll a farm in ACRE agree to: (1)
forgo counter-cyclical payments, (2) a 20 percent reduction in their direct payments, and (3) a 30 percent reduction
in the marketing assistance loan rates for all commodities produced on the farm.




                                                        30
                             COMMODITY CREDIT CORPORATION
                                               Performance Section

ACRE payments are tied to current plantings on the farm as opposed to counter-cyclical payments, which are tied to
the farm’s base acres. ACRE payments are issued when two conditions are met for a commodity. The first
condition is met when the Actual State Revenue falls below the State ACRE Guarantee. The second condition is
met when the Actual Farm Revenue falls below the Farm ACRE Guarantee. Producers on participating ACRE
Program farms can receive both direct and ACRE payments, but the direct payment will undergo a 20 percent
reduction. Land used for non-agricultural purposes or land enrolled in the Conservation Reserve Program,
Grassland Reserve Program and the Wetlands Reserve Program is not eligible for ACRE, counter-cyclical , or direct
payments.

Direct payments are limited to $40,000 per person or entity minus the amount that direct payments are reduced
under ACRE. Total counter-cyclical and ACRE payments are limited to $65,000 plus the amount that direct
payments are reduced. The limitation is attributed to entities and individuals, including indirect amounts received
through entities. Persons or legal entities whose average non-farm Adjusted Gross Income (AGI) exceeds $500,000
are not eligible for DCP or ACRE payments. Also, persons or legal entities whose average farm AGI exceeds
$750,000 are not eligible for direct payments under the DCP and ACRE Programs.


Analysis of Results
CCC met its 2012 target to maintain the percentage of eligible base acres participating in the DCP and ACRE
programs. Maintaining a high participation rate in the DCP and ACRE programs is important because the
associated program payments provide incentives for good land stewardship and acreage reporting. Due to expected
changes in the farm bill currently under consideration by Congress, CCC will be discontinuing this measure for
inclusion in future reports. Program officials are in the process of designing a replacement measure.

CCC helps farmers manage financial and market risks primarily through income support and disaster assistance
programs. These programs help farmers and ranchers address major fluctuations in market conditions and
unexpected natural or man-made disasters. These programs provide a safety net to farmers and ranchers and
supports productive farms and ranches, thriving agricultural communities, market-based agriculture and secure and
affordable food and fiber. Other CCC Income Support and Disaster Assistance accomplishments during the year
include:

       The Noninsured Crop Disaster Assistance Program (NAP) provided a risk management tool for producers
        of non-insurable crops that are unable to obtain crop insurance through an insurance product. NAP
        enrollment has been up, in part, because of the passage of the 2008 Farm Bill which requires participation
        in NAP and/or purchase of crop insurance in order to gain eligibility for other disaster programs authorized
        under the 2008 Farm Bill. NAP benefits paid decreased from $89.7 million in crop year 2009 to $61.2
        million in crop year 2010. Through July 2012, NAP benefits paid out for 2011 crop year losses totaled
        $255 million.
       Supplemental Agricultural Disaster Assistance authorized under the 2008 Farm Bill provides five standing
        disaster programs for losses that occur on or before September 30, 2011. These programs provide
        assistance for crop, livestock, tree, and grazing losses that occur due to natural disasters and related
        conditions. Benefits received for 2008 crop year losses total $2.3 billion. Benefits paid for 2009 crop year
        losses total $910 million. Benefits paid for 2010 crop year losses total $563.4 million. Due to the lag in
        being able to implement the Supplemental Revenue Assistance Payments Program, final totals cannot be
        provided at this time for 2011 crop year losses.




                                                        31
                        COMMODITY CREDIT CORPORATION
                                           Performance Section

   Over 30,300 Farm Storage Facility Loans (FSFLs) were disbursed from FY 2000 through July 2012. The
    2008 Farm Bill added hay and renewable biomass as eligible commodities. In August 2009, through the
    discretionary authority given the Secretary of Agriculture, cold storage facilities for fruits and vegetables
    were also added to the program. To date, since FY 2000 the FSFL Program has provided financing for on-
    farm storage for over 890 million bushels of eligible FSFL commodities. As of July 2012, a total of $1.6
    billion have been disbursed to eligible producers. In FY 2011, 2,810 FSFLs were approved and obligated
    for a total of $221 million. As of July 2012, a total of 1,711 FSFL’s have been approved and obligated, for
    a total of $149 million.
   The Marketing Assistance Loan (MAL) Program disburses nonrecourse commodity loans during a crop
    year. The Loan Deficiency Payment (LDP) Program issues LDP benefits electronically, when LDPs are in
    effect. In crop year 2011, LDPs were in effect for wool and unshorn pelts and 3,140 LDPs were disbursed
    for a total of $1.2 million. For 2011crop MALs, there were 59,063 MALs disbursed totaling $5.57 billion.
    As of July, 2012, for crop year 2012 there have been 227 MALs disbursed, totaling over $11.9million. The
    2012 crop MAL disbursements will increase once all major 2012 crop year commodities have been
    harvested and requests have been initiated.
   The Milk Income Loss Contract Program (MILC) helps stabilize dairy farm income by making direct
    payments to dairy farmers when milk prices drop below the base milk price. This base price is adjusted
    when feed prices increase above a base level making the payments responsive not only to changes in milk
    prices, but also production costs. This serves as a safety net to the U.S. dairy producers. Approximately 97
    percent of MILC payments issued to eligible milk producers were in the form of electronic payments. FSA
    expects to again meet this 97 percent mark for FY 2012. As of July 2012, approximately $831 million has
    been disbursed for FY 2009, $107 million has been disbursed for FY 2010, and $226.8 million MILC
    payments have been issued for FY 2012. Payments were triggered in February of this year due to declining
    milk prices and rising feed costs.
   The Reimbursement Transportation Cost Payment (RTCP) Program for Geographically Disadvantaged
    Farmers and Ranchers provides assistance to farmers and ranchers in Hawaii, Alaska, and insular areas that
    paid to transport either an agricultural commodity or an input used to produce an agricultural commodity.
    RTCP payments issued under the FY 2010 program as of July 2012 total $2.2 million to 1,307 eligible
    applicants. As of July 2012, for FY 2011, $1.6 million has been issued under 935 eligible applications.
    Participation under RTCP program for the FY 2012 program is expected to be equal to or greater than
    previous years as more producers become aware of the opportunity.
   The Dairy Economic Loss Assistance Program (DELAP) payments began within 60 days of the President
    signing the FY 2010 Agricultural Appropriations Act on October 21, 2009 authorizing this program to
    assist U.S. dairy producers. As of July 2012, a total of $289.9 million has been disbursed for all DELAP
    phases.
   The American Recovery and Reinvestment Act of 2009 reauthorized and modified the Trade Adjustment
    Assistance for Farmers (TAAF) Program. Under the program, USDA provides technical assistance and
    cash benefits to eligible producers of raw agricultural commodities and fishermen who have been hurt by
    import competition. There were 5,393 FY 2010 applications received for TAAF for producers of catfish,
    asparagus, and shrimp and disbursements total $45.6 million as of July 2012. For FY 2011 the TAAF
    Program accepted one petition on behalf of blueberry producers, one on behalf of lobster producers, and
    one on behalf of shrimp producers. A total of 6,017 applications were received for FY 2011, with
    payments disbursed as of July 2012, totaling $8.5 million to 7,173 applicants.




                                                    32
                             COMMODITY CREDIT CORPORATION
                                               Performance Section

                 Table 8: Summary of Performance Measures for DCP and ACRE programs

       Performance Measure         FY 2008     FY 2009     FY 2010     FY 2011                 FY 2012

                                                                                    Target      Actual      Result
Maintain the percent of eligible
base acres participating in
Direct and Counter-Cyclical
                                                                                                  95.00%
Payment Program (DCP) and            96.31%      95.99%      95.65%      95.34%       95.00%
                                                                                                 Estimate
                                                                                                               Met
Average Crop Revenue
Election (ACRE) program.
Threshold range: +-1.0%
Rationale for Met Range: Management Determination
                                      Data Assessment of Performance Measure
Data source: Direct and Counter-Cyclical and ACRE Program Enrollment Report (DCP-01) for the respective
crop year. FY 2012 Actual is an estimate based on the historical trend from prior years.
Completeness of Data: Data reported are estimated final results for the fiscal year based on data available as of
June 30, 2012.
Reliability of Data: Data are considered reliable. The measurement process involves determining the number of
base acres enrolled in the DCP and ACRE program. That number is then divided by the total number of base acres
on all farms to calculate the percentage of enrolled base acres. The enrollment report is updated periodically. The
numerator is the number of base acres enrolled in DCP and ACRE at every USDA Service Center. The
denominator is the total number of bases acres for all farms.
Quality of Data: Overall, the quality of the data is good.


Challenges for the Future
Congress has not taken action to pass multiyear, comprehensive Food, Farm and Jobs legislation. Beginning
October 1, 2012, the authority or funding provided under the 2008 Farm Bill for USDA to operate a number of
programs has expired, and the authority and funding for additional programs will expire over the coming months.
Not only does this create uncertainty in terms of USDA programs, it leaves thousands of farming families exposed at
a time when U.S. agriculture is fighting to maintain the tremendous momentum it has built over the past three years.




                                                         33
                             COMMODITY CREDIT CORPORATION
                                                Performance Section


                            Conservation Program Area
                                       M ISS IO N          E L E M ENT
              Conserving soil, air, and water resources and protecting and improving wildlife habitats




Program Overview
Under the CCC Conservation Reserve Program (CRP), producers plant long-term, resource-conserving covers to
improve the quality of water, control soil erosion and enhance wildlife habitat. In return, CCC provides participants
with rental payments and cost-share assistance. Contract duration is between 10 and 15 years. The program is
designed to restore and enhance wetland areas, increase sediment trapping efficiencies, improve water quality,
prevent soil erosion and provide habitat for waterfowl and other wildlife.

The program includes several initiatives for wetland restoration and enhancement. In March 2012, the Secretary of
Agriculture announced 350,000 additional acres of wetland initiatives. CRP wetland initiatives now include a
600,000-acre Floodplain Restoration Initiative, a 250,000-acre Bottomland Hardwood Timber Initiative, a 350,000-
acre Non-Floodplain and Playa Wetland Restoration Initiative, and a 300,000-acre Prairie Pothole Duck Nesting
Habitat Initiative.

Analysis of Results
CCC has CRP contracts with landowners covering 2.29 million acres of wetlands (including upland buffers) as of
June 2012, exceeding its FY 2012 target of 2.23 million acres, and CRP contracts covering 1.98 million acres of
buffers meeting its target of 2.00 million acres for FY 2012. CCC has made substantial progress in protecting
watershed health and enhancing soil quality. Total CRP enrollment stands at 29.60 million acres. These acres
annually reduce soil erosion by 325 million tons, and nitrogen, phosphorus, and sediment by more than 85 percent,
and sequester over 44 million metric tons of carbon dioxide. CRP also contributes to increased wildlife populations,
and has added more than 2 million ducks to the Prairie Pothole Region annually, protected Sage Grouse populations
in Eastern Washington and Lesser Prairie Chicken populations in the Great Plains, and increased ring-necked
pheasant and other grassland bird populations.

                     Table 9: Summary of Performance Measure (Increase Acres) for CRP

      Performance Measure           FY 2008      FY 2009        FY 2010    FY 2011               FY 2012

                                                                                       Target    Actual     Result
  Increase Conservation
  Reserve Program (CRP)
  acres of riparian and grass         2.00          2.01       2.02         2.01        2.00     1.98       Met
  buffers (cumulative and in
  million acres).
  Threshold range: +/-.05
  Rationale for Met Range: Management determination
                                      Data Assessment of Performance Measure
  The data source for this measure is the National CRP Contract Data Files.
  Completeness of Data: The targets and actual data are annual. Data reported are estimated final results for the
  fiscal year based on data available as of June 30, 2012. The measure reports national acres under contract with

                                                           34
                             COMMODITY CREDIT CORPORATION
                                                Performance Section


      Performance Measure          FY 2008       FY 2009        FY 2010       FY 2011                 FY 2012

                                                                                           Target    Actual       Result
  the following buffer practices: Grass Filter Strips, Riparian Buffers, Wildlife Habitat Buffers on Marginal
  Pasturelands, and Buffers established under the State Acres for Wildlife Enhancement. There are no known
  data limitations. Estimated FY2012 final enrollment is based on 4th quarter CRP wetland enrollment in
  previous years.
  Reliability of Data: USDA considers the data to be reliable. CRP is authorized through FY 2012.
  Quality of Data: Overall, the quality of the data is good.


              Table 10: Summary of Performance Measure (Restored Wetland Acreage) for CRP

     Performance Measure         FY 2008     FY 2009       FY 2010        FY 2011                   FY 2012

                                                                                        Target      Actual       Result
   CRP: restored wetland
   acreage (million acres)         1.98        2.04         2.05           2.21          2.23        2.29       Exceeded


   Thresholds range: +/-.05
   Rationale for Met Range: Management determination
                                      Data Assessment of Performance Measure
   The data source for this measure is the National CRP Contract Data Files.
   Completeness of Data: The targets and actual data are annual. Data reported are estimated final results for the
   fiscal year based on data available as of June 30, 2012. The measure reports national acres under contract with
   the following wetland practices: Wetland Restoration, Marginal Pastureland Buffers, Bottomland Trees,
   Shallow Water Areas for Wildlife, Duck Nesting Habitat, and Farmable Wetlands Programs. There are no
   known data limitations. Acres reported include associated upland buffers. Estimated FY2012 final enrollment
   is based on 4th quarter CRP wetland enrollment in previous years.
   Reliability of Data: USDA considers the data to be reliable. CRP is authorized through FY 2012.
   Quality of Data: Overall, the quality of the data is good.


Challenges for the Future
The 2008 Farm Bill dropped CRP enrollment authority to no more than 32 million acres. FY 2013 enrollment is
expected to end at about 29.6 million acres. The 6.5 million acres of CRP expiring in FY 2012, combined with
relatively high commodity prices, will present USDA with a challenge in maintaining the magnitude of CRP’s
conservation benefits. Due to the pending Farm Bill reauthorization, these estimates for future years may need to be
adjusted if there are changes to CRP acreage authorized. CCC remains strongly committed to attaining its
conservation objectives. Special focus will be placed on accelerating the protection of clean and abundant water
resources. CCC will seek wetland contracts for more than 50,000 acres in FY 2013. In addition, CCC will enroll
contracts covering 40,000 acres to fulfill riparian buffer and grass filter strips. CCC will continue to support
initiatives designed to improve wildlife habitat, including the 500,000-acre upland bird buffer, the 300,000-acre
Duck Nesting Habitat Initiative, and the State Acres for Wildlife Enhancement initiative (a 1,250,000-acre initiative
announced in FY 2007 and enhanced in 2012 to improve habitat for endangered, threatened, or high-priority fish and
wildlife species). In addition, CCC will continue the 250,000-acre initiative to restore the longleaf pine ecosystem.




                                                           35
                             COMMODITY CREDIT CORPORATION
                                                Performance Section


 Commodity Operations and Food Aid Program Area
                                       M ISS IO N         E L E M ENT
  Maintaining balanced and adequate supplies of agricultural commodities and aiding in their orderly distribution




Program Overview
Commodity Operations manages the acquisition, handling, storage, transportation, and disposition of agricultural
commodities in order to carry out CCC program commitments and to administer the United States Warehouse Act
(USWA). Activities related to the USWA are carried out by Commodity Operations through the regulations and
policies to maintain acceptable standards for the warehouse industry. Protection of stored commodities is provided
through the licensing and examination activities of the USWA.

CCC is also responsible for administering storage agreements that commercial warehouse operators enter into with
CCC. The agreements are for CCC-interest commodities, including commodities owned by CCC or pledged as
collateral for Marketing Assistance Loans (MALs). These programs help achieve domestic farm program price
support objectives, ensure the timely provision of various commodities for domestic and international food
assistance, and administer a uniform regulatory system for storing agricultural products. Warehouse operators issue
negotiable warehouse receipts to producers under the provisions of the USWA. Producers who use the stored
commodity as collateral for a MAL may deliver the warehouse receipts to FSA as security for a nine-month MAL.
FSA also works with its DPPSP partners to provide adequate, secure storage capacity to maintain quality and
improve the purchase and delivery of food aid. Food assistance purchases support domestic programs such as the
National School Lunch Program and The Emergency Food Assistance Program, as well as international food aid
through the U.S. Agency for International Development and the United Nations' World Food Program.


Analysis of Results
The FSA/CCC performance measure “Reduce the average number of days between warehouse examinations,” is on
track to exceed its target to reduce the average time between warehouse examinations. The FY 2012 target is 375
days between examinations. In FY 2012, the examinations were performed more frequently, an average of 342 days
between examinations. The more frequently warehouses are examined for compliance by FSA warehouse
examiners, the sooner any potential compliance issues, pest infestation, or deterioration of quality for commodities
in store will be discovered. New examiners were hired and accounts for the improvement (decrease) in the number
of days between warehouse examinations from FY 2011 (355) to FY 2012 (342). Factors that will affect the
examination program in the future include new federal regulations proposed by Occupational Safety and Health
Agency (OSHA) that may limit examination processes. Industry is developing safer, more efficient measurement
technology in response to the increased regulation, but the technology will need to be tested and vetted for accuracy
and dependability. Other factors affecting the time between examinations of these warehouses include: (1) funding
for the examination program; (2) CCC policy and regulations regarding storage and oversight; (3) the length of time
CCC-owned commodities are in storage; and (4) staffing and staff losses during FY 2011. Examination division
staffing declined from 91 in January of 2006 to 70 in July of 2011. During FY 2012 there was a 4 percent increase
in the number of licenses issued including 20 licenses issued (or in process) to export warehouses, which may
increase the number of days between examinations. There are 48 warehouse examiners currently in the field
throughout the United States, based in strategic locations to perform timely examinations. Examiners have to travel
farther to conduct examinations. Some examinations that require teams pose logistic problems because of the


                                                        36
                             COMMODITY CREDIT CORPORATION
                                               Performance Section

additional travel required to bring the teams together. Until additional staff can be hired, management anticipates
increased days between examinations in the next fiscal year. CCC will continue to provide food assistance
purchases support to domestic and international programs. There is currently no CCC inventory of dairy products
and Commodity Operations is currently projecting no FY 2013 DPPSP purchases. Commodity Operations will
continue its efforts to reduce the number of days between examinations as the performance measure for the program.

  Table 11: Summary of Performance Measure (Reduce Average Time between Warehouse Examinations)
                                                                                              FY 2012
 Performance Measure              FY 2008    FY 2009    FY 2010      FY 2011
                                                                                  Target      Actual       Result
 Reduce average time between
                                      387       363         345        355        375         342         Exceeded
 warehouse examinations (in
                                                                                           Estimated
 days)
 Threshold range: +/- 25 days
 Rationale for Met Range: Management determination
                                      Data Assessment of Performance Measure
 The data source for this measure is internal Deputy Administrator for Commodity Operations (DACO) files.
 Completeness of Data: The targets and actual data are annual. Data reported are estimated final results for the
 fiscal year based on data available as of August 31, 2012.
 Reliability of Data: USDA considers the data to be reliable.
 Quality of Data: Overall, the quality of the data is good.


Challenges for the Future
From FY 2010 through FY 2011, staffing for the examination program decreased due to retirements and attrition.
During the same time period, licensed capacities increased. Since September 30, 2010, grain capacities under
USWA license have increased from 4,590,000,000 bushels to over 5 billion bushels. The USWA licensed
warehouses represent more than half of all licensed grain warehouse capacity in the United States. As staffing has
decreased, management has implemented procedures to conduct warehouse examinations at multiple locations in a
non-traditional manner designed to cut travel expenses while maintaining the integrity of the examination. This
process and continued use of electronic documents has helped the efficiency of the program. Commodity
Operations will continue to facilitate and encourage electronic commerce to reduce costs and delays associated with
marketing and delivering commodities. It will implement and encourage increased efficiencies through non-
traditional examination processes. As new examiners are trained, the days between examinations should decrease.




                                                        37
                             COMMODITY CREDIT CORPORATION
                                               Performance Section



                   Market Development Program Area
                                      M ISS IO N          E L E M ENT
        Developing new domestic and foreign markets and marketing facilities for agricultural commodities



Program Overview
One-third of all U.S. agricultural cash receipts come from export sales, making the economic well-being of rural
America heavily dependent on international trade. U.S. farmers and ranchers are among the world’s most
productive and efficient. However, they face complex and unfair obstacles in the global marketplace where 95
percent of the world’s consumers live. A cooperative effort with the U.S. industry is needed to ensure the U.S.
producers have fair market access, a strong understanding of key market trends, and support in overcoming
constraints such as tight credit in international markets.

CCC supports U.S. industry efforts to build, maintain, and expand overseas markets for U.S. agricultural, fish and
forest products. The FAS manages several export development programs including the Foreign Market
Development (Cooperator) Program (FMD), Market Access Program (MAP), Technical Assistance for Specialty
Crops (TASC) Program, Quality Samples Program (QSP), and Emerging Markets Program (EMP). These programs
provide matching funds to U.S. non-profit organizations to conduct a wide range of activities including market
research, consumer promotion, trade servicing, capacity building, and market access support. Working with the
SRTGs and other industry organizations, CCC programs also provide funding to encourage small to medium-sized
enterprises (SMEs) to become active in international markets. FAS staff in over 100 countries around the world
support industry efforts by providing market intelligence and introducing U.S. exporters to potential foreign
customers. FAS Trade Services Staff, FAS overseas offices and cooperators all provide services that help U.S.
companies successfully access potential buyers in a wide-range of international trade shows.


Analysis of Results
An updated external cost-benefit analysis of market development programs found that U.S. food and agricultural
exports increased by $35 for every dollar expended by government and industry, up from $25 in 2007. The study
used multivariate econometric models for bulk commodities and high value products that isolated the unique long-
run trade impacts of foreign market development. The report also showed that agricultural exports in 2009 were
$6.1 billion higher than they would have been without increased investment in market development. Export gains
associated with the programs increased the average annual level of U.S. farm cash receipts by $4.4 billion.

There are over 70 non-profit associations that participate in CCC market development programs. They are
promoting U.S. products around the world and have an economic impact on virtually every state in the union. A few
examples of their successes demonstrate the wide range of participants, activities, and target markets:
       The U.S. Grains Council used the FMD program to provide technical assistance to Taiwan, demonstrating
        the benefits of using distillers dry grains with soluble DDGS (a co-product of ethanol production) in their
        feed rations. Addressing Taiwan’s questions and concerns with technical consultants, a survey team to the
        United States, and nutritional seminars, led to almost doubling U.S. DDGS exports in FY 2011, reaching
        $47 million; exports in FY 2012 are running at about $27 million ahead of last year.



                                                        38
                             COMMODITY CREDIT CORPORATION
                                                Performance Section

        The U.S. Wheat Associates are using MAP and FMD to help Southeast Asian flour mills expand their
         product lines, by conducting baking seminars to introduce new products with higher profit margins, and
         educating buyers about U.S. wheat blends that profitably meet their needs. U.S. wheat sales to the region
         in June-May 2011 and 2012 were valued at $1.3 million and reached just over 3.8 MMT, nearly 40 percent
         higher than the previous five-year average.
        The Softwood Export Council’s FMD–funded pavilion at the Dubai Wood 2012 trade show provided the
         opportunity to an Oregon mill to sign a sales contract for $75,000. The company stated that because of
         their participation at the show, they will be exporting and estimated $600,000 to the Middle East in 2012.
        A Hops Growers Association trade delegation used MAP to fund a booth and technical seminar at the Brau
         Beviale, the largest professional beer trade show in the world, held in Nuremberg, Germany. The QSP
         program funded hundreds of trial-size samples to brewers during the event. On site surveys indicated
         increased interest in trial purchases. Between December 2011 and March 2012, U.S. exports of hop cones
         and pellets to the EU reached $11.5 million, an increase of 38 percent compared to the same period the
         previous year.
        The Cherry Marketing Institute (CMI) used MAP to promote the extensive sports health benefits of U.S.
         tart cherries. There are now a whole range of product ambassadors from many sports disciplines speaking
         on behalf of Michigan Tart Cherries. CMI reported that sales have increased dramatically with over $2.5
         million of U.S. tart cherry juice exported to the UK in July 2011 - June 2012.
        An Organic Trade Association, MAP-funded, reverse trade mission, brought 12 buyers from Germany, the
         UK, the Netherlands, Cyprus, China, Malaysia and France to the Natural Products Expo West in Anaheim,
         California, in March 2012. The buyers participated in nearly 200 pre-arranged meetings with 28 U.S.
         organic companies, resulting in an estimated $3 million in U.S. organic product sales.

CCC market development programs support the U.S. National Export Initiative (NEI). Broadening the base of U.S.
exporters supports economic recovery and American jobs. A central focus of NEI is to provide additional assistance
to SMEs, which are major drivers of new job creation. In calendar year 2011 there were 1,403 new U.S. company
participants in market development programs; from January - June 2012 there were 1,062 new company
participants. In calendar year 2011, 2,437 buyers were brought to the U.S. on reverse trade missions; from January -
June 2012 there were 1,253 buyers on reverse trade missions. NEI also identifies the need to focus government
resources to help exporters succeed, particularly SMEs that have the largest potential to expand internationally. Last
year the reported performance measure for market development programs was SME sales. Due to data
inconsistencies, this measure has been dropped. “The value of agricultural exports resulting from participation in
foreign food and agricultural trade shows” is a broader measure of CCC and participant market development
investment.




                                                         39
                             COMMODITY CREDIT CORPORATION
                                               Performance Section

                    Table 12: Summary of Performance Measure for Market Development

       Performance Measure         FY 2008    FY 2009    FY 2010      FY 2011                 FY 2012

                                                                                  Target      Actual      Result

 Value of agricultural exports
 resulting from participation in
                                                                                              $1,332
 foreign food and agricultural       $799       $697      $1,097       $1,072      $1,100                Exceeded
                                                                                             Estimate
 trade shows (million $)
 Threshold: +/- $150 million
 Rationale for Met Range: Management Determination
                                      Data Assessment of Performance Measure
 Data Source: Data are collected by surveying U.S. company participants at the end of each trade show. Survey
 responses represent about 60 to 90 percent of total company participants at a show. In large, multiproduct
 shows, about a third to a half of the respondents are companies that are participating with one of the market
 development organizations. In more product specific shows, about two thirds of the respondents are linked to
 market development funded participants. Data reported are 12-month projected sales.
 Completeness of Data: Data are through September 7, 2012; three more shows will take place before the end of
 September.
 Reliability of Data: Data are considered reliable.
 Quality of Data: Data are self-reported but is considered a good indicator of aggregate company sales. In 2011,
 an analysis of three trade shows was completed to assess the accuracy of reported projected sales. This analysis
 compared reported projected sales to actual 12- month sales that were obtained through an extensive telephone
 survey. This review demonstrated that overall the projections understated actual sales. Prior to the review,
 many assumed projections were considerably overstating final sales.

Challenges for the Future
The economic fragility of the EU, the political unrest in the Middle East, and the slowdown in the Chinese economy,
all can have a detrimental impact on the export results of market development programs, including dampening U.S.
company sales prospects at international trade shows. The CCC ability to continue to survey company sales
following trade shows may be disrupted, as the OMB continues its review of the current survey, as required by the
Paperwork Reduction Act. Consistent and predictable funding for various market development programs is a
challenge. A new Farm Bill, or an extension of the current 2008 Farm Bill, is needed to establish predictable
program funding levels to bring stability to planning and program implementation. These factors can greatly
influence the performance measure outcomes and the availability of data to support them.




                                                        40
                             COMMODITY CREDIT CORPORATION
                                               Performance Section



                                  Export Program Area
                                      M ISS IO N E L E M ENT
               Creating U.S. Agricultural Export Opportunities and Enhancing Global Food Security



Program Overview
The primary objective of the CCC Export Credit Guarantee Programs is to increase sales of U.S. agricultural
commodities to international markets by facilitating the extension of export credits to countries that may not have
access to adequate commercial credit. These CCC Programs encourage U.S. lenders and exporters to extend credit
terms on sales of agricultural commodities and products to overseas customers. The CCC Export Credit Guarantee
Programs support the involvement of foreign private sector banks and private sector importers in commercial trade
transactions with the U.S. The Export Credit Guarantee (GSM-102) Program provides guarantees for export sales
with repayment terms up to 2 years by current policy with further restrictions depending upon the risk grade of the
country. The statutory cap on repayment terms remains at 3 years.


Analysis of Results
CCC exceeded its FY 2012 target of $3.5 billion by approximately $350 million or 10 percent based on current
estimates. Increased demand for credit amidst a risky financial environment and rising commodity prices are among
the factors that caused CCC to exceed its target. Given continued global economic volatility in the EU as well as
political and economic volatility in the Middle East, demand for the program is likely to remain strong.

CCC exceeded its 2012 economic return ratio target of $100/$1. Factors that contributed to exceeding the target
included increased income from fees despite a marginal decrease in program size from FY 2011. In addition, the
lack of any defaults or claims paid in FY 2012 allowed default estimates and, hence, program costs to remain the
same. The Economic Return Ratio is calculated using gross default estimates and does not take into consideration
expected recoveries on claims paid. Program accomplishments for FY 2012 include:
       Risk dispersion in FY 2012 improved when compared to FY 2011. The top five obligor countries in FY
        2012 represented only 60 percent of total projected program size. In FY 2011, the top five obligor
        countries represented almost 75 percent of total program size. A wider dispersion of obligors represents
        less risk concentration.
       Registrations to Africa and the Middle East increased by 18 percent over FY 2011, with registrations for
        Egypt increasing 128 percent.
       South East Asian registrations increased 63 percent over FY 2011, with registrations for the Philippines
        increasing over 600 percent and for Indonesia over 145 percent.
       Chilean banks increased program registrations by over 250 percent in FY 2012. Mexican banks returned to
        the program with over $90 million in registrations.
       FY 2012 saw registrations for new commodities such as almonds, breeding horses, corn gluten feed, corn
        meal, fish, fresh fruit and lumber.
       Soybean and soybean meal together totaled over $1.3 billion in registrations, while breeding cattle
        registrations were up over 400 percent.
       FY 2012 saw no reported defaults and no claims paid. $30.1 million in cash recoveries were received in
        FY 2012.


                                                        41
                            COMMODITY CREDIT CORPORATION
                                               Performance Section

                            Table 13: Summary of Performance Measure for GSM

      Performance Measure           FY 2008     FY 2009        FY 2010   FY 2011               FY 2012


                                                                                     Target   Actual      Result
Estimated trade value resulting
from USDA GSM export credit
                                                                                              $3.85
guarantee program (dollars in         $3.11       $5.32      $3.09      $4.12       $3.5                  Exceeded
                                                                                             Estimate
billions)
Threshold: $0.25
Rationale for Met Range: Management decision
                                     Data Assessment of Performance Measure
The data source for this measure is the GSM System. The GSM System records all export sales registered,
guarantees issued and shipments and makes adjustments to these amounts due to reserves or shipments not
completed.
Completeness of Data: Data reported are estimated final results for the fiscal year based on data available as of
September 13, 2012. The estimated FY 2012 amount was derived by reviewing historical monthly registrations
and projecting the same out for the remainder of the month as well as reviewing September registrations in
previous years.
Reliability of Data: CCC considers this data to be reliable. The GSM System is updated every night. The GSM
System is included in the annual A-123 review of the GSM-102 program and is also included in the annual audit
by external auditors. The performance measure is simply the guaranteed amount derived from the Commitment
Reports that are generated from the GSM System.
Quality of Data: The GSM System is a system designed solely to support the GSM export credit guarantee
programs. The GSM System is updated every night and all changes are tested before incorporated into the
system. Data is reviewed on a daily basis.

                  Table 14: Summary of Performance Measure for Economic Return Ratio

      Performance Measure           FY 2008     FY 2009        FY 2010   FY 2011               FY 2012

                                                                                     Target   Actual      Result


Economic Return Ratio                                                                         $111.24/
                                                                         $107.56/$   $100/
                                      N/A         N/A           N/A                            $1.00     Exceeded
                                                                           1.00      $1.00
(New measure in FY 2011)                                                                      Estimate
Threshold: +/-$5.00
Rationale for Met Range: Management decision
                                    Data Assessment of Performance Measure
The data source for this measure is the GSM System. The GSM System records all export sales registered,
guarantees issued and shipments and makes adjustments to these amounts due to reserves or shipments not
completed.
Completeness of Data: Data reported are estimated final results for the fiscal year based on data available as of
September 13, 2012. The estimated FY 2012 amount was derived by reviewing historical monthly registrations
and projecting the same out for the remainder of the month as well as reviewing September registrations in
previous years.
Reliability of Data: CCC considers this data to be reliable. The GSM System is updated every night. The GSM
System is included in the annual A-123 review of the GSM-102 program and is also included in the annual audit
by external auditors. The performance measure is simply the guaranteed amount derived from the Commitment
Reports that are generated from the GSM System.
Quality of Data: The GSM System is a system designed solely to support the GSM export credit guarantee
programs. The GSM System is updated every night and all changes are tested before incorporated into the
system. Data is reviewed on a daily basis.


                                                          42
                             COMMODITY CREDIT CORPORATION
                                               Performance Section


Challenges for the Future
FY 2013 presents numerous challenges for the CCC-funded Export Credit Guarantee Program. The pending Farm
Bill and continued negotiation with Brazil to reach a solution to the long standing World Trade Organization dispute
are likely to require some level of program changes. Both remain unclear at this time. Continued uncertainties in
the global economic environment could create demand shifts based on commercial financing availability as the size
of this program typically runs countercyclical to global financial stability.




                                                        43
Part III: Financial Section




            44
                      COMMODITY CREDIT CORPORATION
                                Consolidated Financial Statements


                Consolidated Financial Statements
                                     Commodity Credit Corporation
                           CONSOLIDATED BALANCE SHEETS
                                As of September 30, 2012 and 2011
                                           (In Millions)

                                                                       2012               2011
Assets:
 Intragovernmental:
   Fund Balance with Treasury (Note 2)                             $          2,984   $          4,394
   Accounts Receivable, Net (Note 4)                                            151                 55
 Total Intragovernmental Assets                                    $          3,135   $          4,449
 Accounts Receivable, Net (Note 4)                                            2,445              3,341
 Direct Loans and Loans Guarantees, Net:
   Commodity Loans, Net (Note 5)                                                400             338
   Credit Program Receivables, Net (Note 6)                                   3,840           4,048
 Subtotal                                                          $          4,240   $       4,386
 Commodity Inventories and Related Property, Net (Note 7)                        14              51
 General Property and Equipment, Net (Note 8)                                    28              48
 Other (Note 9)                                                                 111             127
Total Assets                                                       $          9,973   $      12,402
 Stewardship Land (Note 1)
Liabilities (Note 10):
 Intragovernmental:
   Debt to the Treasury (Note 11)                                  $          2,682   $          2,865
   Other:
     Resources Payable to Treasury (Note 13)                                  1,850              1,988
     Deposit and Trust Liabilities (Note 12)                                  1,532              1,269
     Other (Note 13)                                                            159                 86
   Subtotal                                                        $          3,541   $          3,343
 Total Intragovernmental Liabilities                               $          6,223   $          6,208
 Accounts Payable                                                               464                435
 Loan Guarantee Liability (Note 6)                                              174                114
 Environmental and Disposal Liabilities (Note 14)                                 8                  8
 Other Liabilities:
   Accrued Liabilities (Note 15)                                           8,246              9,109
   Deposit and Trust Liabilities (Note 12)                                     7                  7
   Other (Note 13)                                                            84                236
 Subtotal                                                          $       8,337      $       9,352
Total Liabilities                                                  $      15,206      $      16,117
Commitments and Contingencies (Note 16)
Net Position:
 Capital Stock                                                     $         100      $         100
 Unexpended Appropriations                                                   900              1,167
 Cumulative Results of Operations                                         (6,233)            (4,982)
Total Net Position                                                 $      (5,233)     $      (3,715)
Total Liabilities and Net Position                                 $       9,973      $      12,402

The accompanying notes are an integral part of these statements.



                                                    45
                             COMMODITY CREDIT CORPORATION
                                        Consolidated Financial Statements

                                            Commodity Credit Corporation
                             CONSOLIDATED STATEMENTS OF NET COST
                              For the Fiscal Years Ended September 30, 2012 and 2011
                                                    (In Millions)

                                                                                 2012              2011
Strategic Goals (Note 17):

Provide a Financial Safety Net for Farmers and Ranchers:
    Gross Cost                                                              $          5,822   $      6,249
    Less: Earned Revenue                                                                  86            105
    Net Goal Cost                                                           $          5,736   $      6,144

Ensure Commodities are Procured and Distributed Effectively and Efficiently:
    Gross Cost                                                               $           90    $          326
    Less: Earned Revenue                                                                 25                30
    Net Goal Cost                                                            $           65    $          296

Increase Stewardship of Natural Resources While Enhancing the Environment:
    Gross Cost                                                            $            2,154   $      2,374
    Less: Earned Revenue                                                                  39             40
    Net Goal Cost                                                         $            2,115   $      2,334

Increase U.S. Food and Agricultural Exports:
    Gross Cost                                                              $          2,511   $      2,894
    Less: Earned Revenue                                                                 702            358
    Net Goal Cost                                                           $          1,809   $      2,536

Total Gross Cost                                                            $      10,577      $     11,843
Less: Total Earned Revenue                                                            852               533
Net Cost of Operations                                                      $       9,725      $     11,310

The accompanying notes are an integral part of these statements.




                                                           46
                    COMMODITY CREDIT CORPORATION
                           Consolidated Financial Statements

                             Commodity Credit Corporation
CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                For the Fiscal Years Ended September 30, 2012 and 2011
                                      (In Millions)

                                                          2012               2011

Capital Stock                                        $             100   $           100

Cumulative Results of Operations:
 Beginning Balance                                   $         (4,982)   $      (8,623)

Budgetary Financing Sources:
 Appropriations Used                                          11,431            17,124
 Non-exchange Revenue                                             (8)               19
 Transfers in/out without Reimbursement, Net                  (4,042)           (3,497)

Other Financing Sources (Non-Exchange):
 Transfers in/out without Reimbursement, Net                      (74)              (3)
 Imputed Financing                                              1,252            1,417
 Other                                                            (85)            (109)
Total Financing Sources                              $          8,474    $      14,951
Net Cost of Operations                                         (9,725)         (11,310)
Net Change                                           $         (1,251)   $       3,641
Cumulative Results of Operations                     $         (6,233)   $      (4,982)

Unexpended Appropriations:
 Beginning Balance                                   $           1,167   $          1,852

Budgetary Financing Sources:
 Appropriations Received                                      11,116            16,801
 Appropriations Transferred in/out                                 -               (28)
 Other Adjustments                                                48              (334)
 Appropriations Used                                         (11,431)          (17,124)
Total Budgetary Financing Sources                    $          (267)    $        (685)
Total Unexpended Appropriations                      $           900     $       1,167

Net Position                                         $         (5,233)   $      (3,715)

The accompanying notes are an integral part of these statements.




                                           47
                                     COMMODITY CREDIT CORPORATION
                                                 Consolidated Financial Statements

                                                     Commodity Credit Corporation
                                     COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                        For the Fiscal Years Ended September 30, 2012 and 2011
                                                              (In Millions)

                                                                                              2012                                2011
                                                                                                     Non-                                Non-
                                                                                                  Budgetary                           Budgetary
                                                                                                 Credit Reform                       Credit Reform
                                                                                                   Financing                           Financing
                                                                                 Budgetary         Accounts          Budgetary         Accounts
Budgetary Resources:
 Unobligated balance brought forward, October 1                              $        1,870      $        657    $        2,288      $      1,111
 Recoveries of prior year unpaid obligations                                          1,199                29               828                38
 Other changes in unobligated balance                                                   (50)             (437)              (78)             (217)
 Unobligated balance from prior year budget authority, net                            3,019               249             3,038               932
 Appropriations (discretionary and mandatory)                                         2,503                 -             2,309                 -
 Borrowing Authority (discretionary and mandatory)                                   11,267               219            11,193               116
 Spending authority from offsetting collections (discretionary and
 mandatory)                                                                           5,715               282             8,561               443
 Total Budgetary Resources                                                   $       22,504      $        750    $       25,101      $      1,491

Status of Budgetary Resources:
  Obligations Incurred (Note 18)                                             $       21,291      $        409    $       23,231      $        834
     Apportioned                                                                        199               217               526               537
     Exempt from apportionment                                                          355                 5             1,136                 9
     Unapportioned                                                                      659               119               208               111
  Total Unobligated balance, end of year                                              1,213               341             1,870               657
  Total Budgetary Resources                                                  $       22,504      $        750    $       25,101      $      1,491

Change in Obligated Balance:
 Unpaid obligations, brought forward, October 1 (gross)                      $        9,924      $        210    $        9,894      $        238
 Uncollected customer payments from Federal sources, brought forward,
 October 1                                                                              (53)             (157)             (246)             (158)
    Obligated balance, start of year (net)                                            9,871                53             9,648                80
 Obligations Incurred                                                                21,291               409            23,231               834
 Outlays (gross)                                                                    (18,658)             (417)          (22,373)             (823)
 Change in uncollected customer payments from Federal sources                           (81)                -               193                 -
 Recoveries of prior year unpaid obligations                                         (1,199)              (29)             (828)              (38)
 Obligated balance, end of year
    Unpaid obligations, end of year (gross)                                          11,358               173             9,924               210
    Uncollected customer payments from Federal sources, end of year                    (134)             (157)              (53)             (157)
 Obligated balance, end of year (net)                                        $       11,224      $         16    $        9,871      $         53

Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)                       $       19,485      $        501    $       22,063      $        559
 Actual offsetting collections (discretionary and mandatory)                         (9,437)             (561)          (12,213)             (569)
 Change in uncollected customer payments from Federal sources
 (discretionary and mandatory)                                                          (81)                -               193                 -
 Budget authority, net (discretionary and mandatory)                         $        9,967      $        (60)   $       10,043      $        (10)

  Outlays, gross (discretionary and mandatory)                               $       18,658      $        417    $       22,373      $        823
  Actual offsetting collections (discretionary and mandatory)                        (9,437)             (561)          (12,213)             (569)
  Outlays, net (discretionary and mandatory)                                          9,221              (144)           10,160               254
  Distributed offsetting receipts                                                         -               (74)                -              (225)
  Agency Outlays, net (discretionary and mandatory)                          $        9,221      $       (218)   $       10,160      $         29

The accompanying notes are an integral part of these statements (Note 18).




                                                                       48
Notes to the Financial
Statements




               49
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies
Reporting Entity
CCC is a Federal corporation operating within and through USDA. It was established to stabilize, support, and
protect farm income and prices; assist in the maintenance of balanced and adequate supplies of agricultural
commodities; and facilitate the orderly distribution of those commodities.

CCC’s statutory authority for its operations is found in the Commodity Credit Corporation Charter Act, 15 U.S.C.
714, and et seq. The Corporation is managed by a Board of Directors subject to the general supervision and
direction of the Secretary of Agriculture who is an ex-officio director and chairperson of the Board. The members of
the Board and the Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds as well as an authority to borrow from the U.S. Treasury
(Treasury). The Treasury also holds capital stock in the amount of $100 million with no obligation to repay, on
which the Corporation pays interest. CCC receives direct appropriations for several of its foreign assistance
programs and special activities, such as disaster aid. Permanent indefinite borrowing authority exists for programs
subject to the Federal Credit Reform Act of 1990, as amended. Receipts flowing through CCC's related revolving
fund include proceeds from the sale of CCC commodities, loan repayments, interest income, and various program
fees.

CCC has no employees or facilities. Its programs are administered through various agencies including FSA, AMS,
NRCS, FAS, and USAID. The accompanying financial statements include an allocation, as appropriate, of salaries
and expenses (e.g., facility costs) incurred by FSA. In other instances, CCC reimburses the other agencies for their
administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of operations of CCC pursuant to the
requirements of 31 U.S.C. 3515 (b), Financial Statements of Agencies. These statements have been prepared from
the accounting records of CCC as of September 30, 2012 and September 30, 2011 in accordance with generally
accepted accounting principles for Federal entities and policies prescribed in OMB Circular A-136, Financial
Reporting Requirements. OMB financial reporting guidelines require the presentation of comparative financial
statements for all principal financial statements. The statements are in addition to the external financial reports used
to monitor and control budgetary resources, which are also prepared from CCC’s general ledger. These financial
statements have been prepared for the Corporation which is a component of the U.S. Government, a sovereign
entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and budgetary accounting
transactions. Under the accrual method, revenues are recognized when earned, and expenses are recognized when a
liability is incurred without regard to receipt or payment of cash. The budgetary accounting principles, on the other
hand, are designed to recognize the obligation of funds according to legal requirements, which in many cases is prior
to the occurrence of an accrual-based transaction. The recognition of budgetary accounting transactions is essential
for compliance with legal constraints and controls over the use of Federal funds. The financial statements include
all Treasury funds of CCC, which encompass its domestic and foreign activities. CCC consolidates all costs related
to its child activities for the allocated funds transfers and shared appropriations. (Refer to the Allocation Transfers
and Shared Appropriations section of this note for parent/child information). In consolidation, intra-agency
activities and balances have been eliminated except for the Statement of Budgetary Resources, which is presented on
a combined basis as required by OMB Circular A-136 guidance.


                                                          50
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with another Federal agency as a transferring (parent) entity. Allocation
transfers are legal delegations by one department of its authority to another department (child entity) to obligate
budget authority and outlay funds. A separate fund account (allocation account) is created in the U.S. Treasury as a
subset of the parent fund account for tracking and reporting purposes. All allocation transfers of balances are
credited to this account, and subsequent obligations and outlays incurred by the child entity are charged to this
allocation account as they execute the delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to USAID to fund P.L. 480 Title II transportation and other administrative costs
in connection with foreign donations. CCC reports USAID’s budgetary and proprietary transactions for which it is
the parent. As of FY 2012, CCC no longer receives allocation transfers from FSA and no longer reports activity as a
receiving (child) entity.

Fund Balance with Treasury
CCC disbursements are made by checks or electronic funds transfers that are deducted from CCC’s account at
Treasury. Generally, receipts and disbursements for CCC are processed by the Federal Reserve Banking system.

Treasury requires that the Fund Balance with Treasury amounts reported via Federal Agencies' Centralized Trial-
Balance System I (FACTS I) be in agreement with Treasury’s records. To comply with these requirements, cash
timing differences due to deposits in-transit or outstanding checks are reported as “in-transit”. The cash balance
includes such timing differences as a result of varying processing times and cut-off dates between CCC, Treasury,
and other USDA entities.

Cash
CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities, either based on legal provisions,
such as program overpayments, or for goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off information, and
other analysis which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities. In the case
of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b) for certain designated
commodities repay the loan at the market rate if the market rate is less than the loan rate; or (c) at maturity, forfeit
the commodity in satisfaction of the loan. Commodity loans are statutorily exempt from the accounting and
reporting requirements of the Federal Credit Reform Act.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable balances.

Commodity loans are reported net of an allowance for doubtful accounts which reduces the loans to their estimated
net realizable value. The allowance is based on the estimated loss on ultimate disposition when it is more likely than
not that the loans will not be fully collected. When CCC disposes of forfeited commodities, depending on the type
of disposition, any loss on the disposition is realized as either a cost of sales or a donation.


                                                           51
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included The Fair and Equitable Tobacco Reform Act (the Law),
effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco producers or quota
holders. The producer is an owner, operator, landlord, tenant, or sharecropper that shared in the risk of producing
tobacco on a farm where tobacco was produced or considered planted pursuant to a tobacco farm poundage quota or
farm acreage allotment. The quota holders are the landowners of the farm where a tobacco quota was assigned.
Quota was the quantity of tobacco required to meet the national domestic needs during the year. That national
amount was allocated among all the prior year quota holders to establish the quantity of tobacco that each individual
quota holder could market during the program year.

The Law required CCC to dispose of its outstanding tobacco loan portfolio and establish contracts with and make
payments to tobacco producers and quota holders to transition from the previous price support program to a free
market. This transition period encompasses ten years and began in FY 2005. The Law authorized a total maximum
of $10.14 billion over the period to cover the realized losses of $292 million related to the disposition of the tobacco
loan collateral in FY 2005, making payments to producers and quota holders, and other eligible expenses. CCC
estimates that payments made over the 10-year period will be approximately $6.7 billion to quota holders and $2.9
billion to tobacco producers. The total source of revenue or other financing for the program is intended to be
derived from assessments levied upon manufacturers and importers of tobacco products and collected quarterly.
Manufacturers and importers are expected to pass these costs on to consumers of tobacco products through increased
sales prices. All collections from the tobacco industry are deposited into the Tobacco Trust Fund managed by CCC.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly collection
of assessments from the tobacco manufacturers and importers. Because of the difference in timing of the collections
and assessments, collections will not match disbursements on an annual basis. The Law allows CCC’s revolving
fund to make payments to the quota holders and producers, and allows for reimbursement from the Tobacco Trust
Fund. The assessments collected from the tobacco industry are subsequently transferred to CCC’s revolving fund,
reimbursing that fund for the payments made to quota holders and producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections from the
manufacturers and importers over the 10-year period ending in 2014. In addition, CCC recognized an accrued
liability for the present value of the remaining pay-out amount to the quota holders and producers. Because the trust
fund collections from the tobacco manufacturers and importers are intended to fund the payments to quota holders
and producers, the present value of the public receivable and the liability were reported in equal amounts on the
balance sheet in FY 2005. As actual activity occurs each fiscal year, the receivable and accrued liability estimates
are adjusted to reflect the expected cash flows for the remaining period of the contracts, as well as the historical
collection and disbursement activity.

Credit Reform Accounting
Purposes of The Federal Credit Reform Act of 1990 (FCRA) include measuring more accurately the costs of Federal
credit programs and placing the cost of credit programs on a budgetary basis equivalent to other Federal spending.
The FCRA applies to direct loans and loan guarantees made on or after October 1, 1991.




                                                          52
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts that require
the repayment of such funds within a certain time with or without interest. It includes the purchase of, or
participation in, a loan made by another lender and financing arrangements that defer payment for more than 90
days. Loan guarantees represent insurance that the payment of all or part of the principal or interest on any debt
obligation of a non-Federal borrower to a non-Federal lender will be received by the non-Federal lender. A
defaulted loan guarantee occurs if the borrower fails to make a payment pursuant to the terms of the obligation.

The cost of direct loans is accounted for on a net present value basis at the time when the direct loan is disbursed. It
includes the cash flows of loan disbursements; repayments of principal; payments of interest; recoveries or proceeds
of asset sales; and other payments by or to the Government over the life of the loan. The present value computation
also contains effects for estimated defaults, prepayments, fees, penalties, and any expected actions, such as the
exercise by the borrower of an option included in the loan contract.

The cost of loan guarantees is also accounted for on a net present value basis at the time when the guaranteed loan is
disbursed. The cost includes the estimated cash flows of payments by CCC to cover defaults and delinquencies,
interest subsidies, and other requirements, payments to CCC including origination and other fees, penalties, and
recoveries, including the effects of any expected actions by CCC and the exercise by the guaranteed lender or the
borrower of an option included in the loan guarantee contract.

In estimating net present values, the discount rate is the average interest rate on marketable Treasury securities of
similar maturity cash flows of the direct loan or loan guarantee for which the estimate is being made. When funds
are obligated for a direct loan or loan guarantee, the estimated cost is based on the current assumptions adjusted to
incorporate the terms of the loan contract.

The credit program account is the budget account into which an appropriation to cover the cost of a direct loan or
loan guarantee program is made and from which such cost is disbursed to the financing account. The financing
account is the non-budget account or accounts associated with each credit program account that holds balances,
receives the cost payment from the credit program account, and also includes all other cash flows to and from CCC
resulting from direct loan obligations or loan guarantee commitments made on or after October 1, 1991. The
liquidating account is the budget account that includes all cash flows to and from CCC resulting from direct loan
obligations or loan guarantee commitments made prior to October 1, 1991. These accounts are shown in the Federal
budget on a cash basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991, are credited
to the liquidating accounts. The amounts credited are available to the same extent that they were available to
liquidate obligations arising from such direct loans obligated or loan guarantees committed prior to October 1, 1991,
including repayment of any obligations held by the Department of Treasury. The unobligated cash balances of such
accounts that are in excess of current needs must be transferred at least annually to the general fund of the Treasury.




                                                          53
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements (Refer to Note 6). Credit program
receivables consist of:

        Direct loans extended under Public Law 83-480 (P.L. 480) programs;
        Receivables in the Debt Reduction Fund (this fund is specifically setup to restructure loans);
        Receivables for the General Sales Manager program in the form of reschedule agreements;
        Loans made to producers to build or upgrade farm storage and handling facilities;
        Loans made to apple producers who incurred losses due to low market prices; and
        Loans made to the Texas Boll Weevil Eradication Foundation.

These receivables (including related interest), for Post-Credit Reform, are recognized as assets at the present value
of their estimated net cash inflows. The difference between the outstanding principal of these receivables and the
present value of their net cash inflows is recognized as an allowance. CCC uses the Credit Subsidy Calculator 2
(CSC2) for computing the subsidy re-estimates for its Credit Reform programs. The CSC2 is an OMB tool for
performing credit calculations, incorporating both financing account interest and cash flow amounts. CCC also uses
the Treasury Credit Reform Certificate Program guidelines, Statement of Federal Financial Accounting Standards
(SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees, SFFAS No. 18, Amendments to Accounting for
Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical Amendments to Accounting for Direct Loans and
Loan Guarantees for the accounting and reporting of its loan subsidy cost re-estimation and amortization.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of foreign credit
and other foreign receivables (capitalized interest). In such circumstances, CCC records an allowance to reduce the
receivable, including the capitalized interest, to the present value of future cash flows. Interest income is recognized
only when, in management's judgment, debtors have demonstrated the ability to repay the debt in the normal course
of business.

Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the SFFAS No.
3, Accounting for Inventory and Related Property, issued by the Federal Accounting Standards Advisory Board
(FASAB), represent commodities acquired by the Corporation for donation or price support purposes. They are
eventually sold or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after acquisition.
Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the purchase settlement
price. Since loan rates and income support levels are established by statute, inventory acquisitions are usually
recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the previous
month. In other cases, the cost is computed on the basis of actual (historical) cost of the commodity. Actual cost is
used with: (a) simultaneous acquisition and disposition for commodity export programs; and (b) dispositions of
commodities previously pledged as price support loan collateral, which are acquired and simultaneously disposed of
by CCC during the exchange of commodity certificates. Commodity certificates are issued electronically by CCC
and must be immediately exchanged for a commodity owned by the Corporation.




                                                          54
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
CCC purchases commodities for the USAID administered Bill Emerson Humanitarian Trust program, in order to
meet humanitarian food needs in foreign countries. This prepositioned inventory is procured and made readily
available as needed for foreign countries in need. This is done in advance because the process from procurement to
delivery can be lengthy and by having the inventory available these food needs can be met more timely. CCC is
currently recording prepositioned inventory on CCCs financial statements. Prior to March 2011, CCC was only
recording domestic prepositioned inventory (located in the U.S., prior to being shipped overseas). With the
conversion to the Web Based Supply Chain Management System (WBSCM), CCC is now recording both domestic
and foreign prepositioned inventory.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other Federal entities is classified as an
expense with the public since the commodities being sold are originally purchased or otherwise acquired from a
public source.

Commodity inventories are valued at net realizable value in accordance with SFFAS No. 3. Ending inventory
balances are examined at period end to determine each commodity’s market value. A valuation allowance is
recorded if the book value of a commodity exceeds its market value.

For financial statement purposes, the BDOs are valued at the net sales proceeds and are presented as part of CCC’s
Commodity Inventories and Related Property. CCC recognizes gain or loss on each exchange transaction
determined by the difference between CCC’s book value of the commodity and the BDO value received in the
exchange (Refer to Note 7).

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related to placing
the asset into service such as freight, installation, and testing. Purchases of property valued at $25,000 or more and
a useful life of 2 years or greater are capitalized. Property and equipment is depreciated on a straight-line basis.
Automated Data Processing (ADP) computer equipment has a service life of 5 years. There is no salvage value
associated with general property and equipment.

In addition, internal use software valued at $100,000 or more and a useful life of 2 years or greater is capitalized.
Internal use software development costs are accumulated and capitalized upon completion. In accordance with
SFFAS No. 10, Accounting for Internal Use Software, capitalized software development costs include contractor
developed software, purchased software, and internally developed software. Capitalized internal use software costs
are amortized over a period of 5 years beginning with the first year the software is fully operational. Also included
are costs incurred by FSA which are transferred to CCC without reimbursement and are reflected as software-in-
development on CCC’s financial statements until such time as the software is completed and put into operation.
Once the software is put into operation, amortization begins (Refer to Note 8).

Non-Entity Assets
Non-entity assets are assets held by CCC that are not available for use in its operations. In FY 2012, CCC did not
have any non-entity assets.




                                                          55
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange transaction
occurs (i.e., receipt of goods or services in return for a promise to provide money or other resources in the future), a
liability is recognized in the period in which the exchange occurred. If a nonexchange transaction occurs (i.e.,
government programs where there is a one-way flow of resources or promises), a liability is recognized for any
unpaid amounts due as of the reporting date. Liabilities not covered by budgetary resources, disclosed in Note 10,
result from the accrual of unpaid amounts due to various CCC programs. Budgetary resources for the programs will
not be made available until the subsequent fiscal year until Congressional action or OMB apportionment is
completed.

Resources Payable to Treasury
Liquidating Funds: Resources payable to Treasury represent the Pre-Credit Reform funds ‘assets that are in excess
of the funds’ liabilities. After liquidating all the liabilities of these Pre-Credit Reform funds, unobligated funds are
then returned to Treasury annually.

Financing Funds: Downward reestimates/subsidies are paid to Treasury in the year of funding. The downward
reestimate is recorded as an unfunded payable.

Custodial Collections
As a normal part of its business practices CCC collects FSA farm loans and forwards them to FSA. In addition,
penalties, fines, fees and other funds are collected and forwarded to Treasury. These are not part of CCC budget
authority

Downward Reestimates Payable to Treasury General Fund
When direct and guaranteed loan financing funds collect more subsidy than necessary to fund future net cash
outflows, the applicable financing account transfers the excess subsidy, with interest, to a Treasury General Fund
Receipt (GFR) Account. The GFR accounts are shown in the financial statements as non-entity. The downward
reestimate costs are shown in the “Other” line of the Statement of Changes in Net Position.

Loan Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is necessary to
maintain or increase U.S. sales of agricultural products. CCC underwrites credit extended by the private banking
sector under the Export Credit Guarantee Program (GSM-102) and Facilities Guarantee Program (FGP). Credit
guarantee liabilities represent the estimated net cash outflows of the guarantees on a present value basis. CCC
records a liability and an allowance expense to the extent that CCC will be unable to recover claim payments under
the Credit Reform Export Credit Guarantee programs. The allowance is based on management’s estimate.

Imputed Costs
Imputed costs represent costs incurred by other USDA agencies for the benefit of CCC. The majority of CCC’s
programs and related expenses are delivered through the personnel and facilities of FSA. The imputed costs consist
of the costs of hired labor, opportunity costs of unpaid labor, capital recovery of machinery and equipment,
opportunity costs of land, general farm overhead, payroll taxes, and insurance.

Tax Status
CCC, as a Federal entity, is not subject to Federal, State, or local income taxes, and accordingly, no provision for
income tax is necessary.



                                                           56
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 1 - Significant Accounting Policies, Continued
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that affect the
reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the date of the financial
statements, and the reported amounts of revenues and expenses during the reporting period. Actual results will
invariably differ from those estimates.

Stewardship Land
Although the funding source of easements purchased for the Wetlands Reserve Program (WRP) has changed over
the life of the program, the authority for administering and managing the program has resided with NRCS since the
1994 USDA Reorganization Act. NRCS holds the accountability for the management, monitoring, and enforcement
for all easements purchased under the WRP. As such, NRCS remains responsible to disclose required information
for all WRP easements as stewardship land.

Statement of Budgetary Resources Presentation
In accordance with OMB Circular A-136 requirements, the Statement of Budgetary Resources presentation was
significantly restructured compared to its presentation for FY 2011 in order to better align with the reporting format
of the SF-133, Report on Budget Execution and Budgetary Resources. Due to this change, the FY 2011 Statement
of Budgetary Resources has been reformatted compared to what was reported in FY 2011. The result is a change in
format only; the underlying supporting information is unchanged.




                                                            57
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 2 – Fund Balance with Treasury
Fund balances with Treasury, by type of fund, as of September 30, 2012 and 2011 were as follows:
                                                                                                   (In Millions)

                                                                                          2012                     2011

Trust Funds                                                                         $             49        $             -
Revolving Funds                                                                                1,259                  2,598
General Funds                                                                                  1,676                  1,793
Other Fund Types                                                                                 -                        3
Total Fund Balance with Treasury                                                    $          2,984        $         4,394


The status of fund balances with Treasury as of September 30, 2012 and 2011 were as follows:
                                                                                          2012                     2011

Unobligated Balance
  Available                                                                         $            776        $         2,208
  Unavailable                                                                                    778                    319
Obligated Balance not yet Disbursed                                                           11,239                  9,924
Subtotal                                                                            $         12,793        $        12,451
Less: Borrowing Authority not yet Converted to Fund Balance                                   (9,809)                 (8,060)
Non-Budgetary Fund Balance with Treasury:                                                        -                         3

Total Fund Balance with Treasury                                                    $          2,984        $         4,394


The Unobligated Unavailable balance represents unobligated resources not yet apportioned by OMB and
unobligated appropriations from prior years that are no longer available for new obligations. Borrowing authority
not yet Converted to Fund Balance represents unobligated and obligated amounts recorded as of September 30, 2012
and 2011, which will be funded by future borrowings.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation, Submission,
and Execution of the Budget. Borrowing authority permits the Corporation to incur obligations and authorizes it to
borrow funds to liquidate the obligations (Refer to Note 1, under Reporting Entity, and Note 18 for additional
information on permanent indefinite borrowing authority).


Note 3 – Cash and Other Monetary Assets
As of September 30, 2012, CCC does not have balances classified as Cash and Other Monetary Assets.




                                                           58
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 4 – Accounts Receivable, Net
Accounts receivable as of September 30, 2012 and 2011 were as follows:

                                                                                       (In Millions)

                                                                              2012                      2011
Intragovernmental:
  Due from the Department of Treasury                                   $               4        $                3
  Due from the Department of Transportation                                           112                        32
  Due from Other Federal Agencies                                                      35                        20

Total Intragovernmental Accounts Receivable, Net                        $             151        $               55

Public:
  Notes Receivable                                                      $               20       $                20
  Interest Receivable                                                                   16                        35
  TTPP Receivable                                                                    2,286                     3,218
  Other                                                                                137                        79
Subtotal                                                                $            2,459       $             3,352
Less: Allowances for Doubtful Accounts                                                 (14)                      (11)

Total Public Accounts Receivable, Net                                   $            2,445       $             3,341


CCC records a receivable due from the Department of Treasury. The receivable is related to the collection of credit
subsidy for the Debt Reduction Fund. Since this program is Pre-Credit Reform, it does not have a program fund
account, and CCC records a separate receivable to capture the transaction with Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual increase in the share of
particular exports, mostly food aid, which must be carried on U.S. flagged vessels. The Food Security Act and
Section 901d (b) of the Merchant Marine Act, 1938 (the Act), provide for the reimbursement of certain
transportation costs the Corporation incurs. In accordance with these Acts, CCC establishes a receivable from the
Department of Transportation for freight costs paid to U.S. flagged vessels exceeding 20 percent of the total cost
related to the donated commodities and freight costs if CCC were to use a commercial vessel.

Other public receivables consist of amounts due as a result of program overpayments or dishonored checks.
Examples of CCC programs include Crop Disaster Assistance and Conservation Reserve Program.

As of September 30, 2012, Public Accounts Receivable for the Tobacco Transition Payment Program (TTPP) was
$2,286 million and included $388 million as a short-term receivable and $14 million of the Notes Receivable
balance; and, $8 million in Interest Receivable balance (Refer to the TTPP section of Note 1for general information
on the program).

As of September 30, 2011, Public Accounts Receivable for TTPP was $3,218 million and included $352 million as a
short-term receivable. TTPP comprised $13 million of the Notes Receivable balance; and, $8 million in Interest
Receivable balance.




                                                        59
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 5 – Commodity Loans, Net
Commodity loans receivable, by commodity, as of September 30, 2012 and 2011 were as follows:

                                                                                     (In Millions)

                                                                              2012                   2011
        Cotton                                                         $              93      $              89
        Dry Whole Peas                                                                 2                      2
        Feed Grains:
          Barley                                                                       3                      1
          Corn                                                                        57                     45
        Honey                                                                          2                      2
        Oilseeds                                                                       1                      1
        Peanuts                                                                       25                     20
        Rice                                                                         160                    107
        Soybeans                                                                      10                     12
        Wheat                                                                         43                     56

        Total Commodity Loans                                          $             396      $             335

        Accrued Interest Receivable                                    $               3      $               1

        Penalties, Fines, and Administrative Fees                      $               1      $               2

        Total Commodity Loans, Net                                     $             400      $             338


As of September 30, 2012, total commodity loans increased by $62 million from the previous year. The increase is
primarily related to rice loans; the 2012 harvest is significantly ahead allowing loans to be placed earlier. Corn
loans also increased due to an earlier harvest; wheat loans decreased primarily due to high market prices.




                                                        60
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net
Direct credit and loan obligations and credit guarantee commitments made after FY 1991 and the resulting direct
credits and loans or credit guarantees are governed by the Federal Credit Reform Act of 1990, as amended. The
Federal Credit Reform Act requires agencies to estimate for the President’s Budget the cost of direct credits and
loans and credit guarantees at the present value of future cash flows. Additionally, the present value of the subsidy
costs (i.e., interest rate differentials, interest subsidies, delinquencies and defaults, fee offsets and other cash flows)
associated with direct credits and loans and credit guarantees are recognized as a cost in the year the direct credit
and loan or credit guarantee is disbursed. The net present value of loans or defaulted guaranteed loans receivable at
any point in time is the amount of the gross loan or defaulted guaranteed loans receivable less the present value of
the subsidy at that time.

The net present value of Direct Loan and Loan Guarantees, Net as shown in the Balance Sheet, is not necessarily
representative of the proceeds that might be expected if these loans were sold on the open market.

Credit Program Discussion and Descriptions
Guaranteed Loans, Credit Guarantee Programs – Export
CCC’s Export Credit Guarantee (GSM) programs encourage exports of U.S. agricultural products to buyers in
countries where credit is necessary to maintain or increase U.S. sales, but where financing may not be available
without such credit guarantees. The GSM program has two sub categories, that is, GSM-102 and GSM-103; the
underlying difference between these two programs is principally in the length of their terms of coverage. The
Corporation underwrites credit extended by the private banking sector in the U.S. (or, less commonly, by the
exporter) under the GSM-102 program for terms of up to three years and the GSM-103 program covers credit terms
of up to ten years. CCC does not provide financing, but guarantees payments due from foreign banks and obligors.
Typically, 98 percent of principal and a portion of interest at an adjustable rate are covered. All guarantees under
these programs are denominated in U.S. dollars. In the event that CCC pays a claim under the guarantee programs,
CCC assumes the debt and treats it as a credit receivable for accounting and collection purposes.

Under Section 3101 of the 2008 Farm Bill, authority for the GSM-103 and Supplier Credit programs was
specifically repealed. Remaining liability under these programs is still subject to annual reestimate

Supplier Credit was a subset of GSM-102 offering short term (6-months) credit at a reduced guarantee percentage
of 65%. Credit was extended by the exporter to the importer for the purchase of U.S. agricultural products and had
to be secured by a promissory note signed by the importer.

Facilities Guarantees provide payment guarantees to finance commercial exports of U.S. manufactured goods and
services that will be used to improve agriculture-related facilities. Payment terms may range from 1 to 10 years, with
semi-annual installments on principal and interest. An initial payment representing at least 15 percent of the value
of the sales transaction must be provided by the importer to the exporter. The rate of coverage is currently 95 percent
and will apply to the value of the transaction, excluding the minimum 15 percent initial payment. Only one facility
guarantee has been made since program inception.

Guaranteed loans outstanding at the end of FY 2012 were $6,195 million in outstanding principal, of which $6,071
million is outstanding guaranteed principal. Guaranteed loans outstanding at the end of FY 2011 were $6,115
million in outstanding principal, of which $5,992 million was outstanding guaranteed principal. (See Table 20)




                                                            61
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
During the fiscal year, the value of the guaranteed loans is adjusted by the value of the loan guarantee liability held
against those loans. Current year subsidy expense and reestimates contributed to the change of the loan guarantee
liability through the year. The loan guarantee liability represents CCC’s liability for guarantees in the GSM
program. Table 21 shows that total loan guarantee liability moved from $114 million to $174 million during FY
2012, an increase of $60 million.

Total guaranteed loan subsidy expense in FY 2012 was $31 million compared to $63 million in FY 2011. Table 23
illustrates the breakdown of total subsidy expense for FY 2012 and FY 2011. Guaranteed loan volume increased to
$4,399 million in FY 2012, compared to $3,497 million in FY 2011 (See Table 24).

Direct Loans
Total direct loan subsidy expense is a combination of subsidy expense for new direct loans disbursed in the current
year, modifications to existing loans, and interest rate and technical reestimates to existing loans. As shown in Table
18, total direct loan subsidy expense for FY 2012 was $9million compared to $(2) million in FY 2011. For P.L.
480, subsidy expense in FY 2012 was $31 million compared to $13 million in FY 2011. For FSFL, total direct loan
subsidy expense for FY 2012 was $(22) million compared to $(10) million in FY 2011. For Boll Weevil loans,
subsidy expense for FY 2012 was $0, compared to $(5) million in FY 2011. There were no additional direct food
aid credit agreements made in either 2011 or 2012. As shown in Table 19, disbursements for FSFL loans decreased
from $247 million in FY 2011 to $205 million in FY 2012.

Direct Credit Programs – Food Aid
Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries in need of
food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace periods of up to 7
years). P.L. 480 Title I provides for government-to-government (and some government-to-private entity) sales of
U.S. agricultural commodities to developing countries on credit terms or for local currencies. Priority is given to
countries with the greatest need for food that are undertaking economic development to improve food security and
agricultural development, alleviate poverty, and promote broad based, equitable and sustainable development. All
credits under this program are denominated in U.S. dollars. The aid provided under this program is in the form of
agricultural commodities instead of actual loans; hence the term direct credit rather than direct loans, Although
legislative authority for the P.L. 480 Title I Program still exists, there have been no new loans extended under the
program since FY 2006.

Direct Credit Programs – Export
Under the GSM program, several cohorts have had defaults that resulted in rescheduled loans which are now direct
loans owed to CCC. Other than the fact that these are now direct loans, the programmatic purpose does not differ
from the original guaranteed loans under GSM.

Direct Credit Programs – Domestic
The FSFL Program was implemented to provide low cost financing for producers to build or upgrade on-farm
commodity storage and handling facilities. The loans have a term of 7, 10 or 12 years with a requirement of annual
repayment installments. Interest on these loans is accrued monthly from the date of disbursement. The borrower’s
rate is established to be equivalent to the rate of interest charged on the Treasury securities of comparable maturity.




                                                          62
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Sugar Storage Facility Loans were authorized by the 2008 Farm Bill specifically for processors of domestically
produced sugarcane and sugar beets for the construction or upgrading of storage and handling facilities for raw
sugars and refined sugars. Loan term is 15 years, and the maximum principal amount is 85 percent of the net cost of
the storage or handling equipment. No sugar storage loans have been made since the program was authorized.

The Boll Weevil Program was made available to the Texas Boll Weevil Eradication Foundation in FY 2001, an
interest-free $10 million loan to be repaid over 10 years. The loans had not been repaid at the end of the 10 year
timeframe, and new promissory notes were signed in May 2011 extending the repayment period to October 2020.

The Apple Loan Program in FY 2001 provided loans to apple producers who suffered hardships due to low prices
following the 1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years. Eligible
applicants obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to a maximum
indebtedness of $500,000. The original loan term was established as 3 years, but CCC is still receiving repayments.

Administrative Expenses
Consistent with the Federal Credit Reform Act of 1990 as amended, subsidy cash flows exclude direct Federal
administrative expenses. Administrative expenses on direct credit and loan programs were $2 million and $3
million for the fiscal years ended September 30, 2012 and 2011, respectively. Administrative expenses for the credit
guarantee programs were $7 million for each of the fiscal years ended September 30, 2012 and 2011 (See Table 25).

Subsidy Rates
Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed in
Tables 26 and 27 pertain only to the FY 2012 and FY 2011 cohorts. These rates cannot be applied to the direct and
guaranteed loans disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for
new loans reported in the current year could result from disbursements of loans from both current year cohorts and
prior-year cohorts. The subsidy expense reported in the current year also includes reestimates.

Events and Changes Having a Significant and Measurable Effect upon Subsidy Rates, Subsidy Expense, and
Reestimates
During FY 2012, Foreign Agriculture Service’s (FAS) Credit Program Division re-analyzed the expected recoveries
on rescheduled debt for Kazakhstan. The analysis was based on a number of factors, including CCC’s position with
respect to seniority or subordination of the notes, assessment of the banks, and market price ranges for each note.
This analysis once again resulted in a decrease in the projected recovery percentage for these particular rescheduled
agreements.

During FY 2012, FAS increased fees for the GSM-102 and Facilities guarantee programs. These fee increases have
served to lower the subsidy rates for both programs. FAS will continue to evaluate fees and incorporate changes as
deemed necessary.

For the Boll Weevil loan program, new promissory notes with a revised payment schedule through FY 2021 were
signed in May 2011. The associations that received these loans had repaid only nominal amounts through the first
ten years of the loans. We anticipate that they will continue to repay in accordance with the revised notes, as was
evidenced by the total amount of scheduled repayments being made during FY 2011 and FY 2012.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time that may
affect subsidy rates and reestimates in the future.


                                                         63
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Loan Modifications and Reschedulings
A modification is any Government action different from the baseline assumptions that affects the subsidy cost such
as a change in the terms of the loan contract. The cost of a modification is the difference between the present value
of the cash flows before and after the modification.

The Debt Reduction Fund is used to account for CCC’s modified debt. Debt is considered to be modified if the
original debt has been reduced or the interest rate of the agreement changed. In contrast, when debt is
"rescheduled," only the date of payment is changed. Rescheduled debt is carried in the original fund until paid.
With one exception, all outstanding CCC modified debt is carried in the Debt Reduction Fund and is governed by
the Federal Credit Reform Act of 1990 as amended. The other modification was a prepayment by Peru of GSM-102
rescheduled debt.

The $21 million increase in adjusted loan modifications (See Table 17) in FY 2012 is due to a receipt of subsidy
from the Treasury for bilateral implementation of the Democratic Republic of Congo’s 100 percent debt
cancellation.

Interest Credit
Interest is accrued monthly on both performing and non-performing direct loans and loan guarantee receivables as it
is earned using simple interest calculations based upon a 365-day year. A non-performing direct loan or loan
guarantee receivable is defined as a repayment scheduled under a credit agreement with an installment payment in
arrears more than 90 days. For those non-performing receivables, accrued interest is not recognized as income;
rather, it is deferred until the interest is received or the receivable is returned to performing status.

Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and Loan
Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a present value basis.
For loans initiated before October 1, 1991 (Pre-1992), restatement of loan value on a present value basis is permitted
but not required. Since CCC elected to restate the Pre-1992 loan receivables from nominal value to net present
value starting in 2001, the accounting treatment, including revenue recognition and allowance calculation, has been
applied consistently to Pre-1992 and Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992 and Post-
1991 loan interest receivable, the portion related to non-performing loans is deferred and presented net of the loan
receivable line item in the Balance Sheet.

Reestimate Trend Analysis
Agencies are required to reestimate the subsidy cost throughout the life of each cohort of direct loans or loan
guarantees to account for differences between the original assumptions of cash flow and actual cash flow or revised
assumptions about future cash flow. These reestimates represent additional costs or savings to the Government and
are recorded in the budget. Reestimates that indicate an increase in the subsidy cost are financed by permanent
indefinite authority.

P.L. 480 Title I Direct Credit
The P.L. 480 program had a net reestimate for FY 2012 of $9.7 million, of which $10.1 million was the technical
reestimate and $(0.4) million was interest on the reestimate. The upward reestimate totals $19 million, of which
$10.6 million was technical and $8.4 million was interest on the reestimate. The downward reestimate totals $9.3
million, of which $0.5 million is technical and $8.8 million is interest on the reestimate. The reestimate for P.L. 480
program is not significant in light of the amounts disbursed.




                                                         64
                            COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
Farm Storage Facility Loans
The FSFL program had a total reestimate of $(18) million. The upward reestimate was $7.5 million, of which $4.1
million was the technical reestimate and $3.4 million was interest on the reestimate. The downward reestimate was
$25.5 million, of which $22.4 million was the technical reestimate and $3.1 million was the interest on the
reestimate. Sixty-three percent of the downward technical reestimate was in the 2011 cohort and was due to the
financing component of subsidy which decreased dramatically during FY 2012. Reestimates for other individual
cohorts were not significant.

Export Credit Guarantees (GSM)
The GSM-102 program had a total reestimate of $31.6 million for FY 2012. The upward reestimate total is $56
million and is largely attributable to four cohorts: 2008, 2009, 2010, and 2011, in part due to another downward
revision to the projected recoveries on the Kazakhstan defaulted debt that was rescheduled in FY 2010. Cohort 2012
had a $12 million downward reestimate, attributable to an increase in actual fees received and a decrease in
predicted defaults due to a less risky composition of the cohort than originally budgeted.

The GSM-103 and Supplier Credit reestimates were not significant. GSM-103 will be entirely closed out effective
with the FY 2013 apportionment of the current reestimate.




                                                       65
                               COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
P.L. 480, Title I direct credits outstanding that were obligated prior to FY 1992 and P.L. 480 direct credits and direct
loans for FSFL, Boll Weevil, and Apple loans that were obligated after FY 1991 and related interest receivable
outstanding are as follows. Defaults on credit guarantees made prior to FY 1992 and related interest receivable are
also listed below. This information is current as of September 30, 2012 and 2011.

                            Table 15: Direct Loans and Defaulted Loan Guaranteed Loans, Net

FY 2012                                                                         (In Millions)

 Direct Loans
                                                   Loans Receivable,      Interest    Present Value       Value Of Assets
 Obligated Pre-1992                                     Gross           Receivable      Allowance         Related to Loans
    PL 480 Title 1                                 $          3,168     $      824    $      (2,362)      $          1,630
 Pre-1992 Total                                    $          3,168     $      824    $      (2,362)      $          1,630

 Obligated Post-1991
    PL 480 Title 1                                 $           1,066    $       47    $          (278)    $           835
    Debt Reduction Fund                                          235            15               (244)                  7
    Farm Storage Facility                                        714            52                (21)                745
    Boll Weevil Program                                            9             -                 (5)                  4
 Post-1991 Total                                   $           2,024    $      114    $          (548)    $         1,591
 Total Direct Loan Program Receivables             $           5,192    $      938    $         (2,910)   $         3,221


 Defaulted Guaranteed Loans
  Pre-1992
    Export Credit Guarantee Programs               $             109    $      207    $          (264)    $            52
  Pre-1992 Total                                   $             109    $      207    $          (264)    $            52

  Post-1991
   Export Credit Guarantee Programs                $             814    $       20    $          (266)    $           568
  Post-1991 Total                                  $             814    $       20    $          (266)    $           568
 Total Defaulted Guarantee Loans                   $             923    $      227    $          (530)    $           620


 Total Direct Loan and Loan Guarantees, Net        $           6,115    $    1,165    $         (3,440)   $         3,840




                                                          66
                                COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
                          Table 16: Direct Loans and Defaulted Guaranteed Loans, Net, Continued

FY 2011                                                                        (In Millions)

Direct Loans
                                                   Loans Receivable,     Interest     Present Value      Value Of Assets
Obligated Pre-1992                                      Gross          Receivable       Allowance        Related to Loans
  P.L. 480 Title I                                 $          3,820    $       10     $      (2,026)     $          1,804
Pre-1992 Total                                     $          3,820    $       10     $      (2,026)     $          1,804

Obligated Post-1991
  P.L. 480 Title I                                 $           1,140   $        1     $         (252)    $           889
  Debt Reduction Fund                                            247            -               (226)                 21
  Farm Storage Facility                                          671           49                (30)                690
  Boll Weevil Program                                              9            -                 (6)                  3
Post-1991 Total                                                2,067           50               (514)              1,603
Total Direct Loan Program Receivables              $           5,887   $       60     $        (2,540)   $         3,407

Defaulted Guaranteed Loans
Pre-1992
  Export Credit Guarantee Programs                 $            124    $        1     $           (75)   $            50
Pre-1992 Total                                     $            124    $        1     $           (75)   $            50

Post-1991
  Export Credit Guarantee Programs                 $            870    $        7     $         (286)    $           591
Post-1991 Total                                                 870             7               (286)                591
Total Defaulted Guarantee Loans                    $            994    $        8     $         (361)    $           641


Total Direct Loan and Loan Guarantees, Net         $           6,881   $       68     $        (2,901)   $         4,048




                                                          67
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
            Table 17: Schedule for Reconciling Subsidy Cost Allowance Balances (Post-1991) Direct Loans

                                                                                  (In Millions)
                                                                          FY 2012               FY 2011
       Beginning Balance of the Subsidy Cost Allowance                  $        800        $          773
       Add: Subsidy expense for direct loans disbursed
        during the year by component
        Interest Rate Differential Costs                                             (4)                   (3)
        Fees and Other Collections                                                   (1)                    -
       Total Subsidy Expense prior to Adjustments and Reestimates                    (5)     $             (3)

       Adjustments
        Loan Modifications                                              $            21      $              -
        Accruals - Technical Default Reestimates                                      5                   (22)
        Fees Received                                                                 -                     4
        Loans written off                                                          (629)                  (78)
        Subsidy allowance amortization                                              (14)                  (33)
        Other                                                                       559                   201
        Net Present Value (NPV) Adjustment                                           83                   (43)
       Total Subisidy Cost allowance before reestimates                 $           820      $            799

       Add or Subtract Subsidy Reestimates by Component
        Interest rate reestimate                                        $            -       $              5
        Technical/Default Reestimate                                                (7)                    (4)
       Total Reestimates                                                            (7)                     1
       Ending Balance of the Subsidy Cost Allowance                     $          813       $            800


Subsidy Allowance – Data in Table 17 includes subsidy for both direct loans and loans receivable derived from
those defaulted guaranteed loans which CCC rescheduled as direct loans.




                                                          68
                                               COMMODITY CREDIT CORPORATION
                                                               Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
                                    Table 18: Subsidy Expense for Direct Loans by Program and Component

FY 2012                                                                                                      (In Millions)

                                            Interest       Fees and Other        Subtotal            Total               Interest Rate       Technical          Total        Total Subsidy
Direct Loan Programs                      Differential       Collections         Subsidy          Modifications          Reestimates        Reestimates      Reestimates       Expense
 P.L 480 Title 1                      $               -    $             -                   - $              21        $             -   $           10 $             10 $              31
 Farm Storage Facility                               (4)               (1)                  (5)                 -                     -              (17)             (17)              (22)
 Boll Weevil                                          -                  -                   -                  -                     -                 -                -                -
Total Direct Loan Subsidy Expense     $              (4)   $           (1)   $              (5) $             21        $             -   $            (7) $           (7) $              9


FY 2011                                                                                                      (In Millions)

                                            Interest       Fees and Other        Subtotal              Total             Interest Rate    Technical          Total        Total Subsidy
Direct Loan Programs                      Differential       Collections         Subsidy            Modifications        Reestimates     Reestimates      Reestimates       Expense
 P.L 480 Title 1                      $               -    $             -   $               - $                    -   $            8 $             5 $            13 $              13
 Farm Storage Facility                               (3)                 -                  (3)                     -                 -             (7)             (7)              (10)
 Boll Weevil                                          -                  -                   -                      -               (3)             (2)             (5)               (5)
Total Direct Loan Subsidy Expense     $              (3)   $             -   $              (3) $                   -   $            5 $            (4) $             1 $             (2)

Subsidy reestimates are calculated on cumulative disbursements for all budget fiscal years and the respective cohorts
(direct loan/guarantee origination year) that comprise them.


For the fiscal years ended September 30, 2012 and 2011, current and prior year disbursements of Post-1991 direct
credits and loans were as follows:

                                             Table 19: Total Amount of Direct Loans Disbursed (Post-1991)

                                                                                                                    (In Millions)
                                                                                                            FY 2012             FY 2011
                Direct Loan Programs
                  Farm Storage Facility                                                               $                      205            $                   247
                Total                                                                                 $                      205            $                   247




                                                                                            69
                               COMMODITY CREDIT CORPORATION
                                            Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
As of September 30, 2012 and 2011, Post-1991 credit guarantees outstanding were as follows:

                                           Table 20: Guaranteed Loans Outstanding

        FY 2012                                                        (In Millions)

                                                 Post - 1991             Total           Post - 1991          Total
                                                Outstanding          Outstanding         Outstanding       Outstanding
                                               Principal, Face      Principal, Face       Principal,        Principal,
        Loan Guarantee Programs                    Value                Value            Guaranteed        Guaranteed
         Export Credit Guarantee Program      $           6,195    $           6,195   $         6,071   $         6,071
        Total Guarantees Disbursed            $           6,195    $           6,195   $         6,071   $         6,071


        FY 2011                                                        (In Millions)

                                                 Post - 1991             Total           Post - 1991          Total
                                                Outstanding          Outstanding         Outstanding       Outstanding
                                               Principal, Face      Principal, Face       Principal,        Principal,
        Loan Guarantee Programs                    Value                Value            Guaranteed        Guaranteed
         Export Credit Guarantee Program      $           6,115    $           6,115   $         5,992   $         5,992
        Total Guarantees Disbursed            $           6,115    $           6,115   $         5,992   $         5,992

Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by foreign banks to
exporters or assignee U.S. financial institutions participating in the program.


As of September 30, 2012 and 2011, Post-1991 Liability for Loan Guarantees (Present Value Method) were as
follows:

              Table 21: Liability for Loan Guarantees (Present Value Method for Post-1991 Guarantees)

        FY 2012                                                   (In Millions)

                                                            Liabilities for Loan
                                                          Guarantees on Post-1991             Total Liabilities for Loan
       Loan Guarantee Programs                            Guarantees Present Value                   Guarantees
        Export Credit Guarantee Program                   $                    174           $                       174
       Total Liability for Loan Guarantees                $                    174           $                       174


        FY 2011                                                   (In Millions)

                                                            Liabilities for Loan
                                                          Guarantees on Post-1991             Total Liabilities for Loan
       Loan Guarantee Programs                            Guarantees Present Value                   Guarantees
        Export Credit Guarantee Program                   $                    114           $                       114
       Total Liability for Loan Guarantees                $                    114           $                       114




                                                                  70
                                   COMMODITY CREDIT CORPORATION
                                               Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
The change in the liability for Post-1991 credit guarantees as of September 30, 2012 and 2011 was as follows:

                                   Table 22: Schedule for Reconciling Loan Guarantee Liability

                                                                                                                  (In Millions)
                                                                                                          FY 2012               FY 2011
 Beginning balance of the loan guarantee liability                                                   $           114        $          184
 Add: Subsidy expense for guaranteed loans disbursed during
 the year by component
  Fees and other collections                                                                                              -                               1
 Total of the above subsidy expense components                                                       $                    -           $                   1

 Adjustments
  Fees received                                                                                                      41               $              31
  Claim payments to lenders                                                                                           -                            (175)
  Other                                                                                                             (12)                             11
 Ending balance of the subsidy cost allowance before reestimates                                     $              143               $              52

 Add or Subtract subsidy reestimates by component:
  Interest rate reestimate                                                                           $               (4)              $              14
  Technical/default reestimate                                                                                       35                              48
 Total of the above reestimate components                                                            $               31               $              62
 Ending balance of the loan guarantee liability                                                      $              174               $             114




Subsidy expenses related to credit guarantees, made after FY 1991, net of fees and other collections, and subsidy
reestimates for the fiscal years ended September 30, 2012 and 2011 were as follows:

                         Table 23: Subsidy Expense for Loan Guarantees by Program and Component


    FY 2012                                             (In Millions)

                                       Fees and Other                           Interest Rate         Technical            Total          Total Subsidy
   Loan Guarantee Programs              Collections         Subtotal            Reestimates          Reestimates        Reestimates         Expense
    Export Credit Guarantee Programs   $            -   $               -   $              (4)   $             35   $             31      $         31
   Total Loan Guarantee Programs       $            -   $               -   $              (4)   $             35   $             31      $         31



    FY 2011                                             (In Millions)

                                       Fees and Other                           Interest Rate         Technical            Total          Total Subsidy
   Loan Guarantee Programs              Collections         Subtotal            Reestimates          Reestimates        Reestimates         Expense
    Export Credit Guarantee Programs   $            1   $              1    $              14    $             48   $             62      $         63
   Total Loan Guarantee Programs       $            1   $              1    $              14    $             48   $             62      $         63


                     Subsidy reestimates are calculated on cumulative disbursements for all cohorts.




                                                                       71
                                  COMMODITY CREDIT CORPORATION
                                                Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
For the fiscal years ended September 30, 2012 and 2011, credit guaranteed disbursements were as follows:

                                               Table 24: Guaranteed Loans Disbursed

                                                                                     (In Millions)
                                                              FY 2012                                        FY 2011
                                                  Principal,            Principal,               Principal,           Principal,
                                                 Face Value            Guaranteed               Face Value           Guaranteed
      Loan Guarantee Programs                    Disbursed             Disbursed                Disbursed            Disbursed
       Export Credit Guarantee Programs        $          4,399      $          4,306         $          3,497     $          3,427
      Total Guaranteed Loans Disbursed         $          4,399      $          4,306         $          3,497     $          3,427



                                                  Table 25: Administrative Expenses
                                                                                             (In Millions)
                                                                                 FY 2012                     FY 2011
                  Direct Loan Programs                                     $                      2    $                 3
                  Guaranteed Loan Programs                                                        7                      7
                  Total Administrative Expenses                            $                      9    $                10




FY 2012 and 2011 subsidy rates (percentage) for direct credits and loans were as follows:

                                      Table 26: Subsidy Rates for Direct Loans (percentage)

 FY 2012

                                        Interest                               Fees and Other
  Direct Loan Programs                Differential          Defaults            Collections            Other                 Total
   Farm Storage Facility                       (1.97)               0.02                 (0.27)                (0.08)                (2.30)


 FY 2011

                                        Interest                               Fees and Other
  Direct Loan Programs                Differential          Defaults            Collections            Other                 Total
   Farm Storage Facility                       (1.66)               0.03                 (0.27)                (0.11)                (2.01)


For the fiscal years ended 2012 and 2011, there were no new loans for P.L. 480, and thus, no subsidy rate was
provided. The Apple Loan Program is a one year program, cohort 2001.




                                                                   72
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 6 – Credit Program Receivables, Net, Continued
FY 2012 and 2011 subsidy rates (percentage) for credit guarantee programs were as follows:

                              Table 27: Subsidy Rates for Loan Guarantees (percentage)

           FY 2012

                                                                       Fees and Other
           Guaranteed Loan Programs                   Defaults          Collections             Total
            Export Guarantee Programs                        0.06                (0.74)              (0.68)


           FY 2011

                                                                       Fees and Other
           Guaranteed Loan Programs                   Defaults          Collections             Total
            Export Guarantee Programs                       (0.27)               (0.59)              (0.86)

Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates disclosed
pertain only to the current year’s cohort. These rates cannot be applied to the direct credits and loans and credit
guarantees disbursed during the current reporting year to yield the subsidy expense. The subsidy expense for new
direct credits and loans and credit guarantees reported in the current year could result from disbursements from both
current year and prior year(s) cohorts. The subsidy expense reported in the current year also includes modifications
and reestimates.




                                                         73
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 7 – Commodity Inventories and Related Property, Net
Inventory and related property as of September 30, 2012 and 2011 were as follows:

                                                                                     (In Millions)

                                                                             2012                    2011
   Commodity Inventories - Beginning of Fiscal Year                     $             50      $               22
   Acquisitions                                                                      814                     742
   Donations                                                                        (852)                   (742)
   Other Dispositions, Additions and Deductions                                        2                      28
   Commodity Inventories - As of September 30                           $             14      $               50

   Less: Allowance for losses                                           $              -      $               (2)

   Barter Delivery Obligations (BDO)                                    $              -      $                3

   Commodity Inventories and Related Property, Net                      $            14       $              51


Commodity loan forfeitures included in the Acquisitions line item and Barter Delivery Obligations (BDOs) are
immaterial for the fiscal year ended September 30, 2012.

BDOs were received by CCC in exchange for CCC-owned commodities. The BDOs may only be exchanged for
food products to be utilized in domestic and export food programs (Refer to the Commodity Inventories section of
Note 1 for additional information).

Refer to Schedule 2, Change in Inventory by Commodity, in the Other Accompanying Information section of this
report that shows the types of commodities owned by CCC during FY 2012 and changes during the year.




                                                       74
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 8 – General Property and Equipment, Net
General property and equipment as of September 30, 2012 and 2011 were as follows:


                                                                                   (In Millions)

2012:                                                       Acquisition            Accumulated
                                                              Value                Depreciation            Net Book Value

Equipment                                               $             30       $             (30)          $                 -
Capitalized Software Costs                                           128                    (100)                           28

Total General Property and Equipment                    $            158       $            (130)          $                28


                                                                                   (In Millions)

2011:                                                       Acquisition            Accumulated
                                                              Value                Depreciation            Net Book Value

Equipment                                               $             37       $                (37)       $                 -
Capitalized Software Costs                                           128                        (80)                        48

Total General Property and Equipment                    $            165       $            (117)          $                48




Note 9 – Other Assets
                                                                                          (In Millions)

                                                                                   2012                        2011
    Public:

     Voluntary Public Access-Habitat Incentive Program (VPA)               $               19          $               22
     Peanut Loan Advance (PLA)                                                             48                          44
     USAID                                                                                 42                          57
     Other                                                                                  2                           4
    Total Other Assets                                                     $              111          $              127


The programs contributing to the majority of the Other Assets (Public) include:

Voluntary Public Access-Habitat Incentive Program (VPA)
The Voluntary Public Access-Habitat Incentive Program (VPA) was authorized as a CCC program under Section
2606 of the 2008 Farm Bill. Starting in FY 2010, States and tribal governments applied for grants to encourage
owners and operators of privately held farm, ranch, and forest land to voluntarily make that land accessible to the
public for wildlife-dependent recreation, including hunting and fishing under programs administered by the States
and tribal governments. As of September 30, 2012, CCC’s advance to VPA was $3 million less than the previous
year.


                                                         75
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 9 – Other Assets, Continued
Peanut Loan Advance (PLA)
CCC advanced to the Peanut Designated Marketing Association’s (DMA) Disbursement Program for the 2012
Marketing Season. As the need for drawdown funds diminish, during the marketing season, excess drawdown
advanced funds will be reimbursed to CCC. At the end of the marketing season, the DMA will reimburse CCC for
any remaining drawdown fund advances; this will take place sometime after January 2013. As of September 30,
2012, CCC’s advance to PLA was $4 million more than the previous year.

USAID
As of September 30, 2012, CCC’s advance to the Emerson Humanitarian Trust decreased by $15 million compared
to the previous year. The USAID program, Bill Emerson Humanitarian Trust is a food reserve for Public Law 480
administered under the authority of the Secretary of Agriculture. This reserve is available to meet emergency
humanitarian food needs in developing countries, allowing the United States to respond to unanticipated food crises
with U.S. commodities.


Note 10 – Liabilities Not Covered by Budgetary Resources
Liabilities not covered by budgetary resources as of September 30, 2012 and 2011 were as follows:

                                                                                      (In Millions)

                                                                               2012                   2011

   Accrued Liabilities (Note 15)
     Tobacco Transition Payment Program                                  $         1,906       $          2,857
     Other Programs                                                                   17                      -
   Environmental and Disposal Liabilities (Note 14)                                    8                      8
   Pigford II Liabilities - Court Ordered Payment                                     50                     75
   Total Liabilities Not Covered by Budgetary Resources                  $         1,981       $          2,940

   Total Liabilities Covered by Budgetary Resources                      $        13,225       $         13,177

   Total Liabilities                                                     $        15,206       $        16,117




Liabilities not covered by budgetary resources are liabilities for which Congressional action or OMB apportionment
is needed before budgetary resources can be provided (Refer to the Liabilities section of Note 1 for additional
information).




                                                        76
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 11 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing as of September 30, 2012 and 2011 was as follows:

                                                                                      (In Millions)

                                                                               2012                   2011
  Debt - Beginning of Fiscal Year
   Principal                                                             $          2,865       $          3,274

  New Debt
   Principal                                                             $         18,127       $         25,604
   Accrued Interest Payable                                                             4                      6
  Total New Debt                                                         $         18,131       $         25,610

  Repayments
   Principal                                                             $        (18,310)      $         (26,014)
   Accrued Interest Payable                                                            (4)                     (6)
  Total Repayments                                                       $        (18,314)      $         (26,020)

  Debt - As of September 30
   Principal                                                             $          2,682       $          2,865
  Total Debt Outstanding - As of September 30                            $          2,682       $          2,865




CCC may borrow interest-free up to the amount of its unreimbursed realized losses. Monthly interest rates ranged
from 0.125 percent to 0.250 for both FY 2012 and 2011.

Debt and interest payable to Treasury as of December 31, 2011 is paid and refinanced by borrowing like amounts
from Treasury as of January 1, 2012.Interest expense incurred on Treasury borrowings was $117 million and $137
million for the fiscal years ended September 30, 2012 and 2011, respectively. The majority of the $117 million was
associated with Credit Reform programs in FY 2012 and $133 million in FY 2011.

The FY 2012 and 2011 interest rates on long-term borrowings under the permanent indefinite borrowing authority
for CCC’s Credit Reform programs are calculated using the OMB Credit Subsidy Calculator 2 (CSC2). For FY
2001 and subsequent cohorts, the single effective interest rate produced from the calculator, along with budget
assumptions, is used to calculate interest expenses for CCC’s Credit Reform programs.

The repayment terms for borrowings made for the Export Credit Guarantee programs range from under
3 years up to 10 years. Currently, maximum loan terms do not exceed 7 years, while the repayment term for P.L.
480 Title I direct credits program borrowing is 30 years. The repayment term is 7 years for direct loans under the
Farm Storage Facility Loans program, 3 years for direct loans under the Apple Loan Program, and 10 years for the
direct loans made under the Boll Weevil program. For all Credit Reform programs, principal repayments are
required only at maturity but are permitted at any time during the term of the loan.




                                                        77
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 11 – Debt to the Treasury, Continued
CCC has permanent indefinite borrowing authority that is used by Credit Reform programs to finance disbursements
on Post-1991 Credit Reform direct credit and loan obligations and credit guarantees. On October 1, CCC borrows
from Treasury for the entire fiscal year based on annual estimates of the difference between the amount appropriated
(subsidy) and the amount to be disbursed to the borrower. CCC may repay the loan agreement, in whole or in part,
prior to maturity by paying the principal amount of the borrowings plus accrued interest up to the date of repayment.
Interest is paid on these borrowings based on weighted average interest rates for the cohort to which the borrowings
are associated.

CCC has an authorized capital stock of $100 million held by the Treasury and has permanent indefinite authority to
finance disbursements made under the liquidating accounts related to the Pre-Credit Reform program activities,
which are not covered by available working capital. Interest on borrowings from the Treasury (and on capital stock)
is paid at a rate based upon the average interest rate of all outstanding marketable obligations (of comparable
maturity date) of the U.S. government as of the preceding month. CCC incurred $2 million in interest expense on
capital stock for both fiscal years 2012 and 2011, which is separate from the interest expense on Treasury
borrowings.




                                                        78
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 11 – Debt to the Treasury, Continued
Total debt outstanding, by program and maturity date, as of September 30, 2012, was as follows:

                        Program                        Debt (In Millions)           Maturity Date
         CCC Borrowing Authority                   $                      315          January 1, 2013
         Export Credit Guarantees                                           1       September 30, 2013
                                                                           27       September 30, 2015
                                                                            3       September 30, 2018
                                                                            1       September 30, 2019
                                                                           97       September 30, 2020
                                                                          173       September 30, 2021
                                                                          101       September 30, 2022
                                                                           20       September 30, 2023
                                                                           27       September 30, 2024
                                                                            9       September 30, 2025
         P.L. 480 Direct Credits                                          136       September 30, 2018
                                                                           88       September 30, 2019
                                                                           72       September 30, 2020
                                                                           53       September 30, 2021
                                                                           70       September 30, 2022
                                                                           53       September 30, 2023
                                                                           79       September 30, 2024
                                                                           70       September 30, 2025
                                                                           51       September 30, 2026
                                                                           54       September 30, 2027
                                                                           55       September 30, 2031
                                                                           34       September 30, 2032
                                                                           28       September 30, 2033
                                                                           25       September 30, 2034
                                                                           19       September 30, 2035
         Debt Reduction                                                     4       September 30, 2013
                                                                            6       September 30, 2018
                                                                            1       September 30, 2020
                                                                            9       September 30, 2021
                                                                           40       September 30, 2022
                                                                           12       September 30, 2023
                                                                           23       September 30, 2024
                                                                           14       September 30, 2026
                                                                            3       September 30, 2028
         Farm Storarge Facility Loans                                      16       September 30, 2013
                                                                           17       September 30, 2014
                                                                           40       September 30, 2015
                                                                           65       September 30, 2016
                                                                          114       September 30, 2017
                                                                          231       September 30, 2018
                                                                          219       September 30, 2019
                                                                          204       September 30, 2020
         Boll Weevil                                                        3       September 30, 2020
         Total Debt Outstanding                    $                    2,682



                                                       79
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 12 – Deposit and Trust Liabilities
Deposit and trust liabilities are amounts advanced to or deposited with CCC on behalf of other entities (Refer to
Note 19, under Transactions with Related Organizations, for additional information). The balances, categorized as
intragovernmental and public, as of September 30, 2012 and 2011 were as follows:

                                                                                      (In Millions)

                                                                               2012                   2011
  Intragovernmental (Note 19):
    Agricultural Marketing Service                                       $            429       $            290
    Food and Nutrition Service                                                        469                    403
    Foreign Agricultural Service                                                      398                    360
    Natural Resources Conservation Service                                            236                    216

  Total Intragovernmental Deposit and Trust Liabilities                  $          1,532       $         1,269

  Public                                                                 $              7       $              7

  Total Public Deposit and Trust Liabilities                             $              7       $              7


The two programs contributing to the majority of the Intragovernmental Deposit and Trust Liabilities are
Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS). Within USDA, AMS and FNS
coordinate with FSA/CCC to purchase certain commodities for domestic feeding programs. AMS funds the
purchase of commodities for the purpose of facilitating additional sales in world markets at competitive prices. FNS
funds the purchase of commodities for the National School Lunch and many other domestic feeding programs
administered by voluntary organizations which help to fight hunger. The commodities purchased are meats, poultry,
fish, fruit, vegetables, egg products, dry beans, and tree nuts. FNS coordinates the purchase through competitive
bids or negotiated contracts to assure the quantity, quality, and variety of commodities purchased meet the needs of
schools and institutions participating in the domestic nutrition programs. These purchases also assist farmers,
commodity producers, and processors by helping to maintain stable commodity prices.

The Public Deposit and Trust Liability was $7 million as of September 30 for both fiscal years 2012 and 2011. This
liability consists of unapplied collections for warehouse user fees, claims for disaster programs, and other
miscellaneous collections that are temporarily held in suspense until appropriately identified and applied.




                                                          80
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 13 – Other Liabilities
Other liabilities as of September 30, 2012 and 2011 were as follows:

                                                                                        (In Millions)

                                                                                 2012                   2011
     Intragovernmental:
       Resources Payable to Treasury:
          P.L.480 Direct Credit Liquidating Fund                           $         1,820       $          1,948
          Export Credit Guarantee Direct Loans Liquidating Fund                         30                     40

       Resources Payable to Treasury                                       $         1,850       $          1,988

       Accrued Conservation Reserve Program Technical Assistance           $             68      $              49
       Excess Subsidy Payable to Treasury                                                73                     10
       Accrued Reimbursements to CCC from Tobacco Trust Fund                              -                      1
       Other                                                                             18                     26

     Total Intragovernmental Other Liabilities                             $            159      $              86

     Public                                                                $             84      $             236

     Total Public Other Liabilities                                        $             84      $             236


Resources Payable to Treasury represents CCC’s liquidating fund assets (cash and loans receivable, net of an
allowance) less any liabilities that may be held as working capital. Loans made in 1991 and before (Pre-Credit
Reform direct loans and assigned loan guarantees) are accounted for in liquidating funds. These funds collect loan
payments and pay any related expenses or default claims. At the end of each year, any unobligated cash balance is
transferred to Treasury.

The Conservation Reserve Program Technical Assistance is administered by NRCS and provides land users with
proven conservation technology and the delivery system needed to achieve the benefits of a healthy and productive
landscape. As of September 30, 2012 and 2011 the accrued CRP Technical Assistance was $68 million and
$49million respectively.

The excess subsidy payable to Treasury is the downward reestimate paid to Treasury from the financing fund. As of
September 30, 2012 and 2011, the excess subsidy payable to Treasury was $73 million and $10 million respectively.

As of September 30, 2012, Other Liabilities (Public) is $84 million; $50 million of the liability is due to the Pigford
II litigation case. An additional $18 million is deferred revenue made up of credits under the currency use payment
provisions in the commodity sales agreements in the P.L. 480 program.




                                                          81
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 14 – Environmental and Disposal Liabilities
The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage facilities)
has been discovered in groundwater. CCC recorded an estimate of the total liability for remediation of affected sites
of $8 million for both fiscal years ended September 30, 2012 and 2011 based on actual cleanup costs at similar sites.
This liability is not covered by budgetary resources (Refer to Note 10).

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an active program to identify
affected sites, perform site investigations, risk assessments, and conduct cleanup actions. As of September 30, 2012
and 2011, payments for these activities totaled $5 million each year. At September 30, 2012, CCC estimates the
range of potential future losses due to remedial actions to be between $8 million and $55 million.


Note 15 – Accrued Liabilities
Accrued liabilities as of September 30, 2012 and 2011 were as follows:

                                                                                        (In Millions)

                                                                                2012                    2011

   Conservation Reserve Program                                           $          1,546       $          1,717
   Export Programs                                                                       1                     15
   Income Support Programs:
     Direct and Counter-Cyclical Payments                                            4,654                  4,349
     Other                                                                              21                     44
   Tobacco Transition Payment Program                                                1,906                  2,857
   Other                                                                               118                    127

   Total Accrued Liabilities                                              $          8,246       $          9,109


The Accrued Liabilities for Conservation Reserve Programs were considered current as of September 30, 2012 and
2011.

TTPP Accrued Liability was $1,906 million and $2,857 million, as of September 30, 2012 and 2011 respectively.
TTPP includes a current liability of $955 and the remaining balance is a long term liability. Refer to Note 1, under
Liabilities, for additional information.




                                                         82
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to possible
loss to an entity. The uncertainty will ultimately be resolved when one or more future events occur or fail to occur.
A loss contingency is a liability when a past event or exchange transaction has occurred, a future outflow or other
sacrifice of resources is probable, and the future outflow or sacrifice of resources is measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations related to canceled
appropriations and borrowing authority programs for which the reporting entity has a contractual commitment for
payment and (2) amounts for contractual arrangements that may require future financial obligations.

Commitments
Many programs and policies of the USDA were authorized under the 2008 Farm Bill through September 30, 2012.
Beginning October 1, 2012, the authority or funding under the 2008 Farm Bill for USDA to operate a number of
these programs expired, and the authority and funding for additional programs will expire in the following months.
Because Congress has not passed a 2012 Food, Farm and Jobs Act, USDA can no longer make new commitments
for programs for which the Department’s authority or funding has expired. Some programs continue with no
changes and others that received discretionary funding during FY 2012 will continue under the Continuing
Resolution. For those programs, policies, and authorities that expired, payments may still continue to be made in
FY 2013 as required under the 2008 Farm Bill for the prior crop years and prior year agreements. Some of the
major programs that will continue under the Continuing Resolution include:

Biomass Crop Assistance Program (BCAP)
BCAP, created in the 2008 Farm Bill, is a voluntary program for agricultural and forestland owners and operators.
BCAP is intended to support the production and use of biomass crops for conversion to bioenergy. BCAP includes:
(1) Matching Payments: Assists agricultural and forest land owners and operators with matching payments for the
collection, harvest, storage and transportation (CHST) of eligible material by a qualified Biomass Conversion
Facility (BCF), and (2) Project Areas: Supports establishing and producing eligible crops for the conversion to
bioenergy on contracts up to 5 years for annual and non-woody perennial crops or up to 15 years for woody
perennial crops. Support may include annual payments and cost-share assistance to establish eligible crops.
As of September 30, 2012 there was an average of $1.2 million in annual payments and $13 million in cost-share
assistance.

Conservation Reserve Program (CRP)
Through CRP, eligible participants’ sign 10 to 15 year contracts to remove land from production in exchange for an
annual rental payment. The participants also receive cost-share assistance for establishing conservation practices on
the reserve acreage and additional incentive payments for adopting high-priority conservation measures. CCC
estimates that the future liability for CRP rental payments through FY 2018 will average $1.8 billion annually. This
estimate is based on current program levels with the assumption that expiring lands are re-enrolled and new lands
are enrolled such that enrollment ranges between 28 and 31 million acres between FY 2012 and FY 2018. Accrued
liabilities for CRP totaled approximately $1.5 billion as of September 30, 2012.




                                                         83
                             COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 16 – Commitments and Contingencies, Continued
Grassland Reserve Program (GRP)
GRP is a voluntary program for landowners to protect, restore, and enhance grasslands on their property. NRCS and
FSA jointly implement GRP to conserve vulnerable grasslands from conversion to cropland or other uses and
conserve valuable grasslands by helping maintain viable ranching operations. GRP rental contracts can be 10, 15,
20, or 30 years long. There are some 30 year contracts that will go until 2033. Funding is received in full up front
to cover the total obligated amount.

Payments are not static due to many variables (i.e. amount of program funding received each year, length of rental
contracts, number of easements perfected/finalized each year and if the landowner takes a lump sum easement
payment or chooses the option to receive 10 annual payments). As of September 30, 2012, total payments for GRP
in FY 2012 were $37 million.

Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the development,
maintenance, and expansion of commercial export markets for agricultural commodities through cost-share
assistance to eligible trade organizations that implement a foreign market development program. CCC makes funds
available to reimburse program participants for authorized promotional expenses. Program expenses for the fiscal
year ending September 30, 2012 were $199 million. At September 30, 2012, CCC’s undelivered orders on current
contracts were $206 million.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the Federal Agriculture Improvement and Reform Act of 1996.
The NAP provides financial assistance to producers of non-insurable crops when a low yield crop, loss of inventory,
or prevented planting occurs due to natural disasters. The crops must be non-insurable commodities for which the
catastrophic risk protection level of crop insurance is not available. Program expenses for the fiscal year ending
September 30, 2012 were $256 million. At September 30, 2012, CCC had no undelivered orders on current
contracts. Disbursements increased from FY 2011 to FY 2012 by $185 million due to the severe drought last
Summer and Fall in the Southern Plains where grazing is predominant. The majority of NAP costs are associated
with livestock grazing.

Hazardous Waste Program
As of September 30, 2012 and 2011, the cleanup activity for the Hazardous Waste Program totaled $5 million each
year (Refer to Note 14).

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered under CCC
purchase contracts. Such commitments amounted to $145 million and $262 million for International Title II and,
$221 million and $156 million for Food for Progress at September 30, 2012 and 2011, respectively.

Commitments for the Food for Education program amounted to $291 million and $318 million as of September 30,
2012 and 2011, respectively.

Leases
As of September 30, 2012, future minimum rental payments required under FSA operating leases for State office
space are now being paid by FSA and therefore CCC is no longer directly liable.




                                                        84
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 16 – Commitments and Contingencies, Continued
Contingencies
Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC vigorously
defends its position in such actions through the Office of the General Counsel (OGC) and the U.S. Department of
Justice.

As of September 30, 2012, the Pigford II claim litigation case has been resolved in favor of the plaintiff. CCC is
liable for $100 million of the total $1.25 billion liability.

Funds are being held in the Tobacco Trust Fund associated with an appeal of the assessment value for Phillip Morris
(PMUSA). PMUSA has disputed the assessment and asked that the funds be held in escrow until a determination
has been made. The amount held is $48 million, and an additional $16 million per quarterly payment is required to
be held in escrow pending resolution of the case. Refer to the TTPP section of Note 1for general information on the
program.

A contingency is considered reasonably possible when the chance of the future confirming event or events occurring
is more than remote but less than probable. CCC has one ongoing case, Prime Time International Company v.
Vilsack. A payment for this case has been deemed reasonably possible, and an estimated amount of potential loss is
approximately $12 million.

No amounts have been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against USDA is remote.




                                                         85
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Net Cost
Earned Revenue
Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other Financing Sources.
CCC follows the implementation guide for classifying, recognizing, and measuring inflows of resources. Earned
revenues are exchange revenues, which arise when a Federal entity provides goods and services to the public or to
another government entity for a price.

Earned revenue for the fiscal years ended September 30, 2012 and 2011 were as follows:

                                                                                      (In Millions)

                                                                              2012                    2011

  Intragovernmental Earned Revenue:
    Commodity Inventory Sales                                            $             -       $              488
    Interest Income                                                                   26                       33
    Other                                                                            318                      211
    Less: Intra-Agency Eliminations                                                    -                     (488)

  Total Intragovernmental Earned Revenue                                 $           344       $             244

  Earned Revenue from the Public
   Interest Income                                                       $           482       $             252
   Other                                                                              26                      37

  Total Earned Revenue from the Public                                   $           508       $             289

  Total Earned Revenue                                                   $           852       $             533


CCC no longer records commodity sales due to a change in the business process. In FY 2011 intragovernmental
government commodity inventory sales were processed as a reimbursable between two different funds. Beginning
April 2011, these commodities were purchased directly out of the Title II Grants fund.

CCC’s strategic goals are as follows:
        Provide a Financial Safety Net for Farmers and Ranchers
        Ensure Commodities are Procured and Distributed Effectively and Efficiently
        Increase Stewardship of Natural Resources While Enhancing the Environment
        Increase U.S. Food and Agricultural Exports

Under Provide a Financial Safety Net for Farmers and Ranchers, program areas include Income Support and
Disaster Assistance. CCC provides financial assistance in the form of flexible payments and short term financing to
stabilize, support, and protect farm income and prices due to the fluctuation of commodity market prices or income
support due to damage caused by natural disasters. Commodity Loans, Tobacco Transition Payment Program,
Disaster Assistance, Milk Income Loss Payments, Price Support, and Direct and Counter-Cyclical Payment
programs comprise major program activity.




                                                        86
                            COMMODITY CREDIT CORPORATION
                                      Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Net Cost, Continued
Under Ensure Commodities are Procured and Distributed Effectively and Efficiently, program areas include
Commodity Operations, Dairy Price Support, and Food Security Reserve. Of these, CCC’s Dairy Price Support and
Food Security Reserve programs protect the nation’s agriculture and food supply through a uniform regulatory
system for the storage of agricultural products and ensure the timely provision of food products procured for
domestic and international food assistance programs and market development programs.

Under Increase Stewardship of Natural Resources While Enhancing the Environment, the Conservation Reserve
Program safeguards natural resources by paying farmers to take environmentally sensitive crop land out of
production and plant long-term resource-conserving covers (such as grass and trees). These covers improve the
quality of water and air, control soil erosion, and enhance wildlife habitat.

Under Increase U.S. Food and Agricultural Exports, program areas include Export Credit and Market Development.
FAS and CCC form cooperative agreements with nonprofit agricultural trade commodity groups to encourage
development, maintenance and expansion of commercial export markets for agricultural commodities. Major
programs include Food Aid, Foreign Market Development and Export Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section, for additional information on the
alignment of CCC’s and USDA’s strategic goals.




                                                       87
                                                              COMMODITY CREDIT CORPORATION
                                                                              Notes to the Financial Statements

Note 17 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2012 (In Millions) was as follows:

                                                                                    Commodity          Income Support and          Conservation          Foreign         Intra-entity
                                                                                    Operations          Disaster Programs           Programs            Programs         Eliminations         Total

Provide a Financial Safety Net for Farmers and Ranchers
   Intragovernment Cost                                                         $            68 $                       818 $                     - $              - $                  - $             886
   Public Cost                                                                               28                       4,908                       -                -                    -             4,936
   Total Cost                                                                   $            96 $                     5,726 $                     - $              - $                  - $           5,822

   Intragovernment Earned Revenue                                               $                - $                         - $                  - $              - $                  - $              -
   Public Earned Revenue                                                                         -                          86                    -                -                    -               86
   Total Earned Revenue                                                         $                - $                        86 $                  - $              - $                  - $             86

Ensure Commodities are Procured and Distributed Effectively and Efficiently
   Intragovernment Cost                                                         $            82 $                        25 $                     - $              - $                  - $            107
   Public Cost                                                                               11                         (28)                      -                -                    -              (17)
   Total Cost                                                                   $            93 $                        (3) $                    - $              - $                  - $             90

   Intragovernment Earned Revenue                                               $                - $                        10 $                  - $              - $                  - $             10
   Public Earned Revenue                                                                         -                          15                    -                -                    -               15
   Total Earned Revenue                                                         $                - $                        25 $                  - $              - $                  - $             25

Increase Stewardship of Natural Resources While Enhancing the Environment
   Intragovernment Cost                                                         $                - $                         - $             460 $                 - $                  - $             460
   Public Cost                                                                                   -                           -             1,694                   -                    -             1,694
   Total Cost                                                                   $                - $                         - $           2,154 $                 - $                  - $           2,154

   Intragovernment Earned Revenue                                               $                - $                         - $              37 $                 - $                  - $             37
   Public Earned Revenue                                                                         -                           -                 2                   -                    -                2
   Total Earned Revenue                                                         $                - $                         - $              39 $                 - $                  - $             39

Increase U.S. Food and Agricultural Exports
   Intragovernment Cost                                                         $                - $                         - $                  - $           132 $                   - $             132
   Public Cost                                                                                   -                           -                    -           2,379                     -             2,379
   Total Cost                                                                   $                - $                         - $                  - $         2,511 $                   - $           2,511

   Intragovernment Earned Revenue                                               $                - $                         - $                  - $          298 $                    - $            298
   Public Earned Revenue                                                                         -                           -                    -            404                      -              404
   Total Earned Revenue                                                         $                - $                         - $                  - $          702 $                    - $            702

Total Gross Cost                                                                $           189 $                     5,723 $              2,154 $            2,511 $                   - $       10,577
Less: Total Earned Revenue                                                                    -                         111                   39                702                     -            852
Net Cost of Operations                                                          $           189 $                     5,612                2,115 $            1,809 $                   - $        9,725




                                                                                                 88
                                                               COMMODITY CREDIT CORPORATION
                                                                               Notes to the Financial Statements



Note 17 – Disclosures Related to the Statement of Net Cost, Continued
Net cost of operations for the fiscal year ended September 30, 2011 (In Millions) was as follows:

                                                                                     Commodity          Income Support and          Conservation          Foreign         Intra-entity
                                                                                     Operations          Disaster Programs           Programs            Programs         Eliminations         Total

 Provide a Financial Safety Net for Farmers and Ranchers
    Intragovernment Cost                                                         $            62 $                       926 $                     - $              - $                  - $             988
    Public Cost                                                                               17                       5,244                       -                -                    -             5,261
    Total Cost                                                                   $            79 $                     6,170 $                     - $              - $                  - $           6,249

    Intragovernment Earned Revenue                                               $                - $                      - $                     - $              - $                  - $              -
    Public Earned Revenue                                                                         -                      105                       -                -                    -              105
    Total Earned Revenue                                                         $                - $                    105 $                     - $              - $                  - $            105

 Ensure Commodities are Procured and Distributed Effectively and Efficiently
    Intragovernment Cost                                                         $            92 $                        30 $                     - $              - $                  - $            122
    Public Cost                                                                              215                         (11)                      -                -                    -              204
    Total Cost                                                                   $           307 $                        19 $                     - $              - $                  - $            326

    Intragovernment Earned Revenue                                               $                - $                        14 $                  - $              - $                  - $             14
    Public Earned Revenue                                                                         -                          16                    -                -                    -               16
    Total Earned Revenue                                                         $                - $                        30 $                  - $              - $                  - $             30

 Increase Stewardship of Natural Resources While Enhancing the Environment
    Intragovernment Cost                                                         $                - $                         - $             467 $                 - $                  - $             467
    Public Cost                                                                                   -                           -             1,907                   -                    -             1,907
    Total Cost                                                                   $                - $                         - $           2,374 $                 - $                  - $           2,374

    Intragovernment Earned Revenue                                               $                - $                         - $              40 $                 - $                  - $             40
    Public Earned Revenue                                                                         -                           -                 -                   -                    -                -
    Total Earned Revenue                                                         $                - $                         - $              40 $                 - $                  - $             40

 Increase U.S. Food and Agricultural Exports
    Intragovernment Cost                                                         $                - $                         - $                  - $            97 $              (17) $                80
    Public Cost                                                                                   -                           -                    -           2,814                  -                2,814
    Total Cost                                                                   $                - $                         - $                  - $         2,911 $              (17) $             2,894

    Intragovernment Earned Revenue                                               $                - $                         - $                  - $          679 $              (488) $              191
    Public Earned Revenue                                                                         -                           -                    -            167                   -                 167
    Total Earned Revenue                                                         $                - $                         - $                  - $          846 $              (488) $              358

 Total Gross Cost                                                                $           386 $                     6,189 $              2,374 $            2,911 $              (17) $         11,843
 Less: Total Earned Revenue                                                                    -                         135                   40                846               (488)              533
 Net Cost of Operations                                                          $           386 $                     6,054 $              2,334 $            2,065 $              471 $          11,310




                                                                                                   89
                             COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 18 – Disclosures Related to the Statement of Budgetary Resources
The Statement of Budgetary Resources is a combined statement, and as such, intra-agency transactions have not
been eliminated. Effective in FY 2012, the structure of the Statement of Budgetary Resources changed significantly
to better align with the reporting format of the SF-133, Report on Budget Execution and Budgetary Resources.
Refer to Note 1, under Statement of Budgetary Resources Presentation, for additional information.

For the fiscal years ended September 30, 2012 and 2011, there were no obligations incurred under apportionment
category A, which is funded on a quarterly basis, while obligations incurred under apportionment category B, which
are funded annually, were as follows:
                Obligations                                                       Dollars in Billions
                For the Fiscal Year Ended September 30                         2012             2011
                   Direct                                             $        3.51 $          3.82
                   Reimbursable                                               18.19           20.24
                Total Obligations                                     $       21.70 $         24.06

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11. An indefinite permanent
borrowing authority becomes available pursuant to standing provisions of law without further actions by Congress
after the transmittal of the budget for the year involved. CCC's authority is established annually to record the
obligations of CCC; apportionment documents received for some of CCC's specific programs provide spending
limitations within the borrowing authority and are subject to the Antideficiency Act. The borrowing authority
provides that all obligations are reported, even though subsequent appropriations or offsetting collections will
ultimately be used to liquidate the obligations of the Corporation. OMB Circular A-11 permits the Corporation to
incur obligations which can exceed its $30 billion borrowing authority ceiling and authorizes CCC to borrow funds
to liquidate the obligations. CCC’s indefinite borrowing authority ceiling, limits the amount of moneys derived
from borrowing from Treasury to liquidate the obligations incurred.

Per the Commodity Credit Corporation Charter Act, 15 U.S.C. 714, the Corporation’s borrowing authority is made
up of both interest and non-interest bearing notes. These notes are drawn upon on a daily basis when disbursements
exceed deposits, as reported by the Federal Reserve Banks (FRBs), their branches, the Treasury, and CCC’s
financing office. CCC is authorized to issue and have outstanding at any one time bonds, notes, debentures, and
other similar obligations in an aggregate amount not to exceed $30 billion. CCC’s notes payable under its
permanent indefinite borrowing authority have a term of one year. On January 1 of each year, CCC refinances its
outstanding borrowings, including accrued interest, at the January borrowing rate. Refer to Note 11, for additional
information. The amount of borrowing authority less principal payments to the U.S. Treasury Bureau of the Public
Debt (i.e. available borrowing authority) for the fiscal year ended September 30, 2012 was $9.8 billion (Refer to
Note 2, Fund Balance with Treasury – Borrowing Authority not yet converted to Fund Balance). CCC receives an
annual appropriation to fund its net realized losses. In addition, CCC has permanent indefinite authority to finance
disbursements made under the liquidating accounts related to the Pre-Credit Reform program activities, which are
not covered by available working capital.

Undelivered orders, either unpaid or prepaid, are purchase orders, or contracts awarded for which goods or services
have not yet been received. The amounts for undelivered orders are $4.8 billion and $3.6 billion for the fiscal years
ended September 30, 2012 and 2011, respectively.




                                                         90
                              COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 18 – Disclosures Related to the Statement of Budgetary Resources,
Continued
Unobligated budget authority is the difference between the obligated balance and the total unexpended balance. It
represents that portion of the unexpended balance unencumbered by recorded obligations. Appropriations are
provided on an annual, multi-year, and no-year basis. An appropriation expires on the last day of its period of
availability and is no longer available for new obligations. Unobligated balances retain their fiscal-year identity in
an expired account for an additional five fiscal years. The unobligated balance remains available to make legitimate
obligation adjustments, i.e., to record previously unrecorded obligations and to make upward adjustments in
previously underestimated obligations for five years. At the end of the fifth year, the authority is canceled.
Thereafter, the authority is not available for any purpose.

No contributed capital was received during the reporting periods.

Any information about legal arrangements affecting the use of the unobligated balance of budget authority is
specifically stated by program and fiscal year in the appropriation language or in the alternative provisions section at
the end of the appropriations act. CCC does not have obligations from canceled appropriations.

The SF-133 which is used by CCC to report and certify obligation balances is also used to populate some portions of
the Program and Financing Schedules (P&F Schedules) within the Budget of the United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal Year 2014 were not available at
the time CCC’s Annual Report for FY 2012 was issued, the reconciliation between the President’s Budget and the
SBR for FY 2012 could not be performed. The Budget of the United States Government, Fiscal Year 2014 is
expected to be published in February 2013 and will be available on the website of the Office of Management and
Budget (www.whitehouse.gov/omb) at that time. The SF-133 and the SBR for FY 2012 will be reconciled to the FY
2012 actuals on the P&F Schedules reported in the Budget of the United States Government, Fiscal Year 2014, once
released.

The SF-133 and the SBR for FY 2011 have been reconciled to the FY 2011 actuals on the P&F Schedules presented
in the Budget of the United States Government, Fiscal Year 2013.

A table presenting this comparison appears on the following page.




                                                          91
                                                                   COMMODITY CREDIT CORPORATION
                                                                                   Notes to the Financial Statements

Note 18 – Disclosures Related to the Statement of Budgetary Resources, Continued
The comparison of selected line items of the FY 2011 SBR to the actuals on the FY 2011 P&F Schedules presented in the Budget of the United States
Government, Fiscal Year 2013 is as follows.
                                                                                                                                                                                                  Portion of
                                                                                                                                                                                                  Difference
                                                                                                                                                                                                Resulting from
SBR                  P&F                                                                                                                 SBR                 P&F                                  Reporting
Line Ref             Line No.                                                  SBR Line Description                                     Amount              Amount               Difference     Requirements           Note
1000                 1000                         Unobligated balance brought forward, October 1                                    $         3,399     $         3,399      $          -
1020                 1020                         Adjustment to unobligated balance brought forward, October 1                                    -                (571)                571                 (571)        d
1021                 1021                         Recoveries of prior year unpaid obligations                                                   865                 867                   (2)                            b
1043                 1022/1023                    Other changes in unobligated balance                                                         (295)               (295)                   -
1290                 1160/1236/1260               Appropriations                                                                              2,310               2,314                   (4)                            b
1490                 1440                         Borrowing Authority                                                                        11,309              11,867                (558)                (571)       a, d
1890                 1700/1850                    Spending Authority from offsetting collections                                              9,004               9,001                    3
1910/2500            1930                         Total Budgetary Resources/Status of Budgetary Resources                                    26,592              26,582                   10                            a, b
2190                 3030                         Obligations Incurred                                                                       24,065              24,056                    9                            a, b
2204, 2304, 2404     1941                         Total unobligated balance, end of year                                                      2,527               2,526                    1                              b
3000                 3000/3001                    Unpaid obligations, brought forward, October 1                                             10,132              10,165                 (33)                           a, b, c
3010                 3010                         Uncollected customer payments from Federal sources, brought forward,
                                                  October 1                                                                                    (405)               (406)                   1
3021                 3020                         Obligated balance, start of year, as adjusted                                               9,727               9,739                  (12)                          a, b, c
3032                 3030                         Obligations Incurred                                                                       24,065              24,056                    9                            a, b
3040                 3040                         Outlays (gross)                                                                           (23,197)            (23,203)                   6                            b, c
3052                 3050                         Change in uncollected customer payments from Federal sources                                  194                 195                   (1)
3082                 3080                         Recoveries of prior year unpaid obligations                                                  (865)               (867)                   2                             b
3090                 3090                         Unpaid obligations, end of year                                                            10,135              10,151                  (16)                            b
3091                 3091                         Uncollected customer payments from Federal sources, end of year                              (211)               (211)                   -
3100                 3100                         Obligated balance, end of year                                                              9,924               9,940                  (16)                            b
4177                 4033/4120/4123/4130          Actual offsetting collections                                                             (12,782)            (12,780)                  (2)
4178                 4140                         Change in uncollected customer payments from Federal sources                                  194                 195                   (1)
4185                 4010/4011/4100/4110          Outlays (gross)                                                                            23,197              23,203                   (6)                           b, c
4187                 4033/4120/4123/4130          Actual offsetting collections                                                             (12,782)            (12,780)                  (2)
4190                 4190                         Outlays, net                                                                               10,415              10,423                   (8)                            b
           NOTES:
           General   Any difference that is not otherwise specified is a result of rounding.
                     The variance in Revolving Fund, 12X4336, is due to a prior-period adjustment for the Emergency Forestry Conservation Reserve Program (EFCRP) to comply with Government
             a.      Accountability Office guidance on reporting payments using the accrual accounting method versus a cash basis. Effective FY 2011, the EFCRP proposed converting from a cash basis to
                     an accrual basis program and the difference between the SBR and President’s Budget is the result of this adjustment.
                     Treasury symbol 12X0500, Hazardous Waste Management Fund, is a shared appropriation. CCC reports the budgetary information for its portion in its Statement of Budgetary Resources.
             b.      The USDA reports the SF-133 balances for this fund on a consolidated level.

                     The variance reflects timing differences in the allocation transfer (Parent/Child) relationship. CCC is the Parent and the U.S. Agency for International Development is the Child, reporting on
             c.      the P.L. 480 Title II Grants, fund (72)12X2278, and the Bill Emerson Humanitarian Trust, fund (72)12X4336.

                     The variance reflects a reporting difference by line number. CCC reported the decrease to borrowing authority on Line 1490 but it was reported on Line 1020 on the President's Budget. In
                     accordance with A-11, Section 185.32, Indefinite borrowing authority that is apportioned and is not exercised in a given fiscal year, must be recorded as a decrease to borrowing authority.
             d.
                     If the amount was not recorded as an adjustment to borrowing authority as of September 30, 2011, then the amount is to be recorded as a negative amount on Line 1020, Adjustment to
                     unobligated balance brought forward, October 1.



                                                                                                         92
                            COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements

Note 19 – Disclosures Not Related to a Specific Statement
Transactions with Related Organizations
CCC maintains deposit and trust liabilities for AMS, FAS, FNS, and the NRCS (Refer to Note 12 for additional
information). In addition, CCC has the following transactions with other USDA agencies:
       For the fiscal years ended September 30, 2012 and 2011, outlays under reimbursable agreements with other
        USDA agencies amounted to $49 million and $40 million, respectively.
       For the fiscal years ended September 30, 2012 and 2011, CCC did not receive funding from FSA for the
        allocation of internal software development costs, which are capitalized. Currently, CCC reimburses FSA
        for the costs incurred in the development of software used to administer agriculture programs. Refer to
        Note 1, under General Property and Equipment, for additional information on accounting for internal use
        software.
       CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
        commodities donated for these domestic purposes, including related transportation and storage costs for the
        fiscal years ended September 30, 2012 and 2011 were $6 million and $31 million, respectively.

For the fiscal years ended September 30, 2012 and 2011, CCC transferred:
        $21 million to FNS for the Senior's Farmers Market Nutrition Program for both fiscal years.
        $343 million and $227 million, respectively, to the Animal and Plant Health Inspection Service (APHIS)
         for bovine tuberculosis, light brown apple moth outbreak, and potato cyst nematode eradication programs.
        $1 million to the Office of the CFO for bio-diesel fuel education and bio-based products for both fiscal
         years.
        $67 million to AMS for commodity assistance program and marketing service for both fiscal years.
        $149 million and $119 million, respectively, to Cooperative State Research, Education, and Extension
         Service (CSREES) for the national agricultural higher education, research, and extension system which are
         designed to address national problems and needs related to agriculture, the environment, human health and
         wellbeing, and communities.

For the fiscal years ended September 30, 2012 and 2011, CCC disbursed:
        A total of $3.4 billion and $3.1 billion, respectively, on behalf of NRCS for various conservation programs
         and technical assistance.
        $91 million and $99 million, respectively, to NRCS for CRP technical assistance. These programs
         included Wetland Reserve Program, Environmental Quality Incentive Program (EQIP), Farm and Ranch
         Lands Protection Program (FRPP), Wildlife Habitat Incentives Program, Ground and Surface Water
         Conservation Program, Grassland Reserve Program (GRP), and the Conservation Security Program.
         NRCS is responsible for the administration of these programs. For GRP, NRCS has entered into a
         memorandum of understanding with CCC to disburse funds using the services and facilities of CCC. It
         should be noted that although NRCS has been receiving funding for the EQIP program since FY 2003,
         CCC continues to receive separate funding for the FY 2002 and earlier program years.
        $6 million and $26 million, respectively, to other USDA agencies including FSA and Risk Management
         Agency (RMA).




                                                        93
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements

Note 19 – Disclosures Not Related to a Specific Statement, Continued
CCC also transferred funds to USAID to fund P.L. 480 Title II transportation and other administrative costs in
connection with foreign donations. Refer to Note 1 under Allocation Transfers and Shared Appropriations for
further information.

Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of U.S.
Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s Farm Loan Program,
as well as other interest, fees, and penalties due to Treasury and other USDA agencies.

Custodial activities for the fiscal years ended September 30 were as follows:

                                                                                       (In Millions)

                                                                                2012                   2011

      Revenue Activity:
       Sources of Cash Collections:
         Repayment of Farm Credit Loans                                  $         1,820        $         1,639
         Administrative and Other Service Fees                                       234                    187

      Total Cash Collections                                             $         2,054        $         1,826

      Total Custodial Revenue                                            $         2,054        $         1,826

      Disposition of Collections:
       Transfers to Others:
          USDA Farm Service Agency                                       $         1,829        $         1,648
          Other USDA Agencies                                                        199                    146
          Department of Treasury                                                      34                     25

      Total Disposition of Collections                                   $         2,062        $         1,819

      (Increase)/Decrease in Amounts Yet to be Transferred (+/-)         $              8       $             (7)

      Net Custodial Activity                                             $               -      $              -




                                                          94
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements

Note 20 – Reconciliation of Net Cost of Operations to Budget
Budgetary and proprietary accounting information are inherently different because of the types of information and
the timing of their recognition. The Reconciliation of Net Cost of Operations to Budget provides a link between
budgetary and proprietary accounting information. It serves not only to explain how information on net obligations
relates to the net cost of operations but also to assure integrity between budgetary and proprietary accounting.

Net obligations and the net cost of operations are different because (1) the net cost of operations may be financed by
non-budgetary resources (e.g. imputed financing); (2) the budgetary and non-budgetary resources used may finance
activities which are not components of the net cost of operations; and (3) the net cost of operations may contain
components which do not use or generate resources in the current period.




                                                         95
                                       COMMODITY CREDIT CORPORATION
                                                      Notes to the Financial Statements

Note 20 – Reconciliation of Net Cost of Operations to Budget,
Continued
The Reconciliation of Net Cost of Operations to Budget for the fiscal years ended September 30, 2012 and 2011
were as follows:

                                                                                                                            (In Millions)

                                                                                                                  2012                      2011
   Resources Used to Finance Activities:
   Budgetary Resources Obligated
     Obligations Incurred                                                                                     $      21,700          $         24,065
     Less: Spending Authority from Offsetting Collections and Recoveries                                             11,307                    13,455
     Obligations Net of Offsetting Collections and Recoveries                                                 $      10,393          $         10,610
     Less: Offsetting Receipts                                                                                           74                       225
     Net Obligations                                                                                          $      10,319          $         10,385
   Other Resources:
     Transfers In/Out without Reimbursement, Net                                                              $            (74)      $                 (3)
     Imputed Financing from Costs Absorbed by Others                                                                     1,252                      1,417
     Other                                                                                                                 (85)                      (109)
     Net Other Resources Used to Finance Activities                                                           $          1,093       $              1,305

   Total Resources Used to Finance Activities                                                                 $      11,412          $         11,690

   Resources Used to Finance Items not Part of the Net Cost of Operations:
     Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not Yet Provided    $          (1,217)     $               (483)
     Resources that Fund Expenses Recognized in Prior Periods                                                            (1,161)                   (1,263)
     Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations
        Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy                 798                       776
        Change in Unfilled Customer Orders                                                                                1,530                     1,583
        Decrease in Exchange Receivables from the Public                                                                  5,622                     7,367
        Other                                                                                                            (1,674)                      175
     Resources that Finance the Acquisition of Assets                                                                    (4,164)                   (5,635)
     Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations                 (2,653)                   (3,584)
   Total Resources Used to Finance Items Not Part of the Net Cost of Operations                               $          (2,919)     $             (1,064)

   Total Resources Used to Finance the Net Cost of Operations                                                 $          8,493       $         10,626

   Components of the Net Cost of Operations that will not Require or Generate Resources in the
   Current Period:
   Components Requiring or Generating Resources in Future Periods:
     Upward/(Downward) Reestimates of Credit Subsidy Expense                                                  $             85       $               106
     (Increase) in Exchange Revenue Receivable from the Public                                                            (301)                      (37)
     Other                                                                                                                (326)                     (896)
   Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods       $           (542)      $              (827)
   Components not Requiring or Generating Resources:
     Depreciation and Amortization                                                                                            6                       (30)
     Revaluation of Assets or Liabilities                                                                                    (1)                        4
     Other Components not Requiring or Generating Resources:
       Bad Debt Expense                                                                                                    163                        533
       Cost of Goods Sold                                                                                                    -                        488
       Other                                                                                                             1,606                        516
   Total Components of Net Cost of Operations that will not Require or Generate Resources                     $          1,774       $              1,511

   Total Components of Net Cost of Operations that will not Require or Generate Resources
   in the Current Period                                                                                      $          1,232       $               684

   Net Cost of Operations                                                                                     $          9,725       $             11,310




                                                                              96
Part IV: Required
Supplementary Information
(Unaudited)




           97
                                                    COMMODITY CREDIT CORPORATION
                                                              Required Supplementary Information

Schedule of Combined Statement of Budgetary Resources by Major Fund: Budgetary Accounts (Unaudited)
For the Fiscal Year Ended September 30, 2012
(Dollars in Millions)

                                                                               P.L. 480                     USAID - P.L.     Export
                                                                                                Tobacco
                                                                  CCC Fund      Title II                     480 Title II    Loans          Other           Total
                                                                                               Trust Fund
                                                                                Grants                         Grants       Program
                                                                  (12X4336)    (12X2278)       (12X8161)    ((72)12X2278)   (12X1336)
Budgetary Resources:
  Unobligated balance brought forward, October 1                  $    1,600   $     128       $       -    $         66    $      20   $       56      $     1,870
  Recoveries of prior year unpaid obligations                           646            1               -             552            -               -         1,199
  Other changes in unobligated balance                                     -         129               -            (129)           -           (50)            (50)
  Unobligated balance from prior year budget authority, net            2,246         258               -             489           20               6         3,019
  Appropriations (discretionary and mandatory)                             -         376             939           1,090           49           49            2,503
  Borrowing Authority (discretionary and mandatory)                   11,267               -           -                -           -               -        11,267
  Spending authority from offsetting collections (discretionary
  and mandatory)                                                       5,495         106               -                -           -          114            5,715
  Total Budgetary Resources                                       $   19,008   $     740       $     939    $      1,579    $      69   $      169      $    22,504


Status of Budgetary Resources:
  Obligations Incurred (Note 18)                                  $   18,186   $     635       $     891    $      1,452    $      69   $       58      $    21,291
  Unobligated balance, end of year:
    Apportioned                                                            -          16              49              26            -          108              199
    Exempt from apportionment                                           352                -           -                -           -               3           355
    Unapportioned                                                       469           89               -             101            -               -           659
  Total Unobligated balance, end of year                                821          105              49             127            -          111            1,213
  Total Budgetary Resources                                       $   19,007   $     740       $     940    $      1,579    $      69   $      169      $    22,504




                                                                               98
                                                  COMMODITY CREDIT CORPORATION
                                                          Required Supplementary Information

                                                                              P.L. 480                      USAID - P.L.     Export
                                                                                               Tobacco
                                                               CCC Fund        Title II                      480 Title II    Loans           Other             Total
                                                                                              Trust Fund
                                                                               Grants                          Grants       Program
                                                               (12X4336)      (12X2278)       (12X8161)     ((72)12X2278)   (12X1336)
Change in Obligated Balance:
 Unpaid obligations, brought forward, October 1 (gross)        $    8,369     $     273       $         -   $      1,246    $       -    $       36        $     9,924
 Uncollected customer payments from Federal sources,
 brought forward, October 1                                            (32)         (20)                -               -           -                (1)           (53)
    Obligated balance, start of year (net)                          8,337           253                 -          1,246            -            35              9,871
 Obligations Incurred                                              18,186           635             891            1,452           69            58             21,291
 Outlays (gross)                                                   (15,979)        (734)           (891)            (914)         (69)           (71)          (18,658)
 Change in uncollected customer payments from Federal
 sources                                                               (13)         (69)                -               -           -                1             (81)
 Recoveries of prior year unpaid obligations                         (646)            (1)               -           (552)           -                 -         (1,199)
 Obligated balance, end of year
   Unpaid obligations, end of year (gross)                          9,930           173                 -          1,232            -            23             11,358
    Uncollected customer payments from Federal sources,
    end of year                                                        (45)         (89)                -               -           -                 -           (134)
 Obligated balance, end of year (net)                          $    9,885     $      84       $     -       $      1,232    $       -    $       23        $    11,224


Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)         $   16,762     $     482       $     939     $      1,090    $      49    $      163        $    19,485
 Actual offsetting collections (discretionary and mandatory)        (8,991)         (38)                -               -           -           (408)           (9,437)
 Change in uncollected customer payments from Federal
 sources (discretionary and mandatory)                                 (13)         (69)                -               -           -                1             (81)
 Budget authority, net (discretionary and mandatory)           $    7,758     $     375       $     939     $      1,090    $      49    $      (244)      $     9,967


 Outlays, gross (discretionary and mandatory)                  $   15,979     $     734       $     891     $        914    $      69    $       71        $    18,658
 Actual offsetting collections (discretionary and mandatory)        (8,991)         (38)                -               -           -           (408)           (9,437)
 Outlays, net (discretionary and mandatory)                         6,988           696             891              914           69           (337)            9,221
 Distributed offsetting receipts                                         -                -             -               -           -                 -                -
 Agency Outlays, net (discretionary and mandatory)             $    6,988     $     696       $     891     $        914    $      69    $      (337)      $     9,221




                                                                              99
                                                COMMODITY CREDIT CORPORATION
                                                       Required Supplementary Information

Schedule of Combined Statement of Budgetary Resources by Major Fund: Non-Budgetary Credit Program Financing Accounts (Unaudited)
For the Fiscal Year Ended September 30, 2012
(Dollars in Millions)

                                                                                                               Farm
                                                                   P.L. 480           CCC Export
                                                                                                              Storage             Other              Total
                                                                  Direct Loan         Guaranteed
                                                                                                              Facility
                                                                      (12X4049)           (12X4337)           (12X4158)
 Budgetary Resources:
  Unobligated balance brought forward, October 1                  $           166     $          275      $          123      $           93     $           657
  Recoveries of prior year unpaid obligations                                     -                   1                  28                 -                29
  Other changes in unobligated balance                                        (118)             (159)               (150)                 (10)           (437)
  Unobligated balance from prior year budget authority, net                    48                117                      1               83                 249
  Appropriations (discretionary and mandatory)                                    -                   -                   -                 -                  -
  Borrowing Authority (discretionary and mandatory)                               1                   -              213                   5                 219
  Spending authority from offsetting collections (discretionary
  and mandatory)                                                              109                 84                     49               40                 282
  Total Budgetary Resources                                       $           158     $          201      $          263      $           128    $           750


 Status of Budgetary Resources:
  Obligations Incurred (Note 18)                                  $            70     $           63      $          244      $           32     $           409
  Unobligated balance, end of year:
     Apportioned                                                               88                103                      8               18                 217
     Exempt from apportionment                                                    -                   5                   -                 -                 5
     Unapportioned                                                                -               29                     11               79                 119
  Total Unobligated balance, end of year                                       88                137                     19               97                 341
  Total Budgetary Resources                                       $           158     $          200      $          263      $           129    $           750




                                                                        100
                                                 COMMODITY CREDIT CORPORATION
                                                         Required Supplementary Information

                                                                                                                  Farm Storage
                                                                       P.L. 480             CCC Export
                                                                                                                  Facility Direct           Other              Total
                                                                      Direct Loan           Guaranteed
                                                                                                                       Loan
                                                                          (12X4049)             (12X4337)             (12X4158)
Change in Obligated Balance:
 Unpaid obligations, brought forward, October 1 (gross)               $                -    $           18        $          192        $             -    $           210
 Uncollected customer payments from Federal sources, brought
 forward, October 1                                                               (42)                 (114)                      (1)                 -                (157)
    Obligated balance, start of year (net)                                        (42)                  (96)                 191                      -                 53
 Obligations Incurred                                                             70                    64                   244                    31                 409
 Outlays (gross)                                                                  (70)                  (68)                 (248)                  (31)               (417)
 Change in uncollected customer payments from Federal sources                         (1)                    -                    1                   -                   -
 Recoveries of prior year unpaid obligations                                           -                    (1)               (28)                    -                 (29)
 Obligated balance, end of year
    Unpaid obligations, end of year (gross)                                            -                13                   160                      -                173
    Uncollected customer payments from Federal sources, end of year               (43)                 (114)                       -                  -                (157)
 Obligated balance, end of year (net)                                 $           (43)      $          (101)      $          160        $             -    $            16


Budget Authority and Outlays, Net:
 Budget authority, gross (discretionary and mandatory)                $          110        $           85        $          261        $           45     $           501
 Actual offsetting collections (discretionary and mandatory)                     (144)                 (173)                 (204)                  (40)               (561)
 Change in uncollected customer payments from Federal sources
 (discretionary and mandatory)                                                        (1)                    -                    1                   -                   -
 Budget authority, net (discretionary and mandatory)                  $           (35)      $           (88)      $           58        $            5     $            (60)


 Outlays, gross (discretionary and mandatory)                         $           70        $           68        $          248        $           31     $           417
 Actual offsetting collections (discretionary and mandatory)                     (144)                 (173)                 (204)                  (40)               (561)
 Outlays, net (discretionary and mandatory)                                       (74)                 (105)                  44                     (9)               (144)
 Distributed offsetting receipts                                                  (10)                  (41)                  (19)                   (4)                (74)
 Agency Outlays, net (discretionary and mandatory)                    $           (84)      $          (146)      $           25        $           (13)   $           (218)




                                                                          101
Part V: Other Accompanying
Information (Unaudited)




           102
                                 COMMODITY CREDIT CORPORATION
                                             Other Accompanying Information

Schedule 1 – Schedule of Spending (Unaudited)
For the Fiscal Year Ended September 30, 2012
(Dollars in Millions)

The following schedule presents an overview of how and where CCC is spending its money in alignment to the
USDA Performance and Accountability Report Goals. Refer to the Management Discussion and Analysis,
Performance Section, for additional information on the alignment of CCC’s and USDA’s strategic goals.

                                                                                                    Non-Budgetary
                                                                                                     Credit Reform
                                                                              Budgetary           Financing Accounts
What Money is Available to Spend?

 Total Resources                                                         $           22,504       $              750
 Less Amount Available but Not Agreed to be Spent                                       554                      222
 Less Amount Not Available to be Spent                                                  659                      119
Total Amounts Agreed to be Spent                                                     21,291                      409

How was the Money Spent?

  Assist Rural Communities to Create Prosperity so They Are
  Self-Sustaining, Repopulating, and Economically Thriving:

  20- Contractual Services and Supplies                                               2,774                        -
  30- Acquisitions of Assets                                                          5,472                      206
  40 - Grants and Fixed Charges                                                       5,859                       46
  Total                                                                              14,105                      252

  Ensure Our National Forests and Private Working Lands Are Conserved,
  Restored, and Made More Resilient to Climate Change, While
  Enhancing Our Water Resources:

  40 - Grants and Fixed Charges, Total                                                    1,980                        -

  Help America Promote Agricultural Production and Biotechnology
  Exports as America Works to Increase Food Security:

  20- Contractual Services and Supplies                                                     813                    -
  30- Acquisitions of Assets                                                                  1                    2
  40 - Grants and Fixed Charges                                                           1,759                  163
  Total                                                                                   2,573                  165

Total Spending                                                                       18,658                      417

Unpaid obligations, end of year (gross)                                              11,358                      173
Unpaid obligations, brought forward, October 1 (gross)                                9,924                      210
Recoveries of prior year unpaid obligations                                           1,199                       29
Amounts Remaining to be Spent                                                         2,633                       (8)

Total Amounts Agreed to be Spent                                         $           21,291       $              409




                                                          103
                                           COMMODITY CREDIT CORPORATION
                                                     Other Accompanying Information

Schedule 2 - Change in Inventory by Commodity (Unaudited)
For the Fiscal Year Ended September 30, 2012
(Dollars in Thousands)

                                               Be ginning Inve ntory                                                                             Other                      Other Additions/             Ending Inve ntory
                                                  October 1, 2011                 Acquisitions                    Donations                Dispositions, Net a/       (Deductions), Net Quantity b/      September 30, 2012
                                 Unit of
                                 Measure       Quantity         Value       Quantity         Value         Quantity          Value       Quantity       Value           Quantity         Value          Quantity       Value
Fe e d Grains:
Corn                          Bushels                   -             -            488         3,735             (488)         (3,735)           -               -              -                  -           -               -
Corn Meal                     Pounds                    -             -        102,520        22,860         (102,520)        (22,859)           -              (1)             -                  -           -               -
Sorghum                       Bushels                 627         4,725         13,653       105,472          (14,280)       (110,197)           -               -              -                  -           -               -
          Total Fe e d Grains                        XXX          4,725          XXX         132,067            XXX          (136,791)        XXX               (1)          XXX                   -        XXX                -

Wheat                       Bushels                     -               -       27,244       222,134          (27,244)       (222,134)           -                -             -                  -           -               -
Wheat Flour                 Pounds                      -               -      125,607        26,721         (125,607)        (26,721)           -                -             -                  -           -               -
Wheat Products, Other       Pounds                      -               -       72,612        13,936          (72,612)        (13,936)           -                -             -                  -           -               -
               Total Whe at                          XXX                -        XXX         262,791            XXX          (262,791)        XXX                 -          XXX                   -        XXX                -

Rice Products               Cwt.                       6            148          3,265           80,714        (3,204)        (79,196)           -                -            11                248          78         1,914
        Total Rice Products                          XXX            148          XXX             80,714         XXX           (79,196)        XXX                 -          XXX                 248        XXX          1,914

Cotton, Upland                   Bales                  -               -            -               1              -                -           -                -             -                 (1)         -                -
                 Total C otton                       XXX                -         XXX                1           XXX                 -        XXX                 -          XXX                  (1)       XXX                -

Nonfat Dry Milk            Pounds                       -               -            -                -          (970)         (1,446)           -                -           970           1,446              -               -
      Total Dairy Products                           XXX                -         XXX                 -          XXX           (1,446)        XXX                 -          XXX            1,446           XXX                -

Soybean Products                 Bushels                  -             -           55              894           (55)           (895)              -             -             -                  -               -           -
Soybean Products                 Pounds                   -             -       93,496           17,997       (94,180)        (18,349)              -             -           683                352               -           -

Dry Edible Beans           Cwt.                        57         2,536            243        12,937             (303)        (15,631)          -              -                2                157            -            -
Blended Foods              Pounds                  15,983         5,209        176,636        56,957         (190,481)        (61,431)          -             (1)               -                  -        2,138          734
Meat                       Pounds                      72           155              -             -              (72)           (154)          -              -                -                  -            -            -
Dry Whole Peas             Cwt.                       250         8,486          2,089        64,601           (2,339)        (73,044)          -            (43)               -                  -            -            -
Lentils Dry                Cwt.                         -             -            681        19,930             (681)        (19,930)          -              -                -                  -            -            -
Vegetable Oil              Pounds                  33,102        24,429        210,449       149,544         (231,640)       (166,346)          -              -              309                225       12,220        7,851
Emergency Food Ration Bars Pounds                   2,183         4,440          2,752         5,619           (3,589)         (7,318)          -              -                -                  -        1,345        2,742
Miscellaneous              Cwt.                         -           128              -         7,708                -          (7,381)           -             -                -                  -            -          456
Poultry Frzn Chicken       Pounds                       -             -              -         1,155                -          (1,155)           -             -                -                  -            -            -
          SubTotal                                   XXX         45,383           XXX        337,342             XXX         (371,634)        XXX            (44)            XXX                 734         XXX        11,783

      Total Inve ntory O pe rations                  XXX         50,256           XXX        812,915             XXX         (851,858)         XXX           (45)             XXX           2,427            XXX        13,697

Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated. Due to distinct units of measure, Quantity totals are not tabulated, and are denoted as xxx.
 a/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of commodities.
 b/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory exchanged or
    in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted individually.




                                                                                                          104
                                COMMODITY CREDIT CORPORATION
                                           Other Accompanying Information

Summary of Financial Statement Audit 3
The table below is a summary of the results of the FY 2012 independent audit of CCC’s consolidated financial
statements.

    Audit Opinion                    Unqualified
    Restatement                      No

                                         Beginning
    Material Weaknesses                                    New             Resolved     Consolidated     Ending
                                          Balance
    System Substantial Non-
    Compliance – Funds Control               1              0                 0              0             1
    Total Material Weaknesses                1              0                 0              0             1

Summary of Management Assurances 4
The table below is a summary of management assurances related to the effectiveness of internal control over CCC’s
financial reporting and operations, and its conformance with financial management system requirements under
Sections 2 and 4 of the Federal Managers’ Financial Integrity Act (FMFIA). The last portion of table is a summary
of CCC’s compliance with the Federal Financial Management Improvement Act (FFMIA).

                      Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
    Statement of Assurance     Unqualified statement of assurance

                                 Beginning                                                               Ending
    Material Weakness                                New        Resolved     Consolidated   Reassessed
                                  Balance                                                                Balance
    Funds Control
    Management                       1                0            0              0              0          1
    Total Material Weakness          1                0            0              0              0          1

                             Effectiveness of Internal Control over Operations (FMFIA § 2)
    Statement of Assurance       Unqualified statement of assurance

                                 Beginning                                                               Ending
    Material Weakness                                New        Resolved     Consolidated   Reassessed
                                  Balance                                                                Balance
                                     0                0            0              0              0          0
    Total Material Weakness          0                0            0              0              0          0




3
    The Summary of Financial Statement Audit is as of completion of the Annual Report.
4
    The Summary of Management Assurances is as of completion of the Annual Report.


                                                           105
                         COMMODITY CREDIT CORPORATION
                                   Other Accompanying Information


               Conformance with Financial Management Systems Requirements (FMFIA § 4)
Statement of Assurance   Systems do not conform to financial management system requirements

                          Beginning                                                           Ending
Material Weakness                        New        Resolved    Consolidated    Reassessed
                           Balance                                                            Balance
Not in Substantial
Compliance with FFMIA
Funds Control
Management                    1            0            0             0             0           1
Total Non-conformances        1            0            0             0             0           1

                Compliance with Federal Financial Management Improvement Act (FFMIA)
                                              Agency                         Auditor
Overall Substantial Compliance                  No                             No
1. System Requirements                                             Yes
2. Accounting Standards                                            Yes
3. USSGL at Transaction Level                                      No




                                                 106
                            COMMODITY CREDIT CORPORATION
                                      Other Accompanying Information

          Improper Payments Information Act of 2002
Improper Payments Elimination and Recovery Improvement Act of
                            2012
The Improper Payments Information Act of 2002 (IPIA) was enacted to provide for estimates and reports of
improper payments by federal agencies. IPIA requires agencies to identify each year programs and activities
vulnerable to significant improper payments, to estimate the amount of overpayments or underpayments, and to
report to Congress on steps being taken to reduce such payments. As part of the continuing efforts to identify,
prevent, and recover improper payments, the Senate passed S. 1409, the Improper Payments Elimination and
Recovery Improvement Act of 2012 (IPERIA) on August 1, 2012. The bill requires agencies to intensify efforts to
identify, prevent, and recover improper payments.

During FY 2012, as part of both IPIA and IPERIA, FSA took the following actions to ensure full compliance under
both IPIA and IPERIA initiatives. These actions are described below:
       As part of the Fiscal Year 2012 IPIA Review Cycle, FSA completed Statistical Sample Reviews on five of
        the seven programs that are currently classified as “high risk” by the Office of Management and Budget.
        The five programs were the Marketing Assistance Loan Program (MAL), Conservation Reserve Program
        (CRP), Direct and Counter-Cyclical Payment Program (DCP), Noninsured Crop Disaster Assistance
        Program (NAP), and the Livestock Forage Disaster Program (LFP). As a result of continued improved
        performance, the Milk Income Loss Contract Program (MILC) and Loan Deficiency Payments (LDP) were
        not statistically reviewed. A chart comparing the performance of the programs sampled is shown below.
       Conducted a briefing for State Executive Directors on both IPIA and IPERIA and their related impact on
        State and County Offices.
       Conducted two nationwide training sessions with State and County Offices on the FY 2012 Statistical
        Sample Review Process, High-Dollar Reporting, and Recovery Auditing.
       Briefed both the USDA Office of the Chief Financial Officer and representatives of the OMB on proposals
        on how to more effectively assess high risk programs. This included the following four alternative
        methods: (1) Traditional, (2) Proactive, (3) Performance Based, or (4) Program Focused.
       One of the key elements of the IPERIA legislation is an increased focus on recovery auditing. Two FSA
        programs, Noninsured Crop Disaster Assistance and Conservation Reserve, have been chosen by the
        Department to pilot the recovery audit efforts. FSA staffs have been working with the contractor to help
        identify any improper payments that may have been made and not previously identified.




                                                      107
                             COMMODITY CREDIT CORPORATION
                                      Other Accompanying Information

FY 2013 operational guidance under both IPIA and IPERIA is anticipated to be received in late October or early
November.

                                            Improper Payment Results
                 Value of Total       Improper             Value of           Value of Incorrect
                                                                                                   Percent Incorrect
                    Outlays           Payments        Administrative Errors    Disbursements
                                                                                                    Disbursements
                  ($ Millions)       ($ Millions)        ($ Millions)           ($ Millions)
    Program     2011      2012      2011      2012      2011        2012       2011       2012      2011         2012
    MAL        $3,054    $2,878     $16        $2        $10         $0         $6         $2      0.21%       0.08%
    NAP 5        $90       $69       $8        $5        $4          $2         $4         $3      4.91%       5.28%
    DCP        $3,877    $3,867      $2        $19       $0          $0         $2         $19     0.05%       0.50%
    LFP         $235      $477       $7        $10       N/A         $1        N/A         $9       N/A        1.97%
    CRP        $1,605    $1,686     $27        $6        $6          $0        $21         $6      1.36%       0.36%
    LDP         N/A       N/A       N/A        N/A       N/A         N/A       N/A         N/A      N/A          N/A
    MILC        N/A       N/A       N/A        N/A       N/A         N/A       N/A         N/A      N/A          N/A




5
 Due to Departmental deadlines for completing the Statistical Sample Review, the FY 2011 Sample was based on
FY 2010 payments; FY 2012 Sample was based on FY 2011 payments.


                                                      108
Glossary of Acronyms




           109
                      COMMODITY CREDIT CORPORATION
                                         Glossary of Acronyms


ACRONYM   TITLE
ADA       Antideficiency Act

ADP       Automatic Data Processing

AGI       Adjusted Gross Income

AMS       Agricultural Marketing Service

APHIS     Animal and Plant Health Inspection Service

BCAP      Biomass Crop Assistance Program

BEHT      Bill Emerson Humanitarian Trust

BDO       Barter Delivery Obligations

CAP       Corrective Action Plan

CCC       Commodity Credit Corporation

CFO       Chief Financial Officer

CMI       Cherry Marketing Institute

CRP       Conservation Reserve Program

CREES     Cooperative State Research, Education, and Extension Service

CSC 2     Credit Subsidy Calculator 2

DACO      Deputy Administrator for Commodity Operations

DAFP      Deputy Administrator Farm Programs

DELAP     Dairy Economic Loss Assistance Program

DCP       Direct and Counter-Cyclical Payment Program

DPPSP     Dairy Product Price Support Program

eDCP      Electronic Direct and Counter-Cyclical Payment Program

eFMS      Electronic Funds Management System

ELAP      Emergency Loss Assistance Program

EMP       Emerging Markets Program

EQIP      Environmental Quality Incentive Program

EPAS      Economics, Policy, and Analysis

FACTS I   Federal Agencies Centralized Trial Balance System I

FASAB     Federal Accounting Standards Advisory Board

FAS       Foreign Agricultural Service




                                                  110
ACRONYM   TITLE
FATER     Food Aid Targeting Effectiveness Ratio

FCRA      Federal Credit Reform Act of 1990

FFAS      Farm and Foreign Agricultural Services

FFMIA     Federal Financial Management Improvement Act

FGP       Facilities Guarantee Program

FISMA     Federal Information Security Management Act

FMD       Foreign Market Development Program

FMFIA     Federal Managers’ Financial Integrity Act

FMMI      Financial Management Modernization Initiative

FNCS      Food, Nutrition, and Consumer Services

FNS       Food and Nutrition Service

FRBs      Federal Reserve Banks

FRPP      Farm and Ranch Lands Protection Program

FSA       Farm Service Agency

FSFL      Farm Storage Facility Loan Program

FY        Fiscal Year

GAAP      Generally Accepted Accounting Principles

GRP       Grassland Reserve Program

GSM       General Sales Manager

ICRAS     Inter-Agency Credit Risk Assessment System

IPIA      Improper Payments Information Act of 2002

IT        Information Technology

ITSD      Information Technology Services Division

ITS       Information Technology Services

LIP       Livestock Indemnity Program

LFP       Livestock Forage Program

LRP       Local and Regional Pilot Program

MAL       Marketing Assistant Loans

MAP       Market Access Program

MIDAS     Modernize and Innovate the Delivery of Agricultural Systems




                                                   111
ACRONYM        TITLE
MILC           Milk Income Loss Contract Program

MRP            Marketing and Regulatory Programs

NAP            Noninsured Crop Disaster Assistance Program

NEI            National Export Initiative

NASDA          National Association of State Departments of Agriculture

NRE            Natural Resources and Development

NRCS           National Resources Conservation Service

OCFO           Office of the Chief Financial Officer

OGC            Office of the General Counsel

OIG            Office of the Inspector General

OMB            Office of Management and Budget

OSHA           Occupational Safety and Health Agency

PAR            Performance and Accountability Report

P&F Schedule   Program and Financing Schedule

P.L.           Public Law

PP&E           Property, Plant and Equipment

PV             Present Value

QSP            Quality Samples Program

RMA            Risk Management Agency

RD             Rural Development

RSI            Required Supplementary Information

RSSI           Required Supplementary Stewardship Information

RTCP           Reimbursement Transportation Cost Payment

SBR            Statement of Budgetary Resources

SFFAC          Statement of Federal Financial Accounting Concepts

SFFAS          Statement of Federal Financial Accounting Standards

SME            Small to Medium-Sized

SRTGs          State Regional Trade Groups

TAAF           Trade Adjustment Assistance for Farmers

TAP            Tree Assistance Program




                                                         112
ACRONYM   TITLE
TASC      Technical Assistance for Specialty Crops

TTPP      Tobacco Transition Payment Program

USAID     United States Agency for International Development

USDA      United States Department of Agriculture

USSGL     United States Standard General Ledger

USWA      United States Warehouse Act

WRP       Wetlands Reserve Program




                                                     113
To learn more about OIG, visit our website at
www.usda.gov/oig/index.htm
How To Report Suspected Wrongdoing in USDA Programs

Fraud, Waste, and Abuse
In Washington, DC 202-690-1622
Outside DC 800-424-9121
TDD (Call Collect) 202-690-1202

Bribes or Gratuities
202-720-7257 (Monday–Friday, 9:00 a.m.– 3 p.m. ET)




The U.S. Department of Agriculture (USDA) prohibits discrimination in all of its programs and activities on the basis of race, color, national origin,
age, disability, and where applicable, sex (including gender identity and expression), marital status, familial status, parental status, religion, sexual
orientation, political beliefs, genetic information, reprisal, or because all or part of an individual’s income is derived from any public assistance program.
(Not all prohibited bases apply to all programs.) Persons with disabilities who require alternative means for communication of program information
(Braille, large print, audiotape, etc.) should contact USDA’s TARGET Center at (202) 720-2600 (voice and TDD). USDA is an equal opportunity provider
and employer.
